<html>
<title> - TERRORIST TRAVEL: VETTING FOR NATIONAL SECURITY CONCERNS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


        TERRORIST TRAVEL: VETTING FOR NATIONAL SECURITY CONCERNS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 17, 2015

                               __________

                           Serial No. 114-176

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-378 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>                    
                      
                      
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
               Andrew Arthur, Subcommittee Staff Director
       Dimple Shah, Deputy Counsel National Security Subcommittee
                          William Marx, Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 17, 2015................................     1

                               WITNESSES

The Hon. Alan Bersin, Assistant Secretary for International 
  Affairs, Chief Diplomatic Officer for the Office of Policy, 
  U.S. Department of Homeland Security
    Oral Statement...............................................     4
The Hon. Leon Rodriguez, Director, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security
    Oral Statement...............................................     5
The Hon. Michele Thoren Bond, Assistant Secretary, Bureau of 
  Consular Affairs, U.S. Department of State
    Oral Statement...............................................     7
    Written Statement............................................     9
The Hon. Anne C. Richard, Assistant Secretary, Bureau of 
  Population, Refugees and Migration, U.S. Department of State
    Oral Statement...............................................    17
    Written Statement............................................    19

                                APPENDIX

Article for the Record titled, ``San Bernardino Terrorists Didn't 
  Post Public Messages, FBI Director James Comey says,'' 
  submitted by Ranking Member Cummings...........................    92
Article for the Record titled, ``Exclusive: Homeland Security 
  Passed on Plan to Vet Visa Applicants' Social Media,'' 
  submitted by Chairman Chaffetz.................................    93
November 20, 2014, Memo from Secretary Jeh Johnson, submitted by 
  Chairman Chaffetz..............................................    94
Questions for the Record for The Hon. Alan Bersin, submitted by 
  Chairman Chaffetz..............................................   100

 
        TERRORIST TRAVEL: VETTING FOR NATIONAL SECURITY CONCERNS

                              ----------                              


                      Thursday, December 17, 2015

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:03 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Gowdy, Farenthold, Lummis, 
Massie, Meadows, DeSantis, Mulvaney, Buck, Walker, Blum, Hice, 
Russell, Carter, Grothman, Hurd, Palmer, Cummings, Maloney, 
Lynch, Connolly, Cartwright, Duckworth, Kelly, Lawrence, Lieu, 
Plaskett, DeSaulnier, and Lujan Grisham.
    Chairman Chaffetz. Committee on Oversight and Government 
Reform will come to order. Without objection, the chair is 
authorized to declare a recess at any time.
    The United States has the most generous immigration system 
in the world. In fiscal year 2015, the State Department issued 
almost 10 million visas for people seeking temporary entry into 
the United States. The State Department issued an additional 
531,463 immigrant visas last year alone. Those 10.5 million 
immigrants and nonimmigrant visa holders joined an estimated 20 
million others who entered the United States without visas 
under the Visa Waiver Program. Our government also issued 
1,075,063 border crossing cards to Mexican nationals in just 
the first 10 months of fiscal year 2015.
    There are an estimated, we are guessing, close to 10 
million border crossing cards in circulation today. On top of 
that, more than 1 million nonimmigrant students are lawfully 
studying in the United States on student visas. Some 2,093,711 
individuals were granted employment authorization in fiscal 
year 2015. In fiscal year 2013, the last year for which 
statistics are available, the United States granted asylum 
status to 25,199 people. And from fiscal year 2008 to fiscal 
year 2014, the number of individuals claiming a credible fear 
of persecution in their home country increased some 921 
percent.
    If we can put that graphic up, I would appreciate it.
    We are seeing a rapid rise in people coming to the United 
States, stepping foot into our country and claiming asylum. We 
have had a lot of discussion about refugees, who the 
administration want to import to the United States of America, 
but let's also understand the surge that is happening on our 
borders. Just today on the front page of The Washington Post is 
talking--has a front page story about the number of children 
that are coming across our borders.
    You can put that graphic down. Thank you.
    The total number of asylum applications filed between 
fiscal year 2010 and fiscal year 2014 more than doubled, going 
from 47,000-plus to over 108,000. And 69,933 refugees were 
resettled in the United States just last year, but that's an 
incomplete picture, and, evidently, not enough for the Obama 
administration. Not everyone who is--who is here came legally, 
or obtained lawful status once they got here. In fiscal year 
2013, 241,424--sorry--241,442 people were processed for 
expedited removal. In fiscal year 2014, the Border Patrol made 
486,651 apprehensions. Still, there's up to an estimated 15 
million people that are here illegally. It's estimated that 40 
percent of those folks entered legally and simply did not 
leave.
    These numbers beg the question of whether the United States 
is doing enough to vet people who are applying to come to the 
United States. Our world is changing, and along with it, the 
types of threats that we encounter. Certainly with our 
experience with 9/11, the Boston bombers, and the more recent 
terrorist attacks make it clear that the immigration screening 
process is a critical element in protecting the American 
people.
    Reviewing the background of foreign nationals before they 
come to the United States is crucial to understanding who is 
entering the United States, and the recent terrorist attacks in 
San Bernardino and Paris highlight how important these 
background checks have to be.
    We saw some of the most horrific terror episodes that we've 
had in our Nation recently in California: 14 people murdered, 
wounding 21 more. It was the deadliest terrorist attack on the 
United States soil since September 11. Tashfeen Malik came to 
the United States on a fiance(e) visa before getting her green 
card. She reportedly passed three background checks as she 
emigrated to the United States from Pakistan.
    First, DHS checked her name against American law 
enforcement and national security databases, then the State 
Department used her fingerprints to do a criminal background 
check. Finally, when she was applying for a lawful permanent 
resident status, DHS checked her out again. She cleared each 
check, no red flags were raised. But it was pretty clear, now 
looking back, that it was well known among her friends and 
family that she supported violent jihad against the United 
States.
    It's being reported this morning, I think it's MSNBC, that 
as early as 2011, Homeland Security was preparing to check 
social media, and yet Homeland Security decided that was a bad 
idea. Almost every story I've ever heard, read, and seen is 
about--even the President has made comments about terrorists 
who are really good at using social media. And back in 2011, 
when Homeland Security was thinking about using social media, 
the decision in Homeland Security was, bad idea. They made the 
wrong call. They made the really wrong call.
    It is unclear what DHS will actually do when it encounters 
fraud via social media or other tools it utilizes for 
applicants seeking admission to the United States. It's my 
understanding that Homeland Security might start looking at it. 
This is publicly available information. Under current law, 
overstaying a visa, violating its terms, or committing fraud in 
the immigration process is sufficient to render an alien 
deportable, but now, pursuant to executive actions, such 
conduct is not necessarily a priority for removal.
    All too often, we hear stories of offenders who are 
encountered by law enforcement and told they overstayed and 
committed crimes, and then Jeh Johnson, the Secretary of 
Homeland Security, puts out guidance and says even if you 
commit sex crimes, even if you do certain other crimes, don't 
necessarily need to deport them. They're here illegally, they 
commit a crime, and Homeland Security is saying, use 
discretion, we may not want to--we may not want to deport these 
people. It's not a threat to public safety.
    You tell a woman who's been raped that it's not--that it's 
not against public safety to that have person here. We're going 
to go through that in this committee here today.
    The joint subcommittee hearing last Thursday left many of 
this committee's members frustrated and confused about the 
country's ability to address a growing threat. Homeland 
Security sent its Deputy Assistant Secretary for Screening 
Coordination Office to this committee. It was an embarrassment. 
As the Deputy Assistant Secretary, her bio states she, quote, 
``deters, detects, and denies access to, or withholds benefits 
from individuals who may pose a threat to the United States of 
America.'' She couldn't answer a single question. ``I don't 
know.'' ``I'll have to get back with you.''
    All the promises she made, by the way, she didn't fulfill. 
She couldn't even tell me if more people come in by land, by 
sea, or by air. She thinks most people come into this country 
by air. And she's in charge of screening.
    You can see why we're scared to death that this 
administration, the Department of Homeland Security, the State 
Department is not protecting the American people. She has 
worked in that office since 2007. The basic lack of information 
of a senior official raises serious concerns, it inspires 
little confidence, and Americans have legitimate concerns about 
the threat that radical extremists pose to their safety and the 
safety of their friends, families, and communities.
    I'd like to complete my opening remarks with a video. This 
is of the national security advisor, and then followed up by--
followed up by--you'll see. It will speak for itself.
    [Video shown.]
    Chairman Chaffetz. At least the FBI Director calls it like 
it is. At least the FBI Director was telling us candidly what's 
happening out there. And in the case of the most recent 
terrorist attacks, when the person maybe hasn't been here, or 
there are other circumstances, you can see why we have great 
cause for concern.
    So we have a series of questions today. What I'd like to do 
is introduce the panel, allow for their opening statements, 
then we will have the opening statement from Mr. Cummings, and 
we will go to questions from there.
    I would--I will hold the record open for 5 legislative days 
for any members who would like to submit a written statement.
    We're now going to recognize our witnesses. We're pleased 
to welcome the Honorable Alan Bersin, Assistant Secretary for 
International Affairs and Chief Diplomatic Officer for the 
Office of Policy at the United States Department of Homeland 
Security; the Honorable Leon Rodriguez, Director of the United 
States Citizenship and Immigration Services; the Honorable 
Michele Thoren Bond, Assistant Secretary of the Bureau of 
Consular Affairs at the United States Department of State; and 
the Honorable Anne Richard, Assistant Secretary, Bureau of 
Population, Refugees, and Migration, United States Department 
of State. We welcome you all, and thank you for being here.
    Pursuant to committee rules, all witnesses are sworn before 
they testify. If you will please rise and raise your right 
hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    And let the record reflect that the witnesses answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
if you please limit your oral testimony to 5 minutes. Your 
entire written record will be--statement will be made part of 
the record. We'll do the four opening statements, and then 
we'll hear the opening statement from Mr. Cummings, and then we 
will go to questions from there. Mr. Bersin, you are now 
recognized for 5 minutes.

                       WITNESS STATEMENTS

                    STATEMENT OF ALAN BERSIN

    Mr. Bersin. Good morning, Mr. Chairman, members of the 
committee. The last time I had the privilege of being here, it 
was to discuss the issue of Libya. I'm happy to be here this 
morning. I look forward to our dialogue.
    I, also, in this 15th year since 2001, since September 11, 
2001, want to express the support and sympathy that I and my 
family feel, and I'm sure my colleagues on the panel share and 
our colleagues across Federal service, for the families of 
the--those killed in San Bernardino and for the families and 
the victims who were injured, the 21 victims injured in that 
terrorist attack.
    Our written testimonies and the statements submitted to the 
committee actually describe, in some detail, the systems that 
have been put in place for screening of terrorist travel. What 
I'd like to do in the 4 minutes I have left is to give you an 
overview to look at the system, and the four major shaping 
factors that have built it since 9/11. And I point out that 
this is a system that was built under the leadership of two 
presidents, one Republican and one Democrat; it was built under 
the leadership of four Homeland Security Secretaries, two 
Democratic and two Republican; it was built under four 
Secretaries of State, two Republicans and two Democrats.
    What we faced after 9/11 was a situation in which we did 
not have a unified system. I was the United States Attorney in 
southern California, and I recall in the 1990s that there were 
terrorist watch lists in each of the various departments. We 
were stovepiped. In the aftermath in the 14 years since 9/11, 
we have built a system that can--that brings together the 
information of the United States Government, and 
institutionalizes it in a multiagency way. We have the National 
Counterterrorism Center, the NCTC, that maintains the TIDE, the 
Terrorist Identities Database Environment; we have the TSDB, 
the Terrorist Screening Database, managed by a multiagency 
terrorist screening center, the terrorist watch list. We 
actually have brought the system together and we do 
communicate, and I trust during this hearing, we will have an 
opportunity to discuss that.
    The second major shaping influence was we realized that 98 
or 99 percent of all trade and travel into the United States is 
perfectly lawful and legitimate, and therefore, we needed to 
see security and travel facilitation and trade not as being 
mutually exclusive, but as being part of the same process. We 
needed to introduce a risk management into the trade and travel 
vetting systems.
    The third influence was that we recognized, in a global 
world where there's a massive instantaneous constant flow of 
goods, people, ideas, capital, electrons, images, and ideas, 
that, in fact, protecting the homeland, the Homeland Security 
enterprise is inherently transnational. And we built out a 
system in which, together with the State Department, the 
Defense Department, the intelligence agencies, DHS has a 
presence abroad to watch the movement of cargo and move--and 
the movement of persons toward the homeland.
    And fourthly, what we've seen recently, and that is shaping 
the system now, is that, in fact, we have a transnational 
threat that is cyber-enabled, and that our terrorist enemies 
are actually using the Internet to radicalize those who listen 
to their message and are receptive to it.
    So at end, what we have built, and what we need to continue 
to build, hopefully in a bipartisan fashion, is a system that 
protects the American people by building up a Homeland Security 
enterprise that takes into account predeparture toward the 
United States, departure toward the United States, entry at the 
United States, and then exit from the United States in due 
course.
    Lastly, Mr. Chairman, I would be--with all due respect, I 
would be remiss if I did not say on behalf of Kelli Ann 
Burriesci, that I know of no other career person in the policy 
office that I'm responsible for who is more dedicated, more 
knowledgeable about screening. The fact of the matter is, Mr. 
Chairman, she came to this hearing expecting to talk about the 
Visa Waiver Program, and she was hardly questioned at all about 
it. I make no apologies for her. She is first-rate. She's an 
American, she's a patriot, and I regret that you came away with 
a different impression.
    Thank you, sir.
    Chairman Chaffetz. That, we will be discussing.
    Mr. Rodriguez, you are now recognized for 5 minutes.


                  STATEMENT OF LEON RODRIGUEZ

    Mr. Rodriguez. Good morning, chairman, ranking member, 
members of the committee. One of our--our very most obligation 
as public servants is to safeguard public safety and national 
security. That is particularly true when we are briefing 
benefits and privileges. So when we give somebody a driver's 
license, we require a test so we know that that person will 
drive safely. When we give professionals licenses, we test them 
to know that they can practice their professions in a manner 
that poses minimal threat of harm. We work in every respect in 
what we do to minimize risk. That is particularly true in the 
area of citizenship and immigration. When we grant citizenship 
and immigration benefits, we take a number of safeguards to 
protect the national security.
    An observation made by Congressman Gowdy last week at a 
hearing before his subcommittee resonated with me particularly, 
and he challenged us that when incidents occur, we be talking 
not just about what we are doing in response to that incident, 
but that we really be thinking in terms of prevention of future 
challenges. And as I reflected on that, that, in fact, has been 
our posture and will continue to be our posture in the future, 
and I'll give a few examples.
    We are, as Secretary Johnson has frequently observed, in an 
evolving threat environment. More and more, the threats are not 
the threats posed by organizations acting in a concerted 
manner, but increasingly those threats are the threats of 
isolated individuals, or isolated groups of people, perhaps 
inspired by the organizations that present a threat to our 
country. In light of that combination of threats, the organized 
and also the isolated threats, we have been taking a number of 
measures over the past few years to reinforce the work that we 
do. One clear example is the institution of the interagency 
check that we apply in refugee vetting and in other 
environments. That gives us a very organized, a very methodical 
way to query against intelligence databases when we are 
screening particular individuals.
    So I know there have been discussions about individuals who 
entered the United States at earlier times. Some of those 
individuals were not subject to that sort of screening. They 
would be today, and, in many cases, that would have prevented 
their entry.
    When we screen Syrian refugees, we--we prescreen cases 
before interviews are conducted. That is another innovation in 
a spirit of prevention.
    And we have been piloting the use of social media for the 
vetting of particular categories of people seeking individuals. 
There have, in fact, been three pilots that USCIS has used in 
combination with its intelligence community and law enforcement 
partners to screen particular categories of individuals seeking 
immigration benefits. We have already concluded two of those 
pilots, which operated on a relatively small group of people. 
We have learned a number of important lessons from that pilot, 
which, no doubt, I will have an opportunity to expand on those 
lessons in this hearing, and now we are in a--the midst of a 
third pilot, which, in fact, has been applied and is in the 
process of being applied to literally thousands of applicants 
for immigration benefits.
    So any thought that the Department of Homeland Security had 
simply foregone the use of social media for purposes of 
immigration screening is a mistaken thought. We have not spoken 
about it in great detail, because the fact is the more we speak 
about it, the more those who will use it will cease to use it, 
knowing that we will be examining that content.
    What happened in San Bernardino is a tragedy, and we should 
take no other lesson from what happened in San Bernardino that 
we need to look at what we do and make sure that something like 
that does not happen again, that a tragedy of that type does 
not happen again. And, in fact, we have been working together 
with our partners at the State Department, our partners 
elsewhere in DHS, our partners in the intelligence community, 
to further look at opportunities to strengthen the manner in 
which we screen individuals.
    As I have read news accounts of what occurred in San 
Bernardino, I am struck by the fact that among the victims in 
San Bernardino are individuals who news reports related were 
immigrants themselves, who had come from all over the world, 
who had come here to live lives of service, serving the most 
vulnerable people in our society. And I do feel that my oath 
applies to those individuals as well as all of the victims of 
San Bernardino to protect them.
    While immigration is a privilege as to any one individual, 
it is not a luxury for our country. It is necessary for the 
vitality of our economy, it is necessary for the stability and 
unity of our families, it is fundamental to our values, and I 
pledge to operate my part of the immigration system in a way 
that maximizes every opportunity that we have to protect the 
American people, to protect our national security.
    Thank you, Chairman, for inviting us here today.
    Chairman Chaffetz. Thank you. Thank you.
    Ms. Bond, you're now recognized for 5 minutes.


                STATEMENT OF MICHELE THOREN BOND

    Ms. Bond. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and distinguished members of the committee. As has 
been described by my colleagues from the Department of Homeland 
Security, the Department of State, along with partner agencies 
throughout the Federal Government, have built a layered visa 
and border security screening system in order to review and 
assess the visa eligibility and status of foreign visitors from 
their visa applications throughout their travel to and arrival 
in the United States. We take our commitment to protect 
America's borders and citizens seriously, and we constantly 
analyze and update clearance procedures and look for new ways 
to do an even better vetting process.
    My written statement, which I request be put in the record, 
describes the screening regimen that applies to all visa 
categories. And although the tragedy, the terrorist attack in 
San Bernardino sparked particular interest in the fiance(e) 
visa, we apply equally rigorous security screening to all visa 
applicants, all travelers to the United States.
    The vast majority of visa applicants, and all immigrant and 
fiance(e) visa applicants, are interviewed by a consular 
officer. And the information that has been provided describes 
the extensive training which is provided to the officers: A 
strong emphasis on border security and fraud prevention, 
interagency coordination, how to conduct those interviews, how 
to ensure that the name check process throughout the 
interagency is thoroughly done, all applicants' data are vetted 
in this interagency process against databases that contain 
millions of records of individuals found ineligible for visas, 
or regarding whom potentially derogatory information exists, 
including the Terrorist Identity Database, which was referred 
to. We fingerprint them and screen theme against DHS and FBI 
databases of known suspected terrorists, wanted persons, 
immigration law violators, and criminals.
    We screen their photos against the photos are known or 
suspected terrorists and the entire gallery of individuals who 
have ever applied for a visa, which is contained in our 
database at the State Department.
    When the interagency screening process generates a red 
light hit, the consular officer suspends visa processing and 
submits the application for a Washington-based interagency 
review conducted by Federal law enforcement and intelligence 
agencies, and the Department of State.
    At individual overseas posts, we have additional screening 
done by DHS's visa security program staff and the PATRIOT 
system. The visa security units are located in over 20 high-
threat posts, and ICE special agents assigned to the visa 
security units provide onsite vetting of visa applications and 
other law enforcement support to consular officers.
    Security reviews do not stop when the visa is issued. The 
Department and partner agencies continuously match new threat 
information with our records of existing visas or Visa Waiver 
Program travelers, and we use our authority to revoke these as 
when indicated. Since 2001, the Department has revoked over 
122,000 visas for a variety of reasons, including nearly 9,500 
for suspected links to terrorism.
    We are engaged with interagency partners in the senior 
level review of the fiance(e) visa process ordered by President 
Obama, and I expect that recommendations developed in this 
review will apply to all visa screening.
    We're also working with the Department of Homeland Security 
and the Bureau of Counterterrorism at the Department on 
security screening of Visa Waiver Program travelers and 
enhancing the data sharing commitments required for VWP 
membership.
    We are investigating the applicability of advanced 
technology in data analysis, risk screening, and credibility 
assessment tools.
    Mr. Chairman, Ranking Member Cummings, and distinguished 
members, the Department of State has no higher priority than 
the safety of our fellow citizens at home and abroad, and the 
security of the traveling public. Every visa decision is a 
national security decision. There is nothing routine about our 
work. We appreciate the support of Congress as we continuously 
work to strengthen our defenses.
    Mr. Chairman, I know you have visited consular sections in 
Mexico. I encourage every one of you to visit our consular 
sections when you are abroad, to meet with our staff, and to 
observe for yourselves the process that applicants undergo.
    I look forward to your questions.
    [Prepared statement of Ms. Bond follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Ms. Richard, you're now recognized for 5 minutes.


                  STATEMENT OF ANNE C. RICHARD

    Ms. Richard. Chairman Chaffetz, and distinguished members 
of the committee, thank you for the opportunity to appear 
before this committee regarding U.S. Refugee Admissions 
program, and security vetting for refugees considered for 
resettlement in the United States.
    In fiscal year 2015, nearly 70,000 refugees of 67 different 
nationalities were admitted for permanent resettlement in the 
United States, including 1,700 Syrians. In fiscal year 2016, 
the President has determined that we should increase the 
overall number to 85,000, including at least 10,000 Syrians. We 
recognize that admitting more Syrian refugees to the United 
States is only part of the solution to the current global 
refugee and migration crisis, but it is in keeping with our 
American tradition. It shows the world that we seek to provide 
refuge for those most in need; it sets an example for others to 
follow; and it adds to the diversity and strength of American 
society.
    Resettlement is offered to refugees who are among the most 
vulnerable, people for whom a return to Syria someday would be 
extremely difficult, if not impossible, such as women and girls 
at risk, survivors of torture, children and adolescents at 
risk, and refugees with medical needs, disabilities, or 
physical or legal protection needs.
    Families or individuals who could benefit the most from 
resettlement are referred to the U.S. Refugee Admissions 
program by the UNHCR, the U.N. refugee agency. But let me make 
clear, the UN refugee agency does not determine who comes to 
the United States. That determination is made by the Department 
of Homeland Security.
    I know the murderous attacks in Paris on November 13 have 
raised many questions about the spillover of not just migrants 
to Europe, but also the spread of violence from war zones in 
the Middle East to the streets of a major European capital.
    Let me assure you that the entire executive branch and the 
State Department that I represent, has the safety and security 
of Americans as our highest priority. As an essential 
fundamental part of the U.S. Refugee Admissions program, we 
screen applicants carefully in an effort to ensure that no one 
who poses a threat to the safety and security of Americans is 
able to enter our country. Consequently, resettlement is a 
deliberate process that can take 18 to 24 months.
    Refugees of all nationalities considered for admission to 
the United States undergo intensive security screening 
involving multiple Federal intelligence, security, and law 
enforcement agencies, including the National Counterterrorism 
Center, the FBI's Terror Screening Center, and the Departments 
of Homeland Security, State, and Defense.
    And I want to make clear that we work in very close 
partnership with USCIS that is headed by Leon Rodriguez, and so 
it is--our offices are in constant touch.
    Our responsibility is to help prepare the refugees for 
their interview, and to prepare them, those who qualify, for 
life in the United States. DHS, though, has the heavy burden of 
determining whether someone qualifies for a refugee, and 
screening out anyone who can pose a possible threat. No one has 
a right to come to the United States as a refugee, and so if 
there's any doubt, they screen people out.
    Applicants to the U.S. Refugee Admissions program, as you 
know, are currently subject to the highest level of security 
checks of any category of travel to the United States. These 
safeguards include biometric or fingerprint and biographic 
checks, and a lengthy in-person overseas interview by 
specially-trained DHS officers, who scrutinize the applicant's 
explanation of individual circumstances to ensure the applicant 
is a bona fide refugee, and is not known to present security 
concerns to the U.S.
    The vast majority of the 3 million refugees who have been 
admitted to the United States since the Vietnam era, including 
from some of the most troubled regions in the world, have 
proven to be hardworking and productive residents. They pay 
taxes, send their children to school, and after 5 years, many 
take the test to become citizens. Some serve in the U.S. 
military and undertake other forms of service for their 
communities and our country.
    I'm happy to answer any questions you may have about our 
refugee resettlement program, or our contributions to aid 
refugees and victims of conflict overseas and our diplomatic 
efforts related to humanitarian operations around the world. 
Thank you.
    [Prepared statement of Ms. Richard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    We'll now recognize our ranking member, Mr. Cummings of 
Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. I thank 
you for calling this hearing.
    And I think that if we were to--as I listened to the 
testimony, there are two words that ring out for me, and I hope 
that it will be the theme of this hearing, and they are two 
words that I repeat to my staff over and over and over again: 
effectiveness and efficiency, effectiveness and efficiency.
    I believe that I speak for every member of this committee 
when I express our condemnation for the actions of these two 
depraved terrorists, Syed Farook and Tashfeen Malik, who 
murdered 14 innocent people in cold blood, and injured many, 
many others in their sickening rampage in California just 2 
weeks ago. Certainly we send our prayers to the people who were 
injured and to the families of the innocent victims. We know 
that their lives will be changed forever by this horrific act. 
We also extend our profound thanks to the hundreds of law 
enforcement officials, emergency first responders, and 
healthcare providers who responded then and are still 
responding today to this act of cowardice and evil.
    This attack was unusual because it was carried out by a 
husband, a United States citizen, and a woman who came into our 
country on a fiance(e) visa, married this man and then had a 
baby with him, and their baby was only 6 months old at the time 
of the attack.
    Last week, the Director of the FBI, James Comey, testified 
before the Senate that based on the FBI's ongoing 
investigation, it appears that both Mr. Farook and Ms. Malik 
were radicalized before Malik entered the United States.
    Director Comey explained yesterday, however, that contrary 
to suggestion that a simple Google search would have revealed 
Malik's radicalism, these terrorists did not post their 
messages on publicly available social media. Director Comey 
stated, and I quote, ``We found no evidence of a posting on 
social media by either of them at that period of time or 
thereafter reflecting their commitment to jihad or martyrdom,'' 
end of quote.
    Director Comey also said this, and I quote, ``I see no 
indication that either of these killers came across our screen, 
tripped any tripwires,'' end of quote. He also stated that he 
had not seen anything that, quote, ``should have put them on 
our screen,'' end of quote.
    Unfortunately, due to the extremely short turnaround for 
today's hearing, we do not have anyone here from the FBI.
    Mr. Chairman, I ask unanimous consent to place this Fox 
News story into the record, which is entitled, ``San Bernardino 
Terrorists Didn't Post Public Messages, FBI Director Comey 
Says.''
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. Thank you, Mr. Chairman.
    So if a search of the public social media would not, in 
fact, have prevented the attack, the question before us today 
is what else, and this is the question that is so vital to our 
witnesses and we need to know this--and by the way, Mr. 
Rodriguez, I agree with you when you referred to our 
distinguished--distinguished gentleman from South Carolina, Mr. 
Gowdy, about preventing things--but the question is, what else 
needs to be done to identify foreign nationals seeking to enter 
the United States who pose a risk to our national security?
    Again, effectiveness and efficiency. For example, should 
the United States agencies attempt to access password-protected 
platforms, like the one reportedly used by Mr. Malik? How 
should they identify people who use alternate identities, which 
law enforcement officials also believe Malik apparently used? 
Which agency should do it, the State Department? The DHS? The 
FBI? Our intelligence agencies? All of them?
    And once they conduct the screening, how should they report 
the results? Should they go into the National Counterterrorism 
Center's TIDE database? The FBI's terrorist screening database? 
Or others?
    And, finally, should Federal agencies be able to access 
communications over social media accounts of U.S. citizens who 
sponsor foreign nationals, and if so, under what circumstances? 
These are all very difficult questions, and a lot of the 
answers may involve classified information.
    I understand that there are several pilot programs already 
in the works. I also understand that the President has ordered 
a review, that is currently ongoing.
    Our job is to grapple with these issues and develop 
solutions that help protect this great Nation. The American 
people expect aggressive and urgent action to screen people 
entering the country to ensure that they do not pose risks to 
our national security. Again, effectiveness and efficiency.
    For these reasons, I believe that one of the most 
constructive steps our committee can take today is to examine 
the various information databases used by Federal agencies to 
make sure they are sharing as much information as possible to 
promote our national security.
    And so I thank our State Department and DHS witnesses for 
being here on such short notice, and I look forward to your 
testimony as you address that question of how we can be more 
effective and efficient.
    With that, Mr. Chairman, I want to thank you for your 
courtesy, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Ohio, Mr. Jordan, 
for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Bersin, in your opening statement, you said that the 
witness we had last week, Ms. Burriesci, was a patriot, so no 
one's questioning that, but then you also said that she came 
prepared to answer questions about the Visa Waiver Program last 
week. I just want to read from the transcript last week. Here 
was question one.
    ``How many Visa Waiver Program overstays are there 
currently in the United States?'' Ms. Burriesci said, ``I 
didn't bring that number.''
    Second question, ``How many overstays in the Visa Waiver 
Program may have traveled to Syria before they got here? Do you 
have that number?'' Her response, ``I don't know that number.''
    Final question was ``How many people came from a Visa 
Waiver Program country that are here today and then may have 
been in Syria or Iraq before they came here? Do we know that?'' 
``I don't have that answer.''
    So she obviously wasn't prepared to answer questions about 
the subject you told her.
    Now, does Ms. Burriesci work for you, Mr. Bersin?
    Mr. Bersin. Yes, sir.
    Mr. Jordan. So why didn't you just come last week?
    Mr. Bersin. I was in London with Secretary Johnson at the 
G6 plus 1 meeting with----
    Mr. Jordan. Are you prepared to answer the questions----
    Mr. Bersin. --Homeland Security----
    Mr. Jordan. --today?
    Mr. Bersin. --on the Paris attacks.
    Mr. Jordan. We sent an email asking for some of these 
numbers. Are you prepared to give us the answers today?
    Mr. Bersin. With regard to overstays, as was indicated, Mr. 
Jordan, the--this has been an issue spanning both Republican 
and Democratic administrations with regard to the overstay.
    Mr. Jordan. Let me just ask you some specifics. How many 
Visa Waiver Program travelers are in the country today?
    Mr. Bersin. Sir, if you give me an opportunity, I'd be 
pleased to respond to your question.
    Mr. Jordan. Okay.
    Mr. Bersin. The overstay report, which has been the subject 
of attention to this committee and to the Congress for many 
years, if you'd like to understand why that report has not been 
produced despite 20 years of requests, I'd be happy to provide 
that.
    Mr. Jordan. I'm not asking for a report, I'm asking for a 
number. How many people--how many Visa Waiver Program travelers 
are in the country today? Just the overall number, not even 
overstays, just how many are here today?
    Mr. Bersin. There are 20 million--there are 20 million 
persons who enter the country each year on the Visa Waiver 
Program.
    Mr. Jordan. Twenty million a year. Do we know how many are 
here today?
    Mr. Bersin. I do not know. I cannot give you a number on--
given the way in which the 90 days----
    Mr. Jordan. Of that 20 million, how many--how many 
overstays are here in a year's time, then----
    Mr. Bersin. We do not track----
    Mr. Jordan. --how many overstays?
    Mr. Bersin. We track overstays and we are preparing a 
report for that. We do not have a number that has been vet----
    Mr. Jordan. Let me ask you this: Of the 20 million who come 
in here in a year, do we know how many may have been to Syria 
and/or Iraq, some traveled there to Syria and Iraq and then 
come to the United States in the Visa Waiver Program. Do we 
know?
    Mr. Bersin. The Homeland Security investigations, the 
counterterrorism and criminal exploitation unit has opened up a 
number of investigations with respect to the number of 
Syrians----
    Mr. Jordan. But do we know a number?
    Mr. Bersin. --who have entered this country.
    Mr. Jordan. You said 20 million come in the Visa Waiver 
Program in a year, a bunch of those overstay. We know that. You 
can't give me that number. I'm asking, of the people who come 
on the Visa Waiver Program travelers, of those people, do we 
know of any of those who were in Syria and Iraq some time in 
the year or so before they come here on the Visa Waiver 
Program?
    Mr. Bersin. We do. There were 113 investigations opened up 
by Homeland Security investigations with regard to that matter, 
Mr. Jordan, and the bulk of those investigations have actually 
been closed. And, in fact, there are 18 ongoing investigations 
associated with Syrian nationals.
    Mr. Jordan. Did that 113 number specific--specific to the 
question I asked, people in the Visa Waiver Program who may 
have traveled to--who did travel to Syria or Iraq before they 
came here?
    Mr. Bersin. I do not have a specific number. I'm telling 
you that on the overstays that were identified----
    Mr. Jordan. So it could be much higher than 113?
    Mr. Bersin. Mr. Jordan, I am very eager to answer your 
questions, but I cannot answer----
    Mr. Jordan. And I've got a minute and 20 seconds.
    Mr. Bersin. --questions if you interrupt me every time I 
begin to do so.
    Mr. Jordan. All right. I'm sorry. Keep going.
    Mr. Bersin. Thank you. There are investigations, and over 
the last year in fiscal year 2015, there have been 118 
investigations of Syrians. I cannot tell you which ones of 
those entered the country on the Visa Waiver Program. I can 
tell you that those were overstays that have been identified as 
having come from Syria. Of that 108--118, 11 were 
administratively arrested, and the remainder were closed, with 
the exception of 18 ongoing investigations----
    Mr. Jordan. Okay.
    Mr. Bersin. --which are connected to Syrians and overstays.
    Mr. Jordan. All right. I'm--that gives us a few seconds. 
Let me switch subjects.
    This news account that I think was MSNBC, top officials of 
the Department of Homeland Security considered a specific 
policy to strengthen security screenings for foreign visa 
applicants' social media accounts, but that proposal was 
ultimately rejected.
    Were you part of the team that put together the memorandum 
and then rejected the idea of actually screening potential 
entrants into the country's social media accounts?
    Mr. Bersin. No, sir. I was not in the Office of Policy at 
that point. And I do know that Secretary Johnson has encouraged 
the components of DHS to continue the work referenced by 
Director Rodriguez to continue the work they've been engaged in 
with regard to social media.
    I'm aware of no memorandum, secret or otherwise, that bars 
components of DHS from using social media.
    Mr. Jordan. Mr. Chairman, real quick. One different--
different subject, but in your opening statement, Mr. Bersin, 
you mentioned the last time you testified in front of Congress, 
you testified about Libya. I'm just curious. Do you think the 
situation in Libya today is more stable than it was in 2011, or 
less stable?
    Mr. Bersin. The hearing on which----
    Mr. Jordan. I'm asking your opinion on the stability of 
Libya today.
    Mr. Bersin. I am--I would defer to the State Department. In 
my personal opinion, which is not relevant, it's not any more 
stable, but it had nothing to do with the issue that was before 
this committee.
    Mr. Jordan. Is it true ISIL is down in Libya as well?
    Chairman Chaffetz. The gentleman's time has expired.
    Go ahead and answer the question, Mr. Bersin.
    Mr. Bersin. I'll--I'll defer to the State Department on 
that judgment.
    Chairman Chaffetz. You are the chief diplomatic officer for 
policy. I think your opinion is relevant.
    Mr. Bersin. What is that--the question, Mr. Chairman?
    Chairman Chaffetz. The question Mr. Jordan answered--or 
asked you, what is your opinion of that question? Do you----
    Mr. Bersin. Having to do with ISIL?
    Chairman Chaffetz. Yes.
    Mr. Bersin. Or with Libya?
    Chairman Chaffetz. Well, both.
    Mr. Bersin. I gave the answer with regard to Libya. And 
with regard to ISIL, I think ISIL remains a substantial threat, 
that is being treated as such by every rational political 
leader I know across the world, in addition to the European 
leaders that Secretary Johnson, Attorney General Lynch met with 
last week in London.
    Chairman Chaffetz. The gentleman from Massachusetts, Mr. 
Lynch, is now recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Good morning. I want to thank the witnesses for helping the 
committee with its work and for your service to our country.
    I do want to go back, Secretary Bersin, about the overstay 
issue, because last week, Ms. Burriesci, who is a fine person, 
she just didn't have her numbers person with her, she had four 
staff, but they had no numbers for us, and that was tragic, 
unresponsive to a huge number of questions, unfortunately, and 
I'm sure she's a fine person, but we're after the facts, and 
she didn't have many.
    Okay. So she told us last week--we had to recess the 
hearing so she could call the office. She told us that 20 
million people a year come in under the Visa Waiver Program. 
She said that there was 2 percent overstay each year, that's 
what she told us, which comes to 400,000 overstays per year. 
And are you telling me something different here today?
    Mr. Bersin. The--the estimate is in that--in that range, 
but the number that----
    Mr. Lynch. Okay. I'm good with that. I don't want to eat up 
my time on that, but I just--I just thought you--I was going to 
come out of this hearing with less facts than what I came in 
with.
    Mr. Bersin. But I did--I did want to say that this--this 
issue of the overstay and the submission of a report, which is 
underway, and I admit----
    Mr. Lynch. It's been underway a long time. I'm not a young 
man, so I don't even want to do anything more on this, because 
I just don't think that's happening. We've been promised that 
information for years, and----
    Mr. Bersin. Well, I----
    Mr. Lynch. --that ain't happening. All right.
    Mr. Bersin. I--I----
    Mr. Lynch. When I see the report, I'll believe it. All 
right.
    Mr. Bersin. Fair enough.
    Mr. Lynch. Let me go on. Look, between what Director Comey 
has said even just yesterday--look, if you talk to the folks in 
our national security community, the Islamic State is using 
social media as a main recruiting tool; this is their game, 
this is their world, they're doing this all over the globe. And 
yet when we look at what Department of Homeland Security is 
doing, we don't have a regular, widespread requirement that our 
people review the social media of people coming from trouble 
areas where you've got a lot of terrorists, places like 
Pakistan, Afghanistan, Syria, Iraq, and Tunisia, parts of north 
Africa, where you've got, you know, a lot of support for 
radical jihad, violent jihad, we're not reviewing the social 
media, even though that's the world in which they operate, and 
we don't regularly review that, and that's a major problem.
    So, look, I think if someone is applying for citizenship to 
the United States, it is entirely reasonable that we ask for 
their social media contacts, their information that--these 
people don't radicalize overnight. A lot of them have had 
public statements, not--not their private emails. And I know 
that Tashfeen Malik, maybe her stuff was direct and it was 
private, we should have got that anyway. We should have said we 
want your social media, both your private stuff and the public 
stuff. That's entirely reasonable to ask people who are coming 
from countries that are known to sponsor terrorism.
    Why aren't we doing that? Why aren't we asking people for 
their--look, my colleges--you know, I represent Massachusetts. 
Fifty-two percent of our colleges request all the information 
on that social media from applicants to college. Half of our 
employers do. They want to know what's going on on your--you 
know, your Facebook, you know, your social media.
    If the employers--if half of the employers in America are 
doing that in the private sector, if your colleges are doing it 
for students, why the hell wouldn't Department of Homeland 
Security do it for someone coming from a terrorist country, or 
a country that sponsors terrorism, coming into the United 
States? It would seem to be, you know, I dare say, a no-
brainer, but--but it's not happening. So it's got me worried 
that we're not doing any of this.
    Anybody care to respond to that?
    Mr. Rodriguez. Yeah. I can--I can certainly take part of 
that question, Congressman. I think, as I tried to make clear 
in my opening remarks, we have been piloting, and, again, the 
number of cases touched by----
    Mr. Lynch. Very few, though. It's a pilot program. I know 
you've got some pilot programs there, but we've got millions 
and millions of people that are out there that want to come 
into this country, and we're doing a very small bit. And we 
don't even look at their public stuff. That's what kills me. 
DHS doesn't even regularly require that their--their 
administration officers for people coming--we don't even look 
at their public stuff.
    Mr. Rodriguez. To be clear, we are moving--both in the 
refugee and other immigration contexts, we have been doing some 
of it. We are working to develop more of it.
    Mr. Lynch. You've got three very small pilot programs 
going, and I--look, you know, we've talked to the folks 
overseas about what they're doing, and it's not regular, it's 
not routine, it's not widespread, just to be fair, and even 
our--even--and I talked to you before the hearing about what's 
going on in Beirut. We haven't had a regular vetting team there 
in a year. They fly in, they fly out, because of the conditions 
there. But I don't want happy talk, and sometimes I hear a lot 
of that, that we're doing fine overseas, and when I drove down, 
when I go to Beirut, you know, when I go to the Syrian border, 
when you go to Amman, what you're telling us, the--is just 
happy talk.
    And they say they don't have the resources. They didn't 
have the resources when we had, you know, 160 applicants a 
year--excuse me, a week, 160 a week, now they're getting 16,000 
a week, and we have the same amount of resources we had before 
to vet them. It just--it just troubles me greatly. I don't--I 
don't think we're doing a good job, and I think we can do 
better. And I'd like to get the resources and the people to vet 
people well, and then if we deem them eligible, then you could 
take them in as refugees, but do--we can be smart and then we 
can be compassionate, but right now, it doesn't seem like we're 
doing either.
    I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. The gentleman's time has expired. We'll 
now recognize the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    Mr. Rodriguez, going back to that issue that my colleague, 
Mr. Lynch, broached with you, DHS has indicated that it began 
three pilot programs, we've talked about that, to include 
social media screening in the visa adjudication process in the 
fall of 2014.
    Has DHS ever had a policy preventing adjudicators and 
attorneys from reviewing applicants' social media posts?
    Mr. Rodriguez. I am not aware of a policy that prevented it 
per se. There have obviously--there are various privacy and 
other issues that govern, but there has never been a privacy 
per se. And certainly, during just about the entire time that 
I've been director, and that Secretary Johnson has been 
Secretary, what we have been doing is, in fact, piloting and 
developing the capacity to use social media in a--in a 
thoughtful, functional manner for vetting purposes.
    Mr. Walberg. Well, the ``per se''--the ``per se'' bothers 
me a bit.
    Mr. Rodriguez. I'm sorry, sir?
    Mr. Walberg. The ``per se'' bothers me a bit. You're 
indicating that there is no direct policy preventing----
    Mr. Rodriguez. I am not aware of a policy. I am not----
    Mr. Walberg. Then why wasn't----
    Mr. Rodriguez. I----
    Mr. Walberg. Then why wasn't it happening?
    Mr. Rodriguez. Yeah. If I said that, I wouldn't read too 
much into the phrase ``per se.'' I am not aware of there ever 
having been a policy that prohibited the use of social media.
    Mr. Walberg. Well, then we have--we have conflicting 
reports, then, in the last several days----
    Mr. Rodriguez. Well----
    Mr. Walberg. --that there was and there wasn't.
    Mr. Rodriguez. Again, I know full well that during my 
tenure as director, we have, in fact, been developing and 
piloting that capacity.
    Mr. Walberg. So it's a good policy that we look into social 
media?
    Mr. Rodriguez. I do believe, and I believe that many of my 
intelligence community partners have the same view, that there 
is information of vetting value that may be garnered from 
social media.
    Mr. Walberg. And it will be ramped up?
    Mr. Rodriguez. We are in the process of doing that as we 
speak.
    Mr. Walberg. Mr. Bersin, why did DHS wait, if there are 
three basic pilot projects, wait until 2014 to create these 
pilots?
    Mr. Bersin. The activities, with regard to social media, 
have been conducted by the components, principally CIS, Mr. 
Rodriguez's agency; Homeland Security investigations, or ICE; 
and CBP have conducted their activities. There was no 
headquarters' overarching policy prohibiting that. To the 
contrary, these pilots have been going on under Secretary 
Johnson's leadership, and he's encouraged the components to--to 
actually expand their ongoing efforts.
    Mr. Walberg. Why did they wait until 2014 to initiate these 
pilots? Mr. Rodriguez, could you help me on that?
    Mr. Rodriguez. I'm sorry.
    Mr. Walberg. Why did we wait till 2014 to initiate, or to 
create these pilot projects?
    Mr. Rodriguez. I don't know. Again, during my tenure----
    Chairman Chaffetz. I think you need to--if you can bring 
the microphone----
    Mr. Rodriguez. --we have been busy doing this. So I am 
really unable today to speak to what occurred before. I 
certainly would be happy to get that information, to the extent 
that it's not privileged, and get that before the committee.
    Mr. Walberg. When could we get that? We're getting used to 
hearing we don't have that information here in this----
    Mr. Rodriguez. Yeah. I--I think for us here, the main point 
is we are--we are doing it. One of the reasons--I just don't 
know what occurred years before I got here.
    What we can say now is we are doing it, we are doing it in 
an abundant manner, we are looking to have it actually be 
useful for screening purposes. That seems to me the most 
important discussion. What happened 3 or 4 or 5 years ago, I 
can't speak to that, sir.
    Mr. Walberg. What have been the results of what you're 
doing now?
    Mr. Rodriguez. Well, I think there--there is less there 
that is actually of screening value than you would expect, at 
least in those small early samples. Some of the things that we 
have seen have been more ambiguous than clear. There are 
challenges in terms of people using foreign alphabets to post. 
That's a capacity that will need to be developed. As everybody 
has observed, many of these communications, as we've now 
learned from the Director, may have applied in the San 
Bernardino situation, are private communications, they're not 
openly--open posts. Those are challenges that we've identified.
    That said, I think we all continue to believe that there is 
a potential for there to be information of screening value, 
particularly as Congressman Lynch, and I think you have also 
observed, in particularly high-risk environments.
    Mr. Walberg. Well, I think recent events have shown there 
is probably significant, significant important information that 
we can get using the information gained from social media.
    Mr. Rodriguez. We do not disagree.
    Mr. Walberg. And we would hope that that would continue. 
And we hope to get more answers, and not to push back that this 
is something that we don't know. We have to know that. And when 
we hear, as we saw on the video earlier, the White House 
representative telling us that we are doing everything in our 
vetting process to secure, and then we see the results that are 
horrendous taking place, like in San Bernardino, we have got a 
problem. And I yield back.
    Chairman Chaffetz. The gentleman yields back. I now 
recognize the gentleman from California, Mr. Lieu, for 5 
minutes.
    Mr. Lieu. Thank you. Let me first thank the panel for their 
public service. I have a question for Mr. Rodriguez, but first 
I want to make a statement. I am honored to be a U.S. citizen, 
and that's because you get amazing benefits of being a citizen 
of the most amazing country in the world, one of which the 
Constitution applies to you against your government. But for 
some time, it does seem to me that the executive branch has 
been blurring the lines between U.S. citizens and foreign 
nationals, and sometimes you got it on backwards. Let me give 
you three examples.
    In 2011, the executive branch deliberately, and I believe 
wrongfully, executed an American citizen via a drone strike. 
The Department of Justice has now said at least four Americans 
have been killed by U.S. drone strikes, four American citizens.
    Second example, the executive branch, through the NSA, has 
been seizing hundreds of millions of phone records of U.S. 
citizens. They knew who we called, when we called, who called 
us, the duration of those calls, and it got so bad that 
Congress had to step in early this year, and prevent NSA from 
violating the Fourth Amendment rights of U.S. citizens.
    And then the third example, which is this social media, 
there has been multiple reports, ABC News says that a secret 
U.S. policy blocks agents from looking at social media of folks 
seeking entry into the United States new visa program. The Hill 
reports immigration officials prohibited from looking at visa 
applicants. Politico says that Secretary Jeh Johnson believes 
that there are privacy reasons for why DHS is doing this.
    Mr. Rodriguez, you mentioned, again, the privacy reason, 
and I just want to note, the U.S. Constitution does not apply 
to foreign nationals seeking entry into the United States. And 
so do not give foreign nationals seeking entry into the United 
States more rights than American citizens have. If you are an 
American citizen, and you seek a job in the private sector, or 
the public sector, or in my office, we are going to look at 
your social media. And the response I have from you all today 
is, well, now you are doing three small pilot projects. That is 
not an adequate response.
    And my question to you is, you need to reverse those--that 
policy if, in fact, there is a secret policy. Maybe there 
isn't. But at the very least, you need to have a department-
wide policy that we are going to look at social media, not just 
three small pilot projects. And I want to know why you can't, 
starting tomorrow, have a department-wide policy doing this 
instead of having three small pilot projects.
    Mr. Rodriguez. So let me be clear. First of all, there is, 
not now, nor was there ever, a secret policy prohibiting use of 
social media for vetting. There needs to be a structure to 
these things. There needs to be a plan for doing these things. 
That is what we have been doing for many, many months now. In 
fact, a third of the pilots--we are talking about small 
numbers--a third of the pilots actually is being applied to 
thousands of individuals. I won't go into details beyond that, 
because I don't want to tip people off as to what we might be 
looking at.
    I agree with you that U.S. privacy strictures apply to U.S. 
citizens. They do not apply in the same way to foreign persons. 
There are numerous examples in the manner in which we receive 
people at ports of entries, what we do at our foreign posts. 
There is evidence of that--of that distinction. So I do not--
I'm not sure I accept the premise that somehow we are 
safeguarding the privacy of foreign nationals, nationals to any 
greater degree. However, there are legal concerns that do need 
to be addressed.
    Mr. Lieu. What are the legal concerns? We asked DHS earlier 
this week, give us a legal case, or a provision in the 
Constitution that says there is any privacy, any legal concerns 
with looking at anything related to a foreign national seeking 
entry into the United States. And I don't know where these 
legal concerns come from. I don't understand the quote that 
Secretary Johnson has attributed to him saying, there are, you 
know, legal concerns about scrutinizing Web postings. What is 
that case you all are relying on?
    Mr. Rodriguez. There--and again, I am not--I am not the 
privacy law expert for purposes of this hearing. In fact, there 
are issues that we need to make sure are satisfied with 
respect, potentially, to treaty obligations that apply, with 
respect to our own laws that may apply, a variety of issues. 
And we are----
    Mr. Lieu. That's more than----
    Mr. Rodriguez. And also, I would also add----
    Mr. Lieu. And let me just suggest, U.S. Constitution does 
not extend privacy protection to foreign nationals seeking 
entry into the United States. You need to not just have three 
pilot programs. There needs to be a policy of our government to 
look at social media, and other publicly available information 
of people seeking entry into the United States. And with that, 
I yield back.
    Chairman Chaffetz. Mr. Lieu, I would ask unanimous consent 
to enter into the record an article put out today. This is from 
MSNBC. You cited FOX News. I'm citing MSNBC.
    Mr. Cummings. Fair and balanced.
    Chairman Chaffetz. Yeah, fair and balanced. Fair enough.
    Mr. Rodriguez. I must say, I appreciate the bipartisan----
    Chairman Chaffetz. The title of this article: ``Exclusive: 
Homeland Security rejected plan to vet visa applicants' social 
media,'' included in with this is an attachment supposedly from 
the United States Citizenship and Immigration Services. We have 
not vetted that, but in the spirit of getting to the bottom of 
this, I would ask unanimous consent to enter that into the 
record.
    Without objection, so ordered.
    Chairman Chaffetz. I now recognize the gentleman from 
Tennessee, Mr. DesJarlais, for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman. Ms. Richard, could 
you--is it your understanding that the President still intends 
to bring about 10,000 Syrian refugees into the country this 
year?
    Ms. Richard. Yes, sir.
    Mr. DesJarlais. Could you tell the American taxpayer 
approximately what it costs per refugee per year to bring them 
here?
    Ms. Richard. I don't have a per refugee cost. The overall 
program, though, is when you add together the costs of State 
Department, Department of Homeland Security, and Health and 
Human Services, that provide assistance to the States to help 
refugees once they are here, is close to $1 billion.
    Mr. DesJarlais. I had heard a number about $84,000 per 
refugee. Does that sound reasonable?
    Ms. Richard. I will have double-check that. I didn't have 
that----
    Mr. DesJarlais. How many--what percentage of the 10,000 
refugees would be fighting-age men?
    Ms. Richard. So far, we are putting a priority on bringing 
people who are the most vulnerable, so we have only brought 2 
percent--so far, only 2 percent of the ones we have brought, 
the Syrians we have brought, are fighting-age men who are 
traveling without any family. So it would be a slightly--it 
would be a higher percentage in terms of fighting-age men who 
are traveling with family. But the 2 percent number you may 
have heard are the ones who come as single without family 
attachment or ties.
    Mr. DesJarlais. Okay. All right, I just hope the next time 
America gets attacked, that our fighting-age men don't want to 
resettle somewhere else. I hope they would stay and fight for 
our freedom.
    Mr. Bersin, you said about 20 million people come on the 
Visa Waiver Program each year--or Bersin, I'm sorry.
    Mr. Bersin. Yes, sir.
    Mr. DesJarlais. Okay. And did I hear that about 400,000 
overstay?
    Mr. Bersin. That's in the range of the estimate made, yes, 
sir.
    Mr. DesJarlais. Okay. What are the repercussions for 
overstaying your visa?
    Mr. Bersin. So if it's--it has two, one potentially legal, 
and one in terms of your attempt to come back in to the country 
after using the ESTA. As I indicated, there is an Immigration 
and Customs Enforcement unit called the Counterterrorism and 
Criminal Exploitation Unit that tracks the overstays, and there 
have been relatively few, but some prosecutions for overstay. 
There have been removals of people who have overstayed, 
administratively deported.
    Mr. DesJarlais. So out of 400,000 who have come here, you 
have opened 113 cases. So there's not much repercussion for 
breaking the law for overstaying your visa.
    Mr. Bersin. The main sanction that is applied, sir, is 
inability to get back into the country, depending on the facts 
of the particular overstay.
    Mr. DesJarlais. How many of the terrorists that perpetrated 
9/11 were--had overstayed their visa?
    Mr. Bersin. A number of them, sir, of the 9/11----
    Mr. DesJarlais. So we need to do much better. The Syrian 
refugees, how many of the Syrian refugees have been arrested in 
other countries in 2015, and have been accused of supporting of 
the Islamic State.
    Mr. Rodriguez. I'm not aware of that number, I'm--as we 
speak. If we have that information, we can certainly----
    Mr. DesJarlais. Okay. And we probably----
    Mr. Rodriguez. I'm not aware of that----
    Mr. DesJarlais. --actually, we don't really know, do we? We 
really probably couldn't get that information due to the lack 
of infrastructure in Syria.
    Mr. Rodriguez. And I want to make sure I understand the 
question. This is individuals now in Europe, is that your 
question, or----
    Mr. DesJarlais. In Europe, yes.
    Mr. Rodriguez. I see. Yeah, I don't know, and I doubt, 
actually, that we would have that information.
    Mr. DesJarlais. But Ms. Richard said, we are going to go 
ahead and bring 10,000 Syrian refugees into the country. The 
President, President Obama said we are going to go ahead and do 
this, but yet, even the FBI Director said there is no way we 
can vet these people because we can't access the Syrian 
database.
    Bashar al-Assad is not going to help us--tell us who the 
good ones and the bad ones are. So wouldn't it make sense to 
halt this program until we can tell the American people that we 
can safely protect them?
    Mr. Rodriguez. Yeah, in addition to the passage by the FBI 
Director that was played on TV earlier, the FBI Director has 
also acknowledged that our vetting process is an extremely 
tough and thorough vetting process that involves multiple 
interviews, queries against multiple databases, so I don't 
think that was ever what the FBI Director said.
    Mr. DesJarlais. I think it was exactly what he said. He 
said that we don't have access to any records because we have 
no cooperation from the Syrian Government, so we cannot 
adequately vet these people, correct?
    Mr. Rodriguez. There is considerable data that we use, as I 
have repeated many times. In fact, there have been people who 
have been denied refugee status because of information that we 
found in law enforcement intelligence databases, as well as 
hundreds of people that have been placed on hold, either 
because of what was in those databases, or that, in combination 
with information discovered during interviews. And, in fact, 
that has been acknowledged by Director Comey.
    Again, if you can play one passage on TV. That is not the 
totality of what Director Comey has said about our screening 
process.
    Mr. DesJarlais. I appreciate your confidence, but if we are 
bringing 10,000 refugees and we miss just 1 percent, that's 100 
terrorists. It didn't take that many in Paris and it certainly 
didn't take that many in San Bernardino.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Chairman Chaffetz. I want to 
follow up what--the immediately preceding discussion with you, 
Ms. Richard. You are Assistant Secretary, Bureau of Population 
Refugees and Migration for the State Department, right? Is it 
fair to say you are intimately familiar with the vetting 
process for the refugees coming to this country?
    Ms. Richard. I don't know it as well as Leon Rodriguez 
does.
    Mr. Cartwright. Would you turn your microphone on, please?
    Ms. Richard. I don't know the vetting processes as 
intimately as Leon Rodriguez does, because he oversees the 
people doing the vetting, but I am responsible for the overall 
program.
    Mr. Cartwright. Well, that's what I'm interested in, the 
overall program. Because I think what a lot of people don't 
realize, and you correct me if I'm wrong about this, Ms. 
Richard.
    If you are somebody applying to be a refugee who is going 
to be resettled, relocated, you apply to the UNHCR, the United 
Nations High Commissioner for Refugees. Am I correct on that?
    Ms. Richard. Yes.
    Mr. Cartwright. And when you apply, you know, you are in 
one of these migrant camps. You have got your little kids with 
you. You don't know where you are going to turn next. You apply 
to the UNHCR. You don't get to say what country you want to go 
to. Am I correct in that?
    Ms. Richard. That's correct. You can express a preference 
if you have family living in Australia, Canada, the U.S., but 
you don't get to decide that.
    Mr. Cartwright. You don't get to decide where you are 
going?
    Ms. Richard. And most refugees do not get resettled. Most 
stay in these countries to which they have fled.
    Mr. Cartwright. So let's look at it from the shoes of 
somebody who wants to do harm to the United States. If you are 
an ISIS terrorist, and you want to sneak into the U.S., that 
would be the dumbest avenue you could take to apply for UNHCR 
resettlement to the United States that you could end up in 
Norway after the 24-month vetting process. Am I correct on 
that?
    Ms. Richard. I agree.
    It is not an efficient way for a would-be terrorist to 
enter the United States. But that doesn't mean we let down our 
guard, because it would only take one bad guy to completely 
ruin the entire program. And we love this program. This program 
does so much good for tens of thousands of people every year.
    Mr. Cartwright. Sure. Sure. And by the way, the shootings 
in California, were those perpetrated by refugees who were 
resettled?
    Ms. Richard. No, sir. No. No refugees have carried out 
terrorist activities in the United States.
    Mr. Cartwright. No refugees have carried out terrorist 
activities in the United States.
    Ms. Richard. Successfully carried out an attack against 
American citizens in the United States.
    Mr. Cartwright. Okay. What we really--what I have been more 
concerned about is the visa program, and I want to follow up. 
Director Rodriguez, FBI Director James Comey reported publicly 
that the agency had no incriminating information about the 
shooters in the San Bernardino case. Is that consistent with 
your understanding, Director Rodriguez?
    Mr. Rodriguez. That is on--that is what I have come to 
understand from Director Comey, sir.
    Mr. Cartwright. And Director Rodriguez and Assistant 
Secretary Bond, it has also been publicly reported that both 
the State Department and DHS followed all vetting and 
background check policies and procedures in this case. Is that 
also correct?
    Ms. Bond. Yes, sir, it is.
    Mr. Cartwright. Now, Mr. Bersin, the K-1 process begins 
when an American citizen petitions to bring his or her fiance 
to the U.S. Is that correct?
    Mr. Bersin. That's my understanding, yes.
    Mr. Cartwright. Mr. Bersin, how does the Department of 
Homeland Security screen the American citizen's K-1 petition?
    Mr. Bersin. That would be an answer the CIA----
    Mr. Rodriguez. My--my portfolio, sir. So what we do at the 
point that a petition is made, remember the petition--our sole, 
authorized purpose at the petition stage is just to adjudicate 
the relationship between the two individuals to determine 
whether they are, in fact, fiances. Nonetheless, we do run 
background checks at that stage, including the tax check, which 
goes against a number of law enforcement sources, both against 
the petitioner and the potential beneficiary. The results of 
those screens are then turned over to the applicable embassy 
for use in the actual visa screening.
    Mr. Cartwright. Is the American citizen involved in the K-1 
petition and interviewed at that time?
    Mr. Rodriguez. Ordinarily, not interviewed at that time.
    Mr. Cartwright. Why not?
    Mr. Rodriguez. If they are not--well, that's actually one 
of the points that we are exploring right now. Again, the 
adjudicative purpose for that interview at that point is 
limited. It's really, again, to determine whether the 
relationship exists. If we are satisfied on the information 
provided, that that should be granted, obviously, the situation 
now--and this is where, again, we say--we say very clearly we 
should not act like nothing is wrong here.
    I don't want to be giving, as Congressman Lynch worries, 
happy talk here. This is something we need to be thinking 
about, whether at least certain individuals need to be 
interviewed at that stage with the petitioner.
    Mr. Cartwright. That's why I asked the question. And I do 
encourage you to look hard at adding an interview at that point 
in the process. And my time is up, and I yield back, Mr. 
Chairman.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from South Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Bersin, Secretary Johnson is quoted as saying that 
there were legal limits on his ability to do some background 
investigations. I think that was a really unfortunate phrase 
that he used, but let's you and I see if we can kind of 
demystify that a little bit.
    Do you agree that noncitizens who are not in the United 
States are not afforded any protections under the Fourth 
Amendment?
    Mr. Bersin. That's my understanding, Mr. Gowdy.
    Mr. Gowdy. Well, you were a U.S. attorney. You are being 
modest. Not only is that your understanding, it's also the law. 
The Fourth Amendment does not apply to non-U.S. citizens who 
are not here, any more than the Eighth Amendment applies to 
non-U.S. citizens who are not here.
    Would you agree with me that there is no legal bar to 
accessing data from noncitizens who are not present in the 
United States?
    Mr. Bersin. Absent a treaty to the contrary, that's my 
understanding, sir.
    Mr. Gowdy. Would you also agree with me that there is no 
legal right to emigrate to the United States? It's a privilege 
that we confer on people, but it is not a right.
    Mr. Bersin. That's correct, sir.
    Mr. Gowdy. So would you also agree that you can condition 
the conference of a privilege on just about anything you want, 
so long as you don't violate a treaty, or----
    Mr. Bersin. Or the Constitution.
    Mr. Gowdy. Or the Constitution. But you made, I'm sure, 
extensive use of polygraphs when you were the United States 
Attorney.
    Mr. Bersin. From time to time, yes, sir.
    Mr. Gowdy. All right. And they are not admissible in court. 
Are they?
    Mr. Bersin. Not generally, no.
    Mr. Gowdy. But we still use them, because they are a very 
effective investigative tool. Do we use them in the vetting of 
people who want to come here?
    Mr. Bersin. With regard to immigration benefits, I'm not 
familiar with the policy in the refugee context. We do not 
regularly use a polygraph. If there's significant doubt in the 
operational component given the border authorities that ICE and 
CBP have, typically, the decision would be made to bar entry 
rather than go to the extent of trying to ascertain veracity.
    Mr. Gowdy. But you and I just didn't use polygraphs in our 
previous lives because we had doubt. Sometimes it incents the 
person to want to embrace the truth when they think it might be 
a threat that they are going to be polygraphed. I mean, you 
certainly can't admit it in court, so it's not only the result, 
deception or otherwise, it is the threat that you may be 
polygraphed that sometimes provides people what the incentive 
to either tell the truth, or they need not apply in the first 
place, right?
    Mr. Bersin. That can be one reaction from an individual. 
And I'm not aware, Mr. Gowdy, of any policy that would prevent 
that. I'm also not aware operationally as a former CBP 
commissioner that it's been used in any regular way.
    Mr. Gowdy. Well, let me tell you where I find myself. I 
just listened to Ben Rhodes give a series of words like 
``extensive,'' ``thorough,'' ``careful.'' I have heard 
``tough.'' I have heard ``multiple,'' all in connection with 
the word ``vetting.'' It's all amplified the word ``vetting.'' 
And I just sat here and thought, well, if all of that was true, 
how did we miss the lady in San Bernardino?
    Mr. Bersin. As the FBI Director said, Mr. Gowdy, and I 
think is the fact that there were no--there was nothing in the 
system that we used that would pick that up. There was no data 
that we would turn into actionable information to deny 
admission.
    Mr. Gowdy. I get you, Mr. Bersin, but I got to be candid 
with you. That doesn't make me feel any better. I mean, it is 
one thing to argue that there was information there and we 
missed it. That's one set of corrective measures.
    Mr. Bersin. Right.
    Mr. Gowdy. It's another thing to argue, as I hear we are 
currently arguing this administration, that we missed nothing. 
So we have someone willing and capable of killing 14 people, 
and there was nothing in her background that this 
administration says we missed, or should have picked up on, and 
yet, there's still 14 dead people. So how does that make us 
feel better?
    Mr. Bersin. Mr. Gowdy, I think--I don't think anyone would 
gainsay the sense of tragedy, and I don't think anyone is 
saying that were that information, that data in the system, 
that we would not all be over-relieved and thankful if it had 
led to the apprehension of that--those murderers. The issue 
that you asked us factually were--were there data in the system 
by which we could tell that this risk existed? And the answer 
to that is no. I think the inquiry that is being made here 
today is a valid one, as Director Rodriguez suggests, and that 
we need to actually look at this hard and long in terms of the 
utilization of means.
    I will say that there is no secret policy in DHS against 
the use of social media, and there is nothing in the privacy 
policy that would bar it for screening purposes.
    Mr. Gowdy. Well, it couldn't be because it doesn't apply to 
non-U.S. citizens. I'm out of time. I just want to tell you the 
dichotomy as I see it. We have a choice. We can either tell the 
American people that our process and our systems are flawed, 
and that we have missed information that is otherwise 
available, and let them deal with that, or we can just tell our 
fellow citizens, we missed nothing. We did everything we were 
supposed to do, and there's still 14 funerals in California, so 
you just need to get used to the risk. Neither one of those is 
acceptable, I would argue to you.
    Mr. Bersin. Mr. Gowdy, I have not heard anyone who was 
involved in law enforcement or in the Homeland Security 
enterprise that wouldn't say that we need to strengthen our 
systems. We have been doing that continuously for the 14 years 
since 9/11.
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Gowdy. All right. Forgive me for noticing the trend of 
extending time, but I will yield back.
    Chairman Chaffetz. Yes, you will. We will now recognize the 
gentlewoman from Michigan, Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair. To everyone that's is 
here today, thank you for being here. Assistant Secretary Bond, 
I want to ask you about the report of the visa office, which 
was issued by the Bureau of Consular Affairs at the State 
Department. According to this report, in 2014, Foreign Services 
posts issued about 467,000 immigrant visas, and 9.9 million 
nonimmigrant visas. The K-1, or the fiance(e) visas, which has 
received significant attention recently, are classified as a 
nonimmigrant visa. Is that correct?
    Ms. Bond. The K-1 visa is an unusual, you could call it a 
hybrid. We process it as an immigrant visa case; we do all of 
the work on a fiance(e) visa that we would do for an immigrant 
visa case. For example, the applicant has to undergo a medical 
exam to show that there are no communicable diseases or other 
things. We wouldn't do that for a nonimmigrant. But when we 
actually issue the visa, it's a nonimmigrant visa, because 
until that person has married the petitioner and then applied 
for adjustment to legal permanent resident status, they don't 
have the right to remain in the United States after entering. 
So they are not coming in on an immigrant visa. But it's our 
Immigrant Visa Unit that does all of the preparatory--all of 
the work----
    Mrs. Lawrence. So for the record, are we saying that 
although it is classified as a nonimmigrant, you are saying, 
for the record, that they must go through everything as an 
immigrant--through the complete process?
    Ms. Bond. Exactly right.
    Mrs. Lawrence. How many nonimmigrant visas do we have in 
the United States and we are processing in your department, and 
what are some of the other nonimmigrant visas?
    Ms. Bond. There's an alphabet of them.
    Mrs. Lawrence. So how many?
    Ms. Bond. Examples of nonimmigrant visas are those that we 
issue to foreign diplomats who are coming here to serve in 
their embassies or consulates; to people who are coming as 
tourists, or on business, or they might be coming, for example, 
for medical care. We have people who are coming in as crew 
members, flying in on planes. They are coming in on ships, so--
--
    Mrs. Lawrence. Ms. Bond, if I am coming in under the 
nonimmigrant fiance(e), at what point are we reviewed again to 
document? Is there any--is there another step that happens? So 
I come in. I have to have a nonimmigrant. So I come back and 
just give you a marriage license and it's done, or is there 
additional screening?
    Ms. Bond. In most cases, the fiance(e), the reason they are 
getting a fiance(e) visa is that they intend to marry and 
remain in the United States. So--and they have 90 days to do 
that. We give them a one entry visa. They are allowed to enter 
the United States and they have 90 days, after entry, to either 
marry or depart. Most of them, having married, remain in the 
United States, and therefore, they get in touch with Director 
Rodriguez' colleagues in order to adjust status and, yes, they 
would--they would provide proof that they have married.
    Mrs. Lawrence. Now, this is a question I have, and it was 
referred to by your colleague that they are reviewing the 
interview process of American spouses, because we don't 
interview the spouse. We just interview this application for 
the fiance(e) nonimmigrant visa. My question to you: The 
President has directed the State Department to review them. 
What is the review? When will this review be completed? And 
what is--what is the objective of the review? Can you outline 
that, please?
    Ms. Bond. Yes. The objective of the review which is an 
interagency effort, we are working very closely with different 
parts of the Department of Homeland Security and with other 
parts of the government, to take a look at every single element 
of the process. The specific focus is on the fiance(e) visa. So 
that you have the initial stage where the American citizen 
files a petition. We are examining that to see what more could 
we do there.
    Then you have the stage where the information is vetted and 
then transferred to an embassy where the applicant is going to 
be interviewed. We are looking at that process, which is 
primarily under the direction of my colleagues in the Bureau of 
Consular Affairs.
    Mrs. Lawrence. My time is running out, so my final question 
is, what is the timeline to complete this review and to report 
out?
    Ms. Bond. My understanding is that we have to be providing 
a review to the NSC in January.
    Mrs. Lawrence. Thank you, Mr. Chair. I yield back.
    Chairman Chaffetz. Thank you. Members are advised that we 
have a vote on the floor. There are 11 minutes left in that 
vote. The intention of the chair is, I'm going to recognize 
myself for questioning. We will do one more Democrat, and then 
we will recess until approximately 11 a.m., or whenever the 
votes conclude.
    So with that, I will now recognize myself.
    Ms. Richard, you said that State Department is helping to 
prioritize the most vulnerable in Syria. Yet, in Syria, my 
understanding is in fiscal year 2015, only 29 people were 
Christians. I would think Christians in Syria are some of the 
most vulnerable people. Why is that number so low? It's less 
than 3 percent of those brought in, and, yet, Christians 
represent roughly 10 percent of the population in Syria.
    Ms. Richard. I agree with you that Christians in the Middle 
East are some of the most vulnerable people, especially in the 
ISIL-controlled areas. And so that's one reason we have 
brought, in terms of our Iraqi refugees who we have brought to 
the United States, 40 percent have been Christians or other 
minorities.
    Chairman Chaffetz. Okay, my question is about Syria. Look, 
I would appreciate if you would get back to me on this. I would 
spend a half hour going through it if I could. Please get back 
to us on that question.
    Ms. Richard. We are bringing Christians from Syria.
    Chairman Chaffetz. Not very many; 29 in a whole year, so--
--
    Ms. Richard. They are underrepresented, in part, because 
they make up a smaller percentage of the refugees from Syria.
    Chairman Chaffetz. And that's the problem.
    Ms. Richard. They are not fleeing because they feel----
    Chairman Chaffetz. Ms. Richard, I'm done with that 
question. I'm moving on. Ms. Bond--I want you to get back to us 
with this question.
    Ms. Bond, you wrote in your testimony since 2001, the 
Department has revoked approximately 122,000 visas for a 
variety of reasons, including nearly 9,500 for suspected links 
to terrorism. Of the 122,000 revoked visas, how many of those 
people are still in the United States?
    Ms. Bond. I don't know.
    Chairman Chaffetz. Doesn't that scare you?
    Ms. Bond. Many of the people whose visas are revoked were 
not in the United States when we revoked the visa.
    Chairman Chaffetz. You have no idea how many of those 
people are in the United States? Of the revoked visas, do you 
give those to the Department of Homeland Security?
    Ms. Bond. Exactly. We revoke the visa and the information 
is----
    Chairman Chaffetz. So Homeland Security, how many revoked 
visas are still in the United States of America?
    Mr. Bersin. Mr. Chairman, I don't have that----
    Chairman Chaffetz. You don't have a clue, do you? These are 
people that State Department, State Department, who gave the 
visa, thought about it, got more information, and decided, we 
better revoke that. Ninety-five hundred were tied to 
terrorists, and you don't have a clue who they are. Do you?
    Mr. Bersin. No, Mr. Chairman, please understand that I head 
up the Office of Policy, the operational components that would 
have that information are not here.
    Chairman Chaffetz. When will I get that? When will I get 
that information?
    Mr. Bersin. I'm willing to during the recess see if we can 
find that.
    Chairman Chaffetz. When will I get that information?
    Mr. Bersin. If the operational representatives have that 
information, we will provide it to you when the hearing starts 
up again. If not, we will get it to you as soon as we can. I do 
not administer that.
    Chairman Chaffetz. Mr. Rodriguez, do you have anything to 
add to that?
    Mr. Rodriguez. I am--we are not the operational component, 
so I don't.
    Chairman Chaffetz. Okay. Is a visa overstay a key indicator 
of a threat to public safety and potential terrorism? Mr. 
Bersin.
    Mr. Bersin. It could be, depending on the facts. But in--
given the number of people involved in--who come into this 
country who are processed, a million people a day, I don't 
suspect it's a large fraction at all. No, sir.
    Chairman Chaffetz. Of the terrorist attacks that have 
happened in the United States, it's been a disproportionate 
number, hasn't it? How quickly, how quickly we forget about 9/
11. Nineteen, I believe, of those people are visa overstays, 
correct? It's not even in the top three priorities for the 
Secretary of Homeland Security. That's what I got a problem 
with.
    This memo of November 20, 2014, where the Secretary 
outlines the priorities for deportation. Category number two. 
And I want you to understand what I'm seeing at the end of 
category--this is, again, not the top priority for removal, but 
number two. These aliens should be removed unless there are 
factors indicating the alien is not a threat to national 
security, border security, or public safety. And should not, 
therefore, be an enforcement priority.
    Now, I don't know how you come to that conclusion about 
they are not a threat to public safety, border security, or 
national security. First of all, they are here illegally. That 
should be enough, in my book. But let me list to you, 
offensive--offense of domestic violence, sexual abuse or 
exploitation, burglary, unlawful possession of a firearm, drug 
distribution or trafficking, driving under the influence, and 
that is not an automatic deportation?
    Well, you have got to be kidding me. And to think that they 
might--do you think that's terrorism if a woman is raped? Do 
you, Mr. Bersin?
    Mr. Bersin. Do I think that that is terrorism?
    Chairman Chaffetz. Yeah.
    Mr. Bersin. No, but it's an egregious, horrible crime which 
is the--I think it is a horrible crime.
    Chairman Chaffetz. It is for that woman. It is for that 
family, and you don't deport them. How do you do that? You give 
them an excuse to make a decision, put some poor officer there, 
to say, you know, maybe they should go ahead and stay here in 
this country. We had more than 66,000 criminal aliens in your 
control, and you let them go. You didn't deport them. You let 
them go. Why do you do that?
    Mr. Bersin. Mr. Chairman, the policy provides that if they 
are a threat to national security, or border security, or 
public safety, that they are eligible----
    Chairman Chaffetz. Give me a scenario when a woman gets 
raped and the person is here illegally, that they are not a 
threat to public safety. Explain to me that scenario.
    Mr. Bersin. I didn't say that. I said that they would be 
subject----
    Chairman Chaffetz. That's what the memo says.
    Mr. Bersin. They would be subject--I believe the memo says, 
unless they are a threat to border security, unless they are 
not a threat to border security, national security, or public 
safety.
    Chairman Chaffetz. How are they not a threat--how are they 
not a threat to public safety?
    Mr. Rodriguez. If I may, if a woman is raped, and the 
perpetrator is convicted of rape, that is a felony. That is a 
serious crime. That is a top priority for removal. So I'm not 
sure----
    Chairman Chaffetz. It is not the top priority.
    Mr. Rodriguez. I'm not sure where----
    Chairman Chaffetz. It's already number two for the 
Department of Homeland Security, so says the memo.
    Mr. Rodriguez. That person would be removed.
    Chairman Chaffetz. It doesn't say that. It says, ``unless 
there are factors indicating the alien is not a threat, or 
should not therefore be an enforcement priority.'' Jeh Johnson 
went out of his way to tell people, if you commit rape, rape, 
if you're in a DUI situation, if you commit burglary, don't 
necessarily deport these people.
    Mr. Rodriguez. Respectfully, Congressman, I don't think you 
are reading that policy correctly. Rape is a serious crime that 
is a removal--a removable offense. That is the policy.
    Chairman Chaffetz. It is a removable offense, unless, 
unless, and it's priority number two for the Department of 
Homeland Security. I want some answers about that. I am going 
to give you a copy to read. You are going to have a half-hour 
to go through it. And I want to understand why you let 66,000 
criminal aliens remain in the United States of America.
    That's a threat to the homeland. That's a threat of 
terrorism. That's a threat to every American. Those people 
should be priorities for removal and you had them in your 
possession, and you let them go. You did not deport them.
    Mr. Cummings. If the gentleman will yield. Mr. Chairman, if 
your staff will give us a copy--I just want a copy of whatever 
you are reading from, so we will know what you are talking 
about, the memo you just referred to.
    Chairman Chaffetz. I ask unanimous consent to enter it into 
the record, and I will make sure all of the witnesses have a 
copy of it.
    Mr. Cummings. No problem. I just wanted to make sure that 
we have it.
    Chairman Chaffetz. Fair enough.
    Mr. Cummings. Can we get it quickly?
    Chairman Chaffetz. Yes. I'm sorry, yes. I will now 
recognize the gentlewoman from New York, Mrs. Maloney, for 5 
minutes.
    Mrs. Maloney. Well, thank you very much, and this is an 
important hearing, but the chairman said how quickly we all 
forget 9/11. I want to publicly thank all of the Members of 
Congress that are remembering 9/11 by including it in the 
omnibus which we will be voting on tomorrow. So I think that 
that is a wonderful way to remember 9/11 by providing permanent 
health care to the heroes and heroines, and survivors of 9/11, 
those who risked their lives to save others.
    It was a bipartisan effort, and certainly one that we could 
all agree on. And I think we can all agree that we need to 
really work together on this whole area. Due to the questioning 
earlier, the woman who came in from Pakistan who became the 
terrorist, they didn't find her in the database. But according 
to a report from the IG in 2015 from the Department of Homeland 
Security, they said that TSA did not identify 73 people who had 
links to terrorism, and I find that very troubling. And 
according to this IG's report, this happened because TSA was 
not authorized to receive full information from the TIDE, the 
terrorist database run by the National Counterterrorism Center.
    I think we have two main questions. One is, if people are 
dangerous, we have to figure out how to get them into the 
database, but it's extremely troubling that they are in the 
database, and yet, a visa is given to them, which happened in 
this particular case.
    So I would like to ask Mr. Bersin, can you briefly explain 
why TSA did not have access to all of the information in the 
TIDE database, which would have kept 73 people out of the 
country who had links to terrorism?
    Mr. Bersin. Yes, ma'am. Actually, the 73 people referenced 
in the report were people who were credentialed to be in 
critical infrastructure. So of equal importance, but this was 
not a visa situation. Subsequent investigation actually 
demonstrated those 73 were not known as suspected terrorists. 
However, the larger point that you make, which is TSA access to 
TIDE's data, is something that is under consideration. I 
believe a policy decision permitting that access could be made, 
and is certainly under consideration right now.
    Mrs. Maloney. Well, it seems to me that you have got to 
have access to who is--why have the list if people don't have 
access to it in making decisions about who comes into the 
country? I mean, I find that--I think that is something we can 
all agree on. We have to--we certainly want legitimate 
visitors, but anyone on a terrorist watch list, you know, we 
should not be granting access. So can you give me any reason 
why TSA should not have access? You are saying it's under 
consideration that they have access. Why in the world would TSA 
not have access to this counterterrorism list when it's their 
role to decide who comes in and who doesn't? I mean----
    Mr. Bersin. It is the policy position of DHS, including 
TSA, that it have access to that data, ma'am.
    Mrs. Maloney. That they have it?
    Mr. Bersin. Yes.
    Mrs. Maloney. Well, then, who is stopping that access?
    Mr. Bersin. No, no, that they--that they be authorized to 
receive that information directly from the TIDE.
    Mrs. Maloney. But they are not receiving it.
    Mr. Bersin. At this moment, no, but as I indicated, that 
policy has been under review, and I believe a decision will be 
made in--shortly.
    Mrs. Maloney. And who would make that decision?
    Mr. Bersin. It would be a combination of an interagency 
process that would determine----
    Mrs. Maloney. Who has the ultimate decision, the State 
Department, or----
    Mr. Bersin. No, this--ultimately, the Secretary would work 
with his counterparts in the cabinet, and it would be a 
decision that would be made by the interagency of the United 
States Government.
    Mrs. Maloney. The interagency. Who heads the interagency of 
the United States Government?
    Mr. Bersin. At the end of the process, the President, 
ma'am.
    Mrs. Maloney. So it's the President of the United States?
    Mr. Bersin. But this would not be--it would be decided in 
the process of the National Security Council, headed by 
Ambassador Rice.
    Mrs. Maloney. The National Security--well, I think this 
should be changed immediately. This seems like a bureaucratic 
mistake. So do you have any sense when they will make this 
decision?
    Mr. Bersin. The best I can offer you is shortly.
    Mrs. Maloney. Okay. Well, I would like the committee to 
send a letter--at least I'll send my own--expressing that this 
policy change should take place.
    May I just ask one brief question? Which entity has the 
final say on whether a visa applicant is approved to receive a 
visa?
    Ms. Bond. The Department of State issues the visa when 
every part of the interagency clearance has cleared and there 
are no objections and no red lights. So we would not issue over 
the objection of one of the interagency partners.
    Mrs. Maloney. My time is expired.
    Chairman Chaffetz. Thank you. The committee is going to go 
into recess. Witnesses are advised that we will reconvene no 
sooner than 5 minutes after 11, and we will pick up from there. 
The committee stands in recess.
    [Recess.]
    Chairman Chaffetz. The committee will come to order as we 
reconvene.
    Mr. Bersin, I wanted to recognize you for a moment. You 
wanted to clarify something?
    Mr. Bersin. Yes. Thank you, Mr. Chairman. Two points. The 
last set of questions and answers with Mrs. Maloney had to do 
with the access of TSA to TIDE data, and I talked about a 
policy change that was underway. On a manual case-by-case 
basis, that's been done from time to time. The policy change 
that I'm confident the Member of Congress would be pleased to 
hear is that this has to do with automated access of TSA to 
TIDE's data.
    The second matter, Mr. Chairman, was that in responding to 
Mr. Walberg, I indicated that the number of visa--of overstays 
were in the 4- to 500,000 range. And that number was correct, 
but my staff has corrected me, and I apparently misheard. This 
relates to both Visa Waiver Program, and also to all visas. So 
it was not just the Visa Waiver Program. There were 
approximately 4- to 500,000 overstays, but I believe when the 
overstay report does come, and Mr. Lynch is entitled to be 
skeptical, but I believe it is en route to the Congress, it 
will indicate a visa--an overstay for the Visa Waiver Program 
that is considerably lower than the number I suggested 
inaccurately in my testimony, having misheard the Member of 
Congress. Thank you, sir.
    Chairman Chaffetz. I appreciate the clarification. We now 
recognize the gentleman from Texas, Mr. Farenthold, for 5 
minutes.
    Mr. Farenthold. Thank you very much. Mr. Bersin, in your 
testimony, you talked about the various watch lists that were 
coordinated and maintained as a result of 9/11. Can you talk a 
little bit about what--how someone gets on one of those watch 
lists?
    Mr. Bersin. Yes, sir. There is a formal process. There is 
only one consolidated terrorist watch list in the United States 
following 9/11. And the way in which that happens is there is 
an interagency process. Any agency can nominate, and there are 
standards that govern the movement of a name----
    Mr. Farenthold. Right.
    Mr. Bersin.--onto the terrorist screening base, or 
terrorist watch list.
    Mr. Farenthold. There's a wide variety of agencies. Does 
there have to be some level of proof that you are on there, or 
is that a list based on suspicion?
    Mr. Bersin. The standard followed for most, all cases, 
are--is reasonable suspicion. There are other placements on the 
TSDB based on a couple of other factors that are actually much 
smaller, but for various immigration, or other reasons. But 
the----
    Mr. Farenthold. So it's pretty easy to--but it's pretty 
easy to get somebody on the list. What about getting off the 
list? If, for some reason, let's say I were put on the list. 
How easy would it be to get off?
    Mr. Bersin. So with regard to----
    Mr. Farenthold. And would I know?
    Mr. Bersin. With regard to a subset of the TSDB, which is 
the way in which people typically know that they are on the 
TSPB is if they are not permitted to fly abroad or within the 
United States, and there is a redress process that people can 
apply to to be removed, to ask to be removed from----
    Mr. Farenthold. Do you know how long that process typically 
takes?
    Mr. Bersin. It's an extended process, yes, sir.
    Mr. Farenthold. Are we talking years or months?
    Mr. Bersin. It depends on the particular redress 
application.
    Mr. Farenthold. And there are American citizens on this 
list?
    Mr. Bersin. Yes, sir.
    Mr. Farenthold. Do you have any idea how many American 
citizens?
    Mr. Bersin. Very--the number of American citizens that are 
on the no-fly list, or the selectee list, are a very, very 
small fraction.
    Mr. Farenthold. But there is a substantial number?
    Mr. Bersin. There is a--there are less than 0.1 percent, 
I'm told, with regard to the no-fly list.
    Mr. Farenthold. All right. I guess my concern with this is 
there has been a lot of talk recently about using these watch 
lists for purposes other than they were intended, for instance, 
in determining whether or not Americans are able to exercise 
their rights under the Second Amendment.
    Do you think it's appropriate that these lists be used 
outside of what they were designed for?
    Mr. Bersin. I've not heard that, and I don't believe that 
it would be--and I believe it would be apples and oranges.
    Mr. Farenthold. All right, thank you very much.
    Ms. Bond, I wanted to ask you a quick question about the 
folks that are interviewing folks who are coming into this 
country for a visa. That's done in your Consular Service 
Division. Right?
    Ms. Bond. Yes. That's right.
    Mr. Farenthold. And correct me if I'm wrong, is that not 
the entry-level job that almost everybody at the State 
Department has to start off and do a stint in the Consular 
Services section?
    Ms. Bond. Almost every Foreign Service officer will serve 
in a consular tour in their first or second tour, and sometimes 
on----
    Mr. Farenthold. And how long, typically, would someone 
serve in that position?
    Ms. Bond. Two years.
    Mr. Farenthold. And how many folks that are screening folks 
that are coming into the United States have been there, you 
know, for an extended period of time and have a high level of 
experience? To me, you testified they are adequately trained, 
but it's everybody's first 2-year stint. I assume most people 
don't choose to stay there.
    Ms. Bond. I did. The people, the officers, as they arrive 
at post, if they are doing this as a first experience, a first 
consular tour, they are very carefully monitored during the 
first----
    Mr. Farenthold. How many stay? I'm running out of time and 
I have got a question for Ms. Richard.
    Ms. Bond. You stay--you know, when we come into the Foreign 
Service, we come in in a cone, political, economic, consular. 
Approximately, I think, 20 percent of the Foreign Service are 
consular coned officers.
    Mr. Farenthold. All right. Thank you very much. And I 
wanted to ask Ms. Richard. When we are admitting refugees into 
the United States from folks like Syria or countries of 
concern, what level of coordination is there with the States? 
Do we talk to the governors, or anybody within the States? I 
know Governor Abbott in Texas is none too pleased about some 
folks that are being resettled in Texas.
    Ms. Richard. Every governor, I think 49 of them, have a 
State refugee coordinator that is involved in making sure that 
the governor's office works with and talks to the local groups 
that are helping to resettle the refugees.
    Mr. Farenthold. But they have no authority to stop it, or 
any formal process for expressing concerns. They are basically 
just informed, is that not----
    Ms. Richard. We insist that our local partners consult with 
local government officials, including the State refugee 
coordinator from the governor's office. So they should be 
consulted.
    Mr. Farenthold. Can you give me a definition of what 
``consulted'' means? I'm out of time, and if you'll just kind 
of give me an idea.
    Ms. Richard. You tell who is coming, how many, where they 
are going, all of that information.
    Mr. Farenthold. So this is basically just a one-way----
    Ms. Richard. Notification.
    Mr. Farenthold. All right. Thank you. The States don't 
really have a lot of opportunity. Thank you very much. I yield 
back.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from Illinois, Ms. Duckworth, for 5 
minutes.
    Ms. Duckworth. Thank you, Mr. Chairman. Ms. Bond, how long 
is that training process for those new Foreign Service officers 
who end up in Consular Services?
    Ms. Bond. The officers who are going out for a consular 
assignment for the first time take a training course that is 6 
weeks long at the Foreign Service Institute here, and then, as 
I say, after arriving at post, are normally engaged in the 
process that each post sets up for assigning a more experienced 
officer to work with them for the first few months.
    Ms. Duckworth. For the first few months.
    Ms. Bond. Also, of course, we have managers in the section, 
more experienced officers, and the visa decisions, issuances, 
and refusals of the less experienced officers are reviewed by 
more senior officers, and are the basis of discussion to talk 
about what that officer looked at, what they based their 
decision on, what questions they asked, what questions they 
might have considered, or pursued, and so, it's--there is, of 
course, an ongoing training program as people are settling into 
the job.
    Ms. Duckworth. So approximately about equivalent to an 
infantryman who goes to basic training, and then goes--we'd 
send them to combat under the supervision of more experienced 
leaders. And if we can trust our young Americans to go to 
combat with that amount of experience, I would think that we 
should be able to trust our consular officers who have been 
trained and are under supervision of far more experienced 
consular officers. You know, I strongly----
    Ms. Bond. I think it's also worth noting that the--we are 
talking about Foreign Service officers, so these are people who 
have gone through a very rigorous, competitive program to be 
admitted to the Foreign Service. Many are lawyers, or have 
formerly worked in immigration law, or, you know, have been 
teachers, or many are, in fact, former military.
    Ms. Duckworth. Right. So by no means are these 
inexperienced people, and even so, they get at least the same 
amount in terms of quantity of training as somebody we are 
sending into harm's way. I'm sure you are very proud of our 
consular officers, as am I, and I thank them for their service.
    Ms. Bond. Thank you.
    Ms. Duckworth. I strongly believe that we must do 
everything in our power to protect our country, but we can do 
it without devolving into demagoguery and focusing on imaginary 
problems. I agree with my colleagues that we must consider any 
and all options to improve the security of our refugees 
screening process, but let's remember that these refugees are 
fleeing the same terrorists that we are fighting, ISIS, and the 
brutal Assad regime.
    Turning our backs on people who are being persecuted and 
killed, betrays our Nation's deeply-held values and ideals and 
weakens national security by helping ISIL recruit a new 
generation of terrorists through anti-American propaganda. And 
as we have already discussed, our current process already 
requires the collaboration of vetting of seven separate 
Homeland Security departments and takes on average about 2 
years to complete.
    Mr. Bersin, and Mr. Rodriguez, you said that this process 
is incredibly rigorous. I would like to know if there are any 
other ways that we can further strengthen the refugee vetting 
process because, of course, I think we should if there are. But 
in your opinion, are there any other ways that we can further 
strengthen this process?
    Mr. Rodriguez. Well, I certainly think that one key way 
that we have been starting to use piloting, could--could be the 
use of social media research. There are other tools that we can 
use that I would not necessarily feel comfortable discussing in 
a public setting.
    Ms. Duckworth. Okay.
    Mr. Rodriguez. But needless to say, we are in a constant 
process of looking how we reinforce our security and law 
enforcement vetting across all lines of business. So I think 
it's helpful to talk about refugees, helpful to talk about the 
K visas, but I think it's also important that we realize that 
these security tools, in fact, are ones we need to think about 
using across all of our lines of business.
    Ms. Duckworth. So it is not a stagnant process. It's 
something where you are constantly reviewing and when you have 
new cases, such as in the San Bernardino case, you go back and 
you look at other things that could be done. Mr. Bersin, you 
are nodding.
    Mr. Bersin. Yes. I think the so-called hot wash, the after-
incident, particularly of a tragedy of that proportion, always 
leads to a lot of examination, a lot of soul searching about 
how do we strengthen the system. And we will never get to the 
point where that process ends. This is--this is clearly an 
example of something that requires continuous improvement. And 
when we have an incident, a tragedy of that proportion, yes, we 
look very carefully at what could have been done, what should 
have we known? What can we know? And then begin to address 
that, ma'am.
    Ms. Duckworth. Do you have a regular process that's in 
place that is a periodic review of the--of your processes that 
result in further improvement or adjustments?
    Mr. Bersin. We do within DHS, and we do in the interagency. 
There is a constant review on an annual basis through, for 
example, the watch listing guidance. How do we actually manage 
these vetting processes. Yes, ma'am.
    Ms. Duckworth. Thank you, I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlewoman. We will now 
recognize the gentleman from North Carolina, Mr. Meadows, for 5 
minutes.
    Mr. Meadows. Thank you, Mr. Chairman. I thank each of you 
for your testimony. Mr. Bersin, I'm going to come to you. 
You're a smart guy: Yale, Harvard, Oxford. You know, look at 
your resume. You know, you're a gifted attorney, and so as I 
look at all of that, I'm puzzled by a little bit of your 
opening testimony.
    Tell me, and let me quote you here, because it says that 
the second major-shaping influence is that we realize that 98 
or 99 percent of all trade and travel in the United States is 
perfectly lawful and legitimate. How do you know that?
    Mr. Bersin. The estimate comes, Mr. Meadows, from when CBP, 
for example, makes judgments about--with regard to cargo, and 
with regard to the people who are coming in and out of the 
States. We have those assessments of that. And I think it's----
    Mr. Meadows. All right. So following that logic, since it's 
an estimate, of the 20 million people that come here with a 
visa, you're saying that between 2 and 1 percent come here for 
less than lawful purposes?
    Mr. Bersin. If you applied that figure, sir, to the----
    Mr. Meadows. Well, if you are applying it to one, you have 
to apply it to all, don't you? I mean, either it's lawful or 
it's unlawful.
    Mr. Bersin. No, the point is that when you look at, in the 
globalized world we operate in, with the 70,000 containers that 
come in, with the----
    Mr. Meadows. Oh, so you are talking more about trade than 
people?
    Mr. Bersin. No, I'm also talking about the million people a 
day that----
    Mr. Meadows. All right. So let's talk about the million 
people. Because really when we look at terrorist activity, we 
are talking about 20 million people who come here with a visa, 
and perhaps overstay. Is that correct?
    Mr. Bersin. No.
    Mr. Meadows. Twenty million a year.
    Mr. Bersin. No, 20 million people come under the Visa 
Waiver Program.
    Mr. Meadows. Okay, and of that, how many overstay?
    Mr. Bersin. The estimate, as I indicated to the chairman on 
the clarification that I made, it's a--when the overstay report 
comes out, the numbers that I have seen suggest that it is a 
relatively small number of----
    Mr. Meadows. Okay. So you are talking about the internal 
document that you go----
    Mr. Bersin. That's correct, sir.
    Mr. Meadows. So what is the number on that internal 
document?
    Mr. Bersin. Well, I'm--it's less than----
    Mr. Meadows. What's the number? Now, you have got a 2-inch 
binder there that has all kinds of research. In fact, it has 
got our pictures and our bios, so you have done good research. 
So you knew I was going to ask this question, I assume.
    Mr. Bersin. I do, but I also have a duty----
    Mr. Meadows. So are you going to give me the number?
    Mr. Bersin. Mr. Meadows, I'm not going to give you a 
number. No.
    Mr. Meadows. Why?
    Mr. Bersin. I'm not going to give you a number because 
there is a report that's is in preparation with a process that 
has to be followed.
    Mr. Meadows. Is that the report that has been in process 
for 20 years?
    Mr. Bersin. I--it's that delay that makes me understand 
your skepticism.
    Mr. Meadows. The person who appointed you, Ms. Napolitano, 
promised it to this Congress in 2013, December of 2013, that it 
would be here. So are you all still working on that report?
    Mr. Bersin. So, Mr. Meadows, I know you don't have enough 
time for me to explain why it's happened, but I take the 
criticism. I think it's a fair criticism.
    Mr. Meadows. So when will we get the report?
    Mr. Bersin. I believe that that report is in process, and 
the expectation is that it will be--it will be delivered to the 
Congress within the next 6 months, and sooner if----
    Mr. Meadows. So help me----
    Mr. Bersin. --this hearing----
    Mr. Meadows. So help me understand this----
    Mr. Bersin. --has an impact.
    Mr. Meadows. --Mr. Bersin. We're supposed to believe you 
that you're vetting all the people coming here with 
unbelievable surety, and it's going to take 6 months to just 
give me a number?
    Mr. Bersin. No.
    Mr. Meadows. Because let me quote you, Mr. Bersin. You said 
that 400,000 is in the range of the estimate made. Now, 
that's--that's an interesting--it's in the range of an estimate 
that's made.
    Mr. Bersin. 400,000 to 500,000 are the--are the total--the 
total overstays, and that was the clarification asked for.
    Mr. Meadows. All right. So answer this. The GAO said that 
there was potentially 1.6 million overstays in 2011. The GAO 
said potentially there was over 1 million overstays in 2013. 
How did you make such good progress, Mr. Bersin, if it's only 
500,000 now, which is--if you take the same numbers, means that 
there could be as many as 4,000 people here doing unlawful 
things, but how did you make good progress?
    Mr. Bersin. The difficulty in the overstay process that 
we've had for 20 years is that in fact there is--the entire 
exit industry--the exit from our country for the last--from the 
time it was organized did not build in the notion that we would 
screen people on the way out. It is based on screening people 
on the way in.
    Mr. Meadows. That's exactly what I wanted to get to. So, 
Mr. Bersin, your testimony here today is you don't know who 
leaves this country. That's what you just said.
    Mr. Bersin. No, I didn't say that. I said that when we--the 
difficulty----
    Mr. Meadows. So you do know? You do know how many people 
leave?
    Mr. Bersin. We have a portion through the different 
mechanisms, we have, yes, we know a certain portion. Those who 
come by air and leave by air, we can count them.
    Mr. Meadows. So if they leave by boat or walk or car, you 
don't know?
    Mr. Bersin. No. In the northern border, we've worked out 
with the government of Canada an entry-exit process where an 
entry into Canada is communicated to us for non-U.S. citizens 
and non-Canadians, so for that portion, we know. We also--but 
the areas that we do not know----
    Mr. Meadows. So you're under sworn testimony. The last 
question.
    Mr. Bersin. Of the land borders of Mexico.
    Mr. Meadows. Do you know the number of people that leave 
the United States each and every year?
    Mr. Bersin. The----
    Mr. Meadows. You're under sworn testimony. Yes or no.
    Mr. Bersin. We can give you a large proportion of those, 
but not all, no, so we don't know.
    Mr. Meadows. All right. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. Thank you very much.
    As I listen to this, it is very upsetting. It really is. I 
feel like--you know, one of the things that I will go to my 
grave remembering is Katrina. We had a situation there where 
people constantly told everybody that things were going to be 
all right if we had an emergency. And they said, ``When the 
rubber meets the road, everything will be fine,'' but when it 
came time for the rubber to meet the road, we discovered there 
was no road.
    The chairman and I, I think, when we looked at the Secret 
Service--we looked at a number of situations where things are 
not as they appeared to be.
    And the thing is, is that lives depend upon a lot of these 
things. And so I guess what I'm trying to figure out is, what 
did we learn? I want to get down to the bottom line. We can go 
through this all day, but I'm trying to get to the bottom line 
of something you said, Mr. Rodriguez, about how do we prevent, 
and what are we doing now to make sure things don't happen? 
First of all, did we learn anything from the San Bernardino 
incident? And if we did, what did we learn, and what are we 
going to do about it, and what are we doing about it? Now, if 
you tell me we learned nothing, that's okay; you can tell me 
that. Or if you tell me we learned something, but we're not 
going to do anything, but I need to know because I am of the 
firm belief that we need to--we need to be frank about this, 
was it--and by the way, we want to know whether it was an 
intelligence failure. What was it? Talk to me.
    Mr. Bersin. So----
    Mr. Cummings. And by the way, let me tell you something: 
That 6-month thing, you can do better than that. All right? You 
need to get that information faster than that. All right? But 
go ahead.
    Mr. Bersin. I was putting an outer limit on it, sir, so I 
didn't limit myself.
    Mr. Cummings. Let's limit it--you need to bring in the 
limit a little bit, but go ahead.
    Mr. Bersin. I hear you.
    Mr. Cummings. All right.
    Mr. Bersin. So what did we learn? As I indicated, the 
fourth major influence is what Secretary Johnson and the 
President have been indicating, is that the threat is evolving 
and that, in fact, right now, we're dealing with something that 
is an online, cyber-enabled radicalization of people. It's the 
active shooter in the context of the lone wolf or lone wolves 
that are not necessarily organized, trained, and equipped by 
ISIL but actually inspired by the propaganda that is online.
    And I think what we've--what we've learned, as we saw, is 
that it was not in the system. And I think many of the 
questions that have been pursued and the inquiry that this 
committee is making about how far can we go with regard to 
social media, how far can we go into people's Facebooks and 
private chats, are all issues that are legitimate and need to 
be discussed. They----
    Mr. Cummings. Idealistically, what would you do if you had 
the resources today that we would not have thought about or 
done prior to the incident? I guess that's what I'm trying to 
get to where are we going to, if we're going anywhere?
    Mr. Bersin. I think with regard to legal authority and 
privacy policy, I think all of those matters need to be looked 
at. We--there are restrictions, but, for example, the privacy 
policy in DHS does not prohibit the use of social media for 
screening purposes. The question is, what are the other 
purposes that might permit that? What are the other civil 
liberties and protections that would actually say to us, ``No, 
it would violate our values to actually go there''? But that's 
the debate that I take--I take it is triggered by this action.
    Mr. Cummings. Did you want to say something, Mr. Rodriguez?
    Mr. Rodriguez. Yeah. I think I would say that we are--we're 
hot--we're autopsying the situation now.
    Mr. Cummings. You're doing what?
    Mr. Rodriguez. We are hot washing the situation.
    Mr. Cummings. Hot washing.
    Mr. Rodriguez. Yeah. In the sense that we are looking at it 
to see what lessons are learned. There are some preliminary 
lessons. You know, the question--the point that Director Comey 
had made about a ripple in the pond, and we need to know--just 
about everybody actually does leave a ripple in the pond, the 
question is, can we find the ripple in the pond?
    Social media is clearly something that we need to be 
talking about. It is something that we have been building and 
are going to continue to build. We've been focusing primarily 
on the refugee setting. We're going to be looking at also using 
it in nonrefugee settings as well. It's also a question of how, 
when, and who we interview because all of these tools need to 
be used together. So one of the questions here is, do we need 
to be doing things differently, more or less differently in the 
interview setting? That is something that we are digging into 
as part of our interagency collaborative process.
    Mr. Cummings. Very quickly, Mr. Bersin, did TSA--following 
up on Mrs. Maloney's question, did TSA submit requests? Does 
TSA now have all the information it needs from TIDE, the TIDE 
database?
    Mr. Bersin. As I said, Mr. Cummings, they have manual 
access right now. The issue is to give them automated access, 
and we believe that decision will be made in the--before the--
before 6 months.
    Mr. Cummings. Has the request been made? Has the request 
been made?
    Mr. Bersin. Yes, sir.
    Mr. Cummings. And how soon--you said ``within 6 months''?
    Mr. Bersin. No, no. I said sooner than 6 months. And 
actually I think this one is in the--in the--in the near 
future.
    Mr. Cummings. The only thing I'm trying to get to, and we 
all should be concerned about this, is the sharing of 
information. Is that a problem? You know, sometimes, you know, 
I've found that Federal agencies act in silos, and the next 
thing you know, one person has got--somebody's got information 
over here, somebody's got some over there. Is that part of the 
problem?
    Mr. Bersin. So, Mr. Cummings, that was clearly the case 
before 9/11. I think the testimony of your witnesses here today 
and the reality we know is that we don't have those silos with 
regard to the vetting process. There are other silos, to be 
sure, but not with regard to the exchange of metadata or the 
use of metadata to make judgments about whether or not a person 
is a high- or low-risk traveler.
    Mr. Cummings. All right.
    Thank you, Mr. Chairman.
    Mrs. Maloney. Will the gentleman yield for a second?
    Mr. Cummings. I'll yield for a second.
    Mrs. Maloney. You know, who doesn't have access to the TIDE 
terrorist database? TSA doesn't have access to it. Are there 
other groups that don't have access to it, the K-1 visa, the 
other visa, visa waiver people, do they not have access to it? 
Who doesn't have access to that TIDE base? They should all have 
access to it.
    Mr. Cummings. Reclaiming my time. Please answer.
    Mr. Bersin. So the--the TIDE's--the Terrorist Identities 
Datamart Environment is actually a nexus of people who have--in 
which there is derogatory information with an international 
nexus. For it to be operational, it comes into the--it comes 
into the Terrorist Screening Database.
    The issue on TSA is that in doing its credentialing, we 
want them to have access on an automated basis so that they can 
get flags----
    Mrs. Maloney. Yeah.
    Mr. Bersin. --about potential problems, and that's the 
issue that's at stake right now.
    Mrs. Maloney. But I would think the other groups should 
have it too.
    Chairman Chaffetz. The gentlewoman's time has expired. The 
gentleman's time has expired.
    I now recognize the gentleman from North Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. South Carolina.
    Chairman Chaffetz. South Carolina.
    Mr. Mulvaney. I thank the chairman.
    Ms. Richard, we've had the chance to meet before. You and I 
have met with Congressman Gowdy to talk about some resettlement 
programs in South Carolina. I know that our staffs have worked 
together closely on that, and I appreciate your participation.
    We find out yesterday in the media that your group has 
placed some Syrian refugees this month in South Carolina. I'd 
like to ask you about that. And full disclosure, it's a very 
small number of people. It's one couple, we understand. So this 
is not specific to these folks. But our Governor had reached 
out to you and asked you not to do this. And when we had met 
previously, you said that one of the things that your 
organization considers when looking at placing folks is whether 
or not they are going into areas where you feel like they would 
be welcomed to the point where they would be easier to 
assimilate.
    And I would suggest to you that maybe the Governor's letter 
to you might send a message that now is not the right time to 
send Syrian refugees into South Carolina. So why did you do it 
anyway? And why didn't you tell the Governor you were going to 
do it?
    Ms. Richard. I didn't know we had sent a couple of Syrian 
refugees to South Carolina, so I will find out when that was, 
and I'll get back to you.
    Mr. Mulvaney. How is it possible that that happened without 
you knowing about it, especially in light of the--how many 
meetings have you had with me and Mr. Gowdy and our staff?
    Ms. Richard. Oh, several, but I don't track all of the 
70,000 refugees coming to the United States. That's carried 
out, you know, in a----
    Mr. Mulvaney. How many delegations----
    Ms. Richard. --statewide----
    Mr. Mulvaney. --have you met with in the last year, 
congressional delegations----
    Ms. Richard. Oh, lots and lots and lots.
    Mr. Mulvaney. A dozen?
    Ms. Richard. I'll find out right away and get back to you, 
you know, why we have a couple of Syrian refugees there. Our 
program is continuing, and it's continuing across the United 
States. And this is all legal, of course, but I----
    Mr. Mulvaney. But that wasn't the standard you set, right? 
The standard was not a legal standard. We know you have the 
right to do it, and you have been very candid in your position 
that the Governors don't have the right to stop it, and we--
that's the law, but it is not a legal standard that you set out 
to hit, was it? You were going to try and put these folks in 
places where they would be welcome, so it would be easier for 
them to assimilate.
    Ms. Richard. Yeah. And I suspect that the couple that's 
gone to South Carolina is welcome there as well, but I still 
would like to know----
    Mr. Mulvaney. And let's talk about that, because----
    Ms. Richard. --where the Syrians are going.
    Mr. Mulvaney. I'm sorry to cut you off, but let's talk 
about that because I hope very much that they are welcomed in 
South Carolina, and knowing what I know about my folks back 
home, I believe that they will be. But here's where we are, and 
where we are is we're in the middle of a debate nationwide over 
your vetting processes, we've got the FBI Director saying that 
while they're good, they're not perfect, and he can't certify 
that everybody who comes in is safe and not a national security 
threat. We had a bill that we voted on in the House, had a 
veto-proof majority to pause this resettlement program. This 
issue gets a lot of attention. Now I have two folks who have 
been resettled in South Carolina, and sooner or later, the 
folks in their neighborhood are going to find out who they are. 
And I'm going to have people who look differently at those--
those refugees than they would otherwise. And in the back of 
their mind, they're always going to wonder: You know what? I 
wonder if these are the two who got through the system. FBI 
Director tells us it's not safe.
    Doesn't it make it more difficult for refugees to 
assimilate if we haven't perfected our vetting process?
    Ms. Richard. I think we have a very, very strong, robust 
vetting process for----
    Mr. Mulvaney. Mr. Rodriguez and Mr. Bersin just said that 
this is an evolving threat and they're changing the way that 
they do business. Have you changed the way that you've vetted 
in the last 6 months?
    Ms. Richard. We are going over how we vet in a very active 
way, not because----
    Mr. Mulvaney. Have you changed the way----
    Ms. Richard. --we think we're letting in anyone----
    Mr. Mulvaney. Have you changed the way you vet?
    Ms. Richard. --but because we're trying to make it even 
better.
    Mr. Mulvaney. Have you made any change in the way you vet 
since San Bernardino?
    Ms. Richard. Since--no, but there were no refugees involved 
in San Bernardino.
    Mr. Mulvaney. Okay. Fair enough. No. I get that. But are we 
not--didn't we just have a discussion about silos? Aren't we 
going to learn something about the fiance(e) visa process and 
apply it to the refugee process? Are you looking at social 
media?
    Ms. Richard. That I have to defer to Leon Rodriguez on.
    Mr. Mulvaney. Mr. Rodriguez, are you all looking at social 
media----
    Mr. Rodriguez. No. And----
    Mr. Mulvaney. --in the refugee program?
    Mr. Rodriguez. As I've said very clearly, yes, we have 
been. We're not using it 100 percent. We've been piloting the 
use. We are now in the middle of a third pilot. I think I 
talked before about the lessons that we learned from that and 
how they're going to be applied prospectively, but, yes, we are 
building the capacity----
    Mr. Mulvaney. And there's no way to know if the folks that 
got placed in my State yesterday have been through that process 
or not, is there?
    Mr. Rodriguez. I think, as you know, the process is a very 
long and rigorous one. So I don't know. I don't know as to 
these two particular folks when they were interviewed and 
when----
    Mr. Mulvaney. Here's my point. And I apologize, but I'm 
running out of time. Here's my point. Folks on your side of the 
table, folks on our side of the table recognize that the 
vetting process could be better. I think if we're really 
interested in having a viable refugee program that allows 
people to resettle here and to integrate and assimilate, that 
process has to be the very best that it can be. And the folks 
back home are entitled to that because they are entitled as 
citizens to know that if you want to place citizens in their 
community, which is what you've done, over our objections, they 
are entitled to know that you have done everything possible to 
make sure that it is safe to do so. And all I know right now is 
that we can't tell them that. So I will ask you to do what 
we've been unable to do legislatively, which is simply pause 
the process until you can give us that guarantee and tell us 
the folks back home are safe.
    With that, I yield back the balance of my time. Thanks.
    Chairman Chaffetz. I thank the gentleman from South 
Carolina.
    I now recognize the gentlewoman from the Virgin Islands, 
Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman, Mr. Ranking Member.
    Thank you, witnesses, for being here today.
    I just have several questions that are related to a hearing 
that went on last week about the no-fly list. And it's our 
understanding that TSA draws this list from the Terrorist 
Screening Database, which is maintained by the FBI, and that 
the no-fly list contains a small subset of names who, quote, 
are prevented from boarding an aircraft when flying within, to, 
from, and over the United States.
    Assistant Secretary Bersin, according to the FBI's 
frequently asked questions, I'm going to quote here: ``Before 
an individual may be placed on the no-fly list, there must be 
credible information that demonstrates the individual poses a 
threat of committing a violent act of terrorism with respect to 
civil aviation, the homeland, the United States' interests 
located abroad, or is operationally capable of doing so.'' 
Could you explain to us what types of information can credibly 
demonstrate that an individual poses a threat?
    Mr. Bersin. So when a name is imported from TIDE into the 
TSDB and then you have a subset that goes onto the no-fly list, 
there are numerous kinds of data that would establish the 
reasonable suspicion or provide additional derogatory 
information that would say, ``This is not someone that we wish 
to have flying to the United States, within the United States, 
or out of the United States,'' things like associations, things 
like acts, this may be a person who has been involved in a--in 
a criminal terrorist investigation. So, I mean, there--every 
case stands on its--on its--on its own, all four points. It 
depends on the facts, but there are many kinds of data that 
would suggest that this is a very, very high-risk person that 
we don't want to take a chance with.
    Ms. Plaskett. Okay. Thank you. And I know it's almost 
unfair, since the FBI are not here, in asking these questions. 
Can you explain to us what social media, what the role of 
social media has in posting in the no-fly list?
    Mr. Bersin. I cannot speak to that in terms of the 
investigative tools that are used to establish those facts, 
ma'am.
    Ms. Plaskett. And why can't you speak to those?
    Mr. Bersin. Because I'm not operationally involved in 
supervising those activities.
    Ms. Plaskett. Okay. So would you be able to explain to us 
with visa applicants, any of the witnesses, what information 
does social media play in the screening for other visa 
applications, or is it only for those that have already been 
considered for the no-fly list?
    Ms. Bond. As part of the visa process, as I think has been 
described, when the vice consul is beginning to interview 
somebody at the window, they already have a lot of information 
about that person. Some of it came from the applicant 
themselves. It's information that's on their application. Some 
of it may have come from the interagency screen that's been 
done. We know, for example, if it's an individual who has 
traveled to the states, then right there on our computer, we 
can see their face, the photo taken every time they entered. We 
know that they've traveled. So we have a background of 
information of things that we can ask people about, and that 
directs the line of questioning that is going to be used with a 
particular--you know, if we're interested because they have 
close family members in the states, then we're going to be 
pursuing that. If we're interested in where they studied or 
what they studied or--you know, it will depend on the 
individual.
    It happens frequently that the consular officer comes to a 
decision that if everything that is being said is true, then he 
or she is comfortable approving that visa, but they want to 
confirm some of that information, they don't want it to be only 
based on the interview or what's being said in the interview. 
And in that case, what they often do is to refer the case to 
the fraud team at the consulate, and everyone has a fraud 
officer or office, and they often use social media in their----
    Ms. Plaskett. So the social media----
    Ms. Bond. --verifying information.
    Ms. Plaskett. --component does not come in until the case 
is flagged, and at that point, then the fraud office will then 
use that?
    Ms. Bond. At this point, that is when we typically might 
use social media as one of the ways that we could--we might 
also--for example, if we want to know if someone really works 
at a particular place, we might have one of the local employees 
on the staff call that place and ask to speak and confirm it 
that way, but as part of the review, following the attack in 
San Bernardino, which, as I say, is looking at the K-1 process, 
but is applicable really----
    Ms. Plaskett. Sure.
    Ms. Bond. --to all that we do, we are--the agencies are 
looking at the broader use of social media.
    Ms. Plaskett. I guess I'm just trying to pinpoint--I'm 
sorry. I don't have a lot of time, and I am an impatient person 
anyway. At what point in the process does the social media 
process come in? Is it----
    Ms. Bond. It can----
    Ms. Plaskett. --at the point when they consider that 
there's a question as to whether or not the information that 
has been given is incorrect, or does it come to the officer 
when the individual steps to that screen? What you're saying is 
it happens if there's a question about them, and it's going to 
the fraud component? Is that correct?
    Ms. Bond. Yeah. That's exactly right. Either the officer is 
fully satisfied that it's a good case and approves it; or has 
decided to refuse the case and isn't going to waste resources 
doing more research; or is at a point where--is willing and 
ready to issue but wants to confirm some of the data that has 
been provided, and social media is one of the tools that we may 
use in the process of confirming information that has been 
given to us.
    Ms. Plaskett. Okay. Thank you.
    Chairman Chaffetz. Thank the gentlewoman.
    We now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Ms. Richard, the Washington Post reports that Christians 
are terrorized in U.N. refugee camps and, as a result, are 
unfairly excluded from the United Nations process. Is it true 
that Christians are underrepresented in the refugee camps 
because they're at risk of being attacked by non-Christians in 
the refugee camp?
    Ms. Richard. We are very concerned about Christian 
refugees. And most refugees are not in camps in the Middle 
East. And so we've placed a priority on resettling refugees who 
are Christian or minorities if they are in danger.
    Mr. Walker. You said you place a priority on Christians?
    Ms. Richard. Yes, sir.
    Mr. Walker. Did I hear you earlier say in this hearing, I 
might have misunderstood, that Christians are not fleeing Syria 
because they feel safe?
    Ms. Richard. No. 4 percent----
    Mr. Walker. We'll continue to hold because I'd like to play 
that back, if we would, please, on the video, because I'm 
pretty sure that's what you said.
    And would you play that video, please?
    [Video shown.]
    Mr. Walker. You said they're not fleeing because they feel 
safe. Ms. Richard, how many----
    Ms. Richard. Some, some.
    Mr. Walker. --how many Christians have we brought in in the 
last 5 years.
    Ms. Richard. So in 2014----
    Mr. Walker. Ms. Richard, answer the question. In the last 5 
years, how many Christians refugees have we brought in?
    Ms. Richard. Four percent of all the Syrians we have 
brought have been Christian or other minorities.
    Mr. Walker. You've brought in 53. You tell me that's 4 
percent? Because according to the numbers, that aren't hard to 
find, you can look this up on CNN----
    Ms. Richard. We can----
    Mr. Walker. --social media or anyplace else, there are 2 
million Christians decimated, okay, 2 million Christians. 
According do Pope Francis, he calls it genocide. Just last 
month, a Syrian bishop for pleading for ransom money, 200 
hostages held, some young ladies. Do you know what ISIS does to 
the young females? It's brutal. I'm sure you're aware of that, 
working for the State Department.
    So please tell me why that we have brought in 53 
Christians. How do you know they're Christians? What's the 
process?
    Ms. Richard. We had just checked the number. It's 4 percent 
of the 2,400 total Syrians brought in since 2011 have been 
Christians or other minorities.
    Mr. Walker. I want to----
    Ms. Richard. They are brought in because they feel that 
they are in danger because of that.
    Mr. Walker. So----
    Ms. Richard. We agree with you 100 percent that these 
people should be given a chance for resettlement if they 
present a case.
    Mr. Walker. But you said today that Christians are not 
fleeing Syria because they feel safer. Would you like to 
retract that?
    Ms. Richard. Some, some. What I would like to say----
    Mr. Walker. Some Christians? How many is some?
    Ms. Richard. Ten percent of the prewar population of Syria 
was Christians.
    Mr. Walker. Around 2 million, yes.
    Ms. Richard. And so we are seeing less than 10 percent of 
the refugees coming out are Christians.
    Mr. Walker. 200,000, according to the numbers.
    Ms. Richard. And a disproportionate number of Syrians 
staying in the country are Christian. Now, why is this? It's 
because a higher percentage of them support Assad and feel 
safer with him there, but the ones who come out, who choose to 
flee and feel that they are in danger, those are the people we 
want to help, absolutely.
    Mr. Walker. Nine per year since the last 6 years. You see 
why there's a credibility issue, Ms. Richard.
    I'd like to yield the balance of my time to my good friend 
from South Carolina, Mr. Trey Gowdy.
    Mr. Gowdy. I thank my friend from North Carolina.
    Mr. Chairman, we have two former prosecutors here, so I 
want to see if we can kind of disabuse some folks of some 
incorrect apprehensions with respect to the current gun laws.
    Mr. Bersin and Mr. Rodriguez, would you agree with me that 
it is currently against the law for somebody who crosses the 
border without permission to possess or purchase a firearm?
    It's sometimes unfair----
    Mr. Rodriguez. I'm remembering back to my days prosecuting 
gun crimes, which has been a while, Congressman. I think you 
and I share that.
    My recollection is that, yes, that would be----
    Mr. Gowdy. It is sometimes unfair to----
    Mr. Rodriguez. Yeah.
    Mr. Gowdy. --to put pop quizzes to folks who haven't done 
something in a while. So just trust me when I tell you that if 
you have crossed the border without permission, you cannot 
legally purchase or possess a firearm. If you have overstayed a 
visa, you cannot legally purchase or possess a firearm. In 
fact, if you're legally here on a visa, only in very limited 
circumstances can you legally possess or purchase a firearm. So 
those are all categories with existing law where you can't 
purchase or possess a firearm.
    Are those lists made available to federally licensed 
firearms dealers so they can make sure they don't sell firearms 
to those three categories of prohibited people?
    Mr. Bersin. Mr. Gowdy, I'm just not familiar with the ATF 
process with regard to that. I know that I'd be--I don't 
believe that DHS circulates those lists.
    Mr. Gowdy. Well, this is the frustration that I face, is I 
listen to an administration call for additional gun laws. They 
want additional gun control in the wake of almost every 
tragedy. That's the very first place they run. And it just 
forces me to ask: Well, I wonder how we're doing with the 
current gun laws that we have.
    And I'm not going to ask you for the statistics because I 
didn't tell you I was going to, and you shouldn't be prepared 
and probably would not be prepared, but I would encourage both 
of you as former prosecutors to go back and look at the 
statistics coming out of the Department of Justice on how many 
prosecutions exist for current gun law violations on all those 
three categories. And if we're going to create a list with, by 
the way, no due process, called a watch list, then, at a 
minimum, we ought to give the list of visa overstays to 
federally licensed firearms dealers because that list already 
exists. We already know who's on that list, so your due process 
rights have already been afforded to you. So if there's going 
to be a list given to FFLs, I would think it ought to be the 
visa overstay list before it would be some list conjured up by 
folks that we're not familiar with. So I would encourage both 
of you, put on your former hats, and maybe we can meet 
privately and find out what you learn on that.
    With that, I would yield back to the chairman.
    Chairman Chaffetz. Thank you.
    The gentleman yields back.
    Mr. Connolly of Virginia is now recognized for 5 minutes.
    Mr. Connolly. Let me ask about the line of questioning that 
somehow implies we ought to prioritize a particular religious 
group over all others. Mr. Bersin, Mr. Rodriguez, Ms. Bond, 
would that be constitutional?
    Ms. Richard. Well, related to refugees, Mr. Connolly, one 
of the five ways that someone can be determined to be a refugee 
is if they've been persecuted on the basis of their religion. 
And from the perspective of my office, it doesn't matter what 
the religion is, but if it's the reason that they're being 
persecuted, then they could qualify to be determined to be a 
refugee. And so we see people fleeing from around the world----
    Mr. Connolly. But that's not my question----
    Ms. Richard. Oh.
    Mr. Connolly. --and I don't think that was the question 
being asked. Are we constitutionally permitted, could you and 
your office put a little asterisk, we give a little extra 
weight if you're of a particular religion? Is that 
constitutional? Do you have the authority to do that?
    Ms. Richard. If it's the cause of their persecution.
    Mr. Connolly. No, no. I'm not asking that question.
    Ms. Richard. I'm not--I'm not going to change the program 
to somehow bring more of one particular religion than another.
    Mr. Connolly. You're going to look at the nature of the----
    Ms. Richard. The persecution.
    Mr. Connolly. --refugee status.
    Ms. Richard. Right.
    Mr. Connolly. Irrespective of religion.
    Ms. Richard. That's right.
    Mr. Connolly. Is that how it should work, in your opinion?
    Ms. Richard. Yes. I'm absolutely very comfortable with 
that.
    Mr. Connolly. Because actually that's what refugee programs 
are designed to do, isn't it? We're trying to help people who 
are suffering violence, oppression, discrimination in extremis, 
and provide a safe haven. And after all, it's not a huge 
program, right, about 70,000 a year----
    Ms. Richard. That's right.
    Mr. Connolly. --total refugees?
    Ms. Richard. Well, and proposing to go to 85,000 this year.
    Mr. Connolly. Okay. And the actual number, for example, of 
Syrian refugees is very small.
    Ms. Richard. That's right.
    Mr. Connolly. Have I got it right that it's under 3,000 in 
the last 3 years?
    Ms. Richard. Yeah, 2,400 total since 2011.
    Mr. Connolly. In the last 4 years.
    Ms. Richard. Yeah.
    Mr. Connolly. Why is that such a small number given the 
fact we have 4-1/2 million Syrian refugees?
    Ms. Richard. Part of the reason is that the first response 
to a refugee crisis should not be to resettle people; instead, 
it should be make sure that they're safe where they've gotten 
to and also to see if the crisis can be resolved so they can go 
home again. Most Syrian refugees would prefer to go home and 
again and live in peace in their own home country.
    However, as the time went on, it became clear that for some 
of the Syrian refugees, there would be no going home again. 
They had seen terrible things happen to them and their 
families. And for the most vulnerable people, who really can't 
make it on their own in the cities and the towns in the Middle 
East to which they fled or the camps that they may be living 
in, we have a program to offer resettlement in other countries, 
and the U.S. is the leader in taking refugees under that 
program.
    Mr. Connolly. My understanding is it takes on average for 
Syrian refugees 18 to 24 months.
    Ms. Richard. That's correct.
    Mr. Connolly. Is that unusually long?
    Ms. Richard. It's longer than other countries.
    Mr. Connolly. And the reason for that is?
    Ms. Richard. We are very thorough and----
    Mr. Connolly. Okay. So we're being careful.
    Ms. Richard. Yes.
    Mr. Connolly. I assume it can also be--I mean, if you flee, 
I don't know, the insurgent group or the Syrian Army is going 
to shell your village, your town, you may have to leave with 
what's on your back and your family, and that's it.
    Ms. Richard. That's correct.
    Mr. Connolly. So you don't have documents to prove who you 
are.
    Ms. Richard. The surprising thing to me is that our 
colleagues at DHS--and Leon can talk about this--are finding 
that many of the Syrian refugees do have documents, but 
documents are not the only piece of evidence that they have to 
provide to make the case that they are bona fide refugees. It's 
a multilayered, multifaceted review.
    Mr. Connolly. All right.
    Mr. Rodriguez, I think this question is to you, but I know 
you covered a little bit the whole issue of the use of social 
media. We got a pilot program, but I guess my question would be 
a little bit broader. In the private sector, when people are 
looking at employment, they go to public social media sites as 
part of a screening process. Why wouldn't we do that routinely 
when it comes to granting somebody a status to come into the 
United States, whether it be refugee status, visa, various visa 
statuses, and so forth? Why wouldn't we do that just like we do 
any other background document because it's part of the 
landscape now?
    Mr. Rodriguez. That may well be where we end up. I think we 
have been focusing on areas where we detect a heightened risk. 
Obviously, in many of our conversations when we talk about 
individuals coming from countries where there is active 
terrorist activity, active terrorist recruitment, those seem to 
be the areas where we should primarily focus.
    I think the question is going to be what's--what ends up 
being the value. And if, in fact, there is value, if the work 
that we're doing shows that there is value, then we may well 
end up exactly in the place that you describe. That is--that is 
what we have been evaluating for months now. We're certainly 
increasing the scope of our pilots, but that--so there--it may 
well be that the point that you make turns out to be correct.
    Mr. Connolly. You--I guess I'm a little puzzled, as 
somebody with both public sector and private management 
experience. I mean, clearly, the private sector sees the value 
in using it as part of the background check when they are 
hiring or screening. Why wouldn't we do that in this case? And 
then I'll yield back my time.
    Mr. Rodriguez. I mean, I personally believe that as we get 
further into this, we will discover information of value. I 
think what is also going to happen, though, is that people will 
go underground and, knowing that we're looking at those 
mediums, will cease to use them, certainly in a public 
environment.
    Mr. Connolly. Thank you.
    Chairman Chaffetz. Thank you.
    The gentleman yields back.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I asked this question the other day to Ms. Burriesci. In 
fact, there were many, many questions, as you've already heard 
today, that she was absolutely unable to answer that ought to 
be rather basic questions. So I want to ask you, Mr. Bersin, do 
you have any idea how many passports are reported stolen each 
year?
    Mr. Bersin. I'm pausing, Congressman, because I know that 
the--as the former vice president of INTERPOL, which maintains 
the lost and stolen passport database, I have a number of how 
many there are. I would defer to Ms. Bond, who administers the 
passport, because our----
    Mr. Hice. All right. Ms. Bond, do you have any idea how 
many are reported stolen?
    Ms. Bond. In terms of how many U.S. passports are reported 
stolen every year, I'm going to find out for you right now. I 
did not bring that number with me.
    Mr. Hice. All right. What about non-U.S. passports? Do you 
have any way of getting that number?
    Ms. Bond. Individual governments report that data to 
INTERPOL, and so, yes, we can go to INTERPOL and ask them for 
that, but it's not--that's not data that this government 
maintains.
    Mr. Hice. Okay. Well, if you could get both of those for me 
as well.
    Whether you or Mr. Rodriguez, with that awareness that we 
don't know, I would think that some of you would know how many 
passports are stolen. That's kind of what this whole hearing is 
about in an indirect way. We want to know what kind of--what is 
the standard procedure when a passport is stolen or missing? 
What, if anything, is done--do we do to make sure that it's not 
fraudulently picked up and used?
    Ms. Bond. When----
    Mr. Bersin. So--go ahead.
    Ms. Bond. When a U.S. passport is reported lost or stolen, 
we immediately deactivate it. It wouldn't be accepted. You 
wouldn't be able to travel with it, wouldn't be able to board a 
plane with it, and we notify INTERPOL very promptly.
    Mr. Hice. Okay. What about a passport from somewhere else 
in the world? Are we notified in any way?
    Mr. Bersin?
    Mr. Bersin. Yes. This would be on the vetting. So when 
someone comes to the--a port of entry or actually applies 
through the ESTA program, presents the passport, that part of 
the database that it's run against for vetting would be the 
Stolen and Lost Travel Document database of INTERPOL, which has 
just under 55 million records in it, and you would--you would--
you would then be told if they were on alert--that that was in 
the database--then further inquiry would be certainly made.
    Mr. Hice. Is there a penalty for a country that does not 
report this type of information?
    Mr. Bersin. So with respect to currently--currently, no, 
there is not a penalty. And, in fact, that's one of the 
problems we have in terms of international information sharing.
    Mr. Hice. So how do we know that those passports that have 
been stolen are being reported to INTERPOL?
    Mr. Bersin. We have as part of our Visa Waiver Program with 
the 38 countries that are part of the Visa Waiver Program, 
that's a requirement that they actually report----
    Mr. Hice. Is there a penalty for one of those 38 countries 
if they do not report that information?
    Mr. Bersin. They would then be subject to being suspended 
or being put on provisional status in the Visa Waiver Program.
    Mr. Hice. So there is a penalty?
    Mr. Bersin. There--yes, sir, there is a penalty.
    Mr. Hice. Is that automatic?
    Mr. Bersin. It's not automatic, no, sir.
    Mr. Hice. Okay. So it has to go through what kind of 
procedure, quickly?
    Mr. Bersin. Yes, but the--it's the monitoring of the Visa 
Waiver Program that's done on a 2-year basis that under 
Representative Miller's bill would actually be shortened to a 
1-year period.
    Mr. Hice. Okay. Let me ask this, then. What about, be it 
Syrian refugees or--well, let's just use the Syrian refugees 
who are being resettled in Europe. Are they able to travel to 
the United States through the Visa Waiver Program?
    Ms. Bond. No. No, they are not.
    Mr. Hice. Okay. Then let me go back--that's--I'm glad to 
hear that. Let me go back, Mr. Rodriguez, to the social media 
question.
    Did I hear you correctly a moment ago when you said that an 
applicant's social media profile is now a part of the screening 
process?
    Mr. Rodriguez. No. We are piloting it with certain groups. 
The size of those groups is increasing. I don't want to leave 
the impression that that has yet become a comprehensive part of 
what we do. We are building toward that as we speak.
    Mr. Hice. Okay. Could you discuss the lessons that have 
been learned from the piloted programs? Is this working? Is 
the--getting info from social media working?
    Mr. Rodriguez. So far, the information that we have seen in 
the pilots has been ambiguous rather than conclusive about an 
individual's intent. And it shows the importance, however we 
proceed down this enterprise of social media use, that it 
really be thought of in the context of all the tools that we 
use to screen people, that this be thought of as a holistic 
process that involves interviews, screening across law 
enforcement and intelligence databases, further investigation 
and inquiry as the case might be appropriate.
    Right now, the things that we've seen so far are relatively 
ambiguous. They would not necessarily lead you to conclude that 
the individual would trigger an inadmissibility under our laws. 
They would require further inquiry.
    Mr. Hice. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank----
    Ms. Bond. Mr. Chairman, if I--forgive me----
    Chairman Chaffetz. Sure.
    Ms. Bond. --but I do have an answer for Mr. Hice's 
question. He asked----
    Chairman Chaffetz. Sure.
    Ms. Bond. --how many U.S. passports are reported lost or 
stolen annually. On average, 300,000 passports worldwide are 
reported lost or stolen, and about 20,000 passport cards, 
which, as you may know, are used for people who are going 
across land borders.
    Mr. Hice. Are those 300--U.S. citizen passports?
    Ms. Bond. Exactly.
    Mr. Hice. Thank you.
    Ms. Bond. And it's also perhaps of interest that when we 
are adjudicating visa applications, we always check against the 
INTERPOL database to be sure the person is not presenting a 
passport that's been reported lost or stolen.
    Chairman Chaffetz. Thank you. Appreciate the clarification.
    Ms. Kelly is now recognized for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    I wanted to ask about information sharing with our allies. 
The 9/11 Commission recognized the importance of working with 
other nations when it wrote in its 2004 report, and I quote, 
``The U.S. Government cannot meet its own obligations to the 
American people to prevent the entry of terrorists without a 
major effort to collaborate with other governments. We should 
do more to exchange terrorist information with trusted allies 
and raise U.S. and global border security standards for travel 
and border crossing over the medium and long term through 
extensive international cooperation.''
    Assistant Secretary Bond, it has been 11 years since the 9/
11 Commission issued that finding. How are we doing on 
information sharing with our allies?
    Mr. Bersin. Ms. Kelly, I'm probably in a better position to 
respond to that.
    So international information sharing relates to that third, 
that--what I called the second major influence on our vetting 
process, the idea that the Homeland Security enterprise is 
transnational, inherently transnational, which means that we 
need to increase the information sharing with our foreign 
partners. And we do that, for example, while there's a long way 
to go, the Visa Waiver Program, with regard to the 38 countries 
in the Visa Waiver Program, they're required by congressional 
statute to provide information regarding known or suspected 
terrorists and also the certain criminal information under the 
so-called preventing and combating serious crime.
    Part of Secretary Johnson's enhancements introduced during 
the summer, that are echoed in Representative Miller's bill on 
the Visa Waiver Program, actually now will embody the 
requirement, the legal requirement, that for countries that do 
not respond under those agreements, that there would be 
sanctions under the Visa Waiver Program.
    So I think one of the challenges we face is that we do not 
have the kind of information sharing internationally that would 
be of utility. That's why the administration, led by Secretary 
Johnson in this case, actually went to the U.N. And sought 
under U.N. Security Council Resolution 2178 the idea that we 
need to be sharing information about foreign terrorist fighters 
in ways that we had not been. So the point is well taken, 
ma'am.
    Ms. Kelly. And how is it accepted? Do you see that there's 
going to be an improvement?
    Mr. Bersin. It--there will be an improvement, I suspect, to 
the extent that countries that want very much the benefits, 
including ourselves, of the Visa Waiver Program will understand 
that this is not a--it's not optional. And, in fact, since the 
Secretary began the enhancements last summer, we've seen in our 
engagements with visa waiver countries a real stepping up. 
That, frankly, together with the events in Europe, including 
Paris, have actually led to much greater willingness on the 
part of European countries in particular to extend their 
willingness to share information.
    Ms. Kelly. Okay. Also information sharing, as you know, is 
one piece of the puzzle, but there are other ways to engage our 
global partners. So to the extent that you can in an 
unclassified setting, can you discuss how our existing 
databases and information portals draw on information gathered 
by our international allies and partners?
    Mr. Bersin. So it probably would be more appropriate in a 
different setting to go into great detail about the way in 
which that data is ingested, so-called, and then disseminated.
    Ms. Kelly. Okay. I'll accept that.
    I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    We'll now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    Secretary Bersin, in rough figures, how many people are on 
the terror watch list?
    Mr. Bersin. So I'm just checking to see what--on the 
terrorist--the consolidated terrorist watch list, we're talking 
just under 1 million.
    Mr. Russell. Under 1 million.
    Okay. What--what countries, and this could be for anyone, 
constitute the greatest threat and attempts to enter the United 
States illegally that would be, you know, perhaps flagged by 
being on these lists?
    Mr. Bersin. I can't--so there--of those million records, 
there are the subsets of the no-fly list, which is about 
100,000, and the selectee list, which is about 25,000. And I 
cannot give you the breakdown on the countries from which they 
come, although----
    Mr. Russell. Do one or two come to mind?
    Mr. Bersin. Well, I think the ones in which we have seen 
terrorist threats would be obvious candidates.
    Mr. Russell. Such as?
    Mr. Bersin. We've seen threats in Libya. We've seen threats 
in Pakistan. We've seen threats in a variety of countries in 
the Middle East and the Levant and some in Central Asia.
    Mr. Russell. Of the half million a year that we think are 
overstaying their visas, given that we have no comprehensive 
exit tracking program, what countries have abused this the 
most?
    Mr. Bersin. So, Mr. Russell, remember, in order to come 
into the country in the first place, whether by visa or by the 
Visa Waiver Program, there is extensive vetting against all of 
the lists. And, in fact, in order to enter the country, there 
is a vetting. So it's not a question of people being on those 
lists----
    Mr. Russell. I understand the visa waiver will have 
necessarily better or a higher bar, but of those that have been 
granted visas and they have overstayed them, what countries 
would you say violate that the most, to the extent--since we 
don't have an exit tracking program that's comprehensive? Who 
would they be? What countries?
    Mr. Bersin. So the first point is that they were not on any 
of the lists, the known or suspected terrorist lists that we've 
discussed. In terms of what the breakdown is of that estimate, 
I cannot----
    Mr. Russell. Do a couple of countries come to mind?
    Mr. Bersin. But I would--I suspect they're those in which 
many of the people come from countries in which you send many 
people here. And you might see people here for violating the 
no-work rule, for example, people who are coming here for--they 
purport to come for a tourist B-1/B-2 reasons, and they end up 
staying to work. So those are going to be a different subset of 
countries than those that----
    Mr. Russell. Well, that goes to my point, Mr. Secretary. I 
think that the magnitude of the problem and trying to protect 
our country is--you know, it is enormous, we all recognize 
that, and we certainly recognize the dedication from 
administration to administration and folks like yourselves. You 
know, I mean, you didn't just enter this field. You've been at 
it through decades through different administrations, and I 
respect that. But I point these things out because wouldn't we 
want to focus on those particular areas where the threat may be 
highest?
    And with regard to visa waivers, once an individual obtains 
an Electronic System Travel Authorization, it is good for 2 
full years as long as the passport is valid. Given that ISIS' 
rise has been less than 2 years, what steps are being taken to 
change the 2-year eligibility of the electronic travel 
authorization, and is this an area that is even being examined?
    Mr. Bersin. So, yes, indeed, Mr. Russell, the ability to 
dial up and dial down the validity of the ESTA is one that the 
Secretary is very well aware of. It's contained in the Miller 
bill. And, in fact, Secretary Johnson as part of his own 
enhancements actually added questions to the ESTA.
    Mr. Russell. Don't you think we ought to just reset all 
eligibility at this point? Given that ISIS has been on the rise 
for less than 2 years and now we have 2-year eligibilities out 
there, they could have been coopted, converted. There's any 
number of issues that could have happened.
    Mr. Bersin. The way in which these databases operate and 
the way in which the vetting process takes place is there is 7/
24, 24/7, 365 re-vetting of that against whatever new 
information might come into the database. So, in fact, there is 
an updated--it is updated by this constant refreshing of the 
database and the re-vetting of the names against the lists.
    Mr. Russell. And then my last question, with the chairman's 
indulgence, is given that we have 1.8 million Chinese that come 
to the United States each year for travel and for tourism and 
the like, they don't seem to have a problem conducting 
business, I would suggest that this entire Visa Waiver Program, 
although it will have material impact on economies and other 
things, what do you see as the way ahead to restrict it so that 
we can secure our people the best, when other countries seem to 
be able to operate without it?
    Mr. Bersin. So the Visa Waiver Program, the only 
difference--first of all, China's not a member of the Visa 
Waiver Program----
    Mr. Russell. That's my point.
    Mr. Bersin. --and not contemplated to become one. The Visa 
Waiver Program, the only difference between the visa process 
and the Visa Waiver Program is the consular office interview. 
You defer the time in which a U.S. official actually looks 
someone in the eye from the Consular Affairs office abroad to 
the time when a CBP officer sees that person coming in, but 
there's been all of this security vetting through the ESTA 
before that person arrives on our shore.
    Mr. Russell. Two-year eligibility on the ESTA, correct? I 
mean, so once you've been eligible, it's good for 2 years.
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Bersin. That--a CBP officer can actually make a counter 
decision upon encountering someone at the point of entry.
    Mr. Russell. Thank you.
    Chairman Chaffetz. We now recognize the gentleman from 
California, Mr. DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And I want to 
thank all of you for testifying.
    Assistant Secretary Bersin, I wanted to talk to you in 
general about, as Mr. Rodriguez said, areas of heightened risk, 
and specifically the PATRIOT system program, or it's that 
acronym has bureaucratically been introduced, the Pre-
adjudicated Threat Recognition Intelligence Operations Team. So 
in previous testimony in front of this committee and the House 
Judiciary Committee last year, you said, and I quote: PATRIOT 
is currently operational at 20 ICE visa security program staff 
locations overseas and will be rolled out incrementally 
worldwide throughout 2015. When implemented, PATRIOT will 
prescreen 100 percent of non-immigrant visas applications 
submitted online before the Department of State adjudicates the 
application.
    So could you tell me a little bit about how staff is using 
the PATRIOT program in the rollout in the sense of areas of 
heightened concern, and then what differentiates an application 
going through this program versus the general population?
    Mr. Bersin. Okay. This is something both Ms. Bond and I can 
address, but let me begin.
    So the PATRIOT system is actually installed abroad, and it 
works with the visa security units, the Homeland Security 
investigators, the 1811s, who are stationed abroad for the 
purpose of assisting the State Department to make judgments 
about whether this person should or should not receive a visa. 
So what the PATRIOT system does is it automates--it automates 
the vetting process so that the kinds of checks that we've 
talked about here today are actually being done through a 
federated computer search of all the databases, so that when a 
visa security agent working with a Consular Affairs office, 
they've got the benefit of that, and if something needs to be 
investigated, that then proceeds. So it is an automation of--
and an acceleration, a telescoping of the process so that the 
consular officer has the benefit of it before a decision's 
made.
    Mr. DeSaulnier. So to the point that Mr. Cummings made 
about agencies working together, at least the concept here is 
everybody's working together and the investment is being 
targeted. So tell me a little bit about--I appreciate the 
background, but how--as in the rollout, how are you vetting 
this to make sure that you're actually getting really good 
returns on the system?
    Mr. Bersin. So when the plan for the visa security units to 
expand this around to additional his offices is something that 
it's a decision that's being made subject to the--to the 
budgetary resources being made available in the appropriations, 
but there's a positive result, yes, yes.
    Mr. DeSaulnier. So you've evaluated it. It's working. It's 
in high-risk areas. It's in the Middle East. It's in Islamabad 
I'm told.
    Mr. Bersin. Yes.
    Mr. DeSaulnier. So coming from California to specifically 
San Bernardino, Ms. Malik went through this system. Is that 
right?
    Ms. Bond. Yes. At the 20 posts, or roughly, where we have 
the visa security units, who are officers from DHS, those 
officers review all of the issued visas. In other words, if a 
consular officer has approved a visa for issuance, it then gets 
a second look by the colleagues from DHS. And, of course, 
they're all working together in the same space, and so they are 
talking about it. If there were disagreement, they would be 
talking about, you know, I'm seeing this and I think it's not a 
good case and so forth. It is extremely close collaboration.
    The team from the--the DHS colleagues have access to the 
DHS data, and a lot of that has to do with things like 
overstays or people who were refused admittance at the border 
even though they arrived with a visa and so forth. Sometimes 
those are instances where it is possible to resolve and approve 
issuance, where they can say: Oh, well, see, the person did 
this or that, but it wasn't a security threat. It may have been 
a mistake.
    Mr. DeSaulnier. Well, and I'm going to interrupt just 
because I have just a few seconds left.
    So the program--you think--is working in terms of your 
assessment, but--and I know this is just one instance, but this 
is a heightened screening process, as I take it, using the 
resources more effectively. Unfortunately, Ms. Malik went 
through this program. So the President has asked you to 
evaluate the program. It would be helpful at least for me and I 
think the committee to know what kind of evaluation you used.
    And, Mr. Rodriguez, just back to the social media, it is a 
little frustrating, as Mr. Connolly said, is we want you to do 
your due diligence to make sure that it's an investment you 
want to make, but given that there are other applications at 
less risk in the private sector, when is the point when you 
say, ``The pilot project has some merit, and we should go 
forward,'' which seems, as a generalist, very obvious that you 
probably should use social media to vet?
    Mr. Rodriguez. What I would say, we are moving, both in the 
refugee context and other contexts, pretty aggressively, pretty 
quickly. Probably the next time that we are all together, we 
will have a whole lot more to say about this subject. But we 
are moving very, very decisively. I would not venture to talk 
beyond that.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentleman from Alabama, Mr. Palmer, for 5 
minutes.
    Mr. Palmer. Thank you, Mr. Chairman. Ms. Richard, regarding 
an earlier line of questions, you pointed out the refugees may 
request any country for refugee status. Is that correct?
    Ms. Richard. I'm sorry. I didn't understand the question.
    Mr. Palmer. You, in a response to a question from Mr. 
Cartwright, you said that just because a refugee requests entry 
into one particular country, that doesn't necessarily mean they 
will gain entrance. They could be sent to any country.
    Ms. Richard. That's right.
    Mr. Palmer. Has it occurred to you that any foreign 
national who gains refugee status in another country is not 
necessarily prevented from obtaining a visa or passport in that 
nation, subsequently entering the United States, particularly 
in regard to the number of lost and stolen passports?
    Ms. Richard. Go ahead.
    Ms. Bond. Sir, if I may respond to that. If someone is, for 
example, accepted in a country that is a visa waiver country, 
is given permission to settle there with his family, they 
would--they may, at some point, obtain citizenship in that 
country, and, in principle, would be eligible to apply to use 
the Visa Waiver Program. But that would be a period of some 
years, of course, after arriving.
    Mr. Palmer. Well, it's not that long. It's 5 years.
    Ms. Bond. Uh-huh.
    Mr. Palmer. But, in response to a question earlier that you 
gave to Mr. Hice, you didn't really make that clear. He asked 
you if someone could get a visa, or a visa--go through the Visa 
Waiver Program, and you didn't--I don't think that you made 
that clear.
    Ms. Bond. No. I apologize if that was unclear. The question 
from Mr. Hice was, can these people who are arriving in Europe 
qualify for the Visa Waiver Program, and I should have said, 
no, they cannot. As refugees----
    Mr. Palmer. Ma'am, what we are trying to figure out is how 
many holes there are in a bucket in terms of our ability to 
screen people getting into this country. And I think, you know, 
we sit here for an hour and a half, 2 hours, whatever it takes, 
trying to get information, and it's increasingly difficult to 
get straight answers. And the answer to his question, frankly, 
was that, yes, if they stayed there long enough, they can get a 
visa waiver.
    Now, my question is, are we evaluating those people whether 
they are citizens of Belgium, France, Germany, it doesn't 
matter, if they came from one of these countries that we ought 
to be tracking, are you evaluating those? Ms. Bond.
    Ms. Bond. So, and I do, I apologize for the fact that I was 
responding to his specific reference to arriving refugees. An 
individual who has become a citizen of a visa waiver country is 
eligible to apply to use the Visa Waiver Program.
    Mr. Palmer. I get that.
    Ms. Bond. And they apply by signing up for ESTA, and those 
are not always approved. But it is a DHS program, so I would 
ask Mr. Bersin to respond.
    Mr. Bersin. So the issue is, after the vetting, would they 
be precluded? The Miller bill actually has a provision that 
says for those people who have traveled to certain--Syria, 
Iraq, other war zones, and who don't--were not there for 
diplomatic or military reasons, that those people could not 
participate in the Visa Waiver Program.
    Mr. Palmer. Well, my concern about that as well, is that 
they travel back and forth to these countries that some of 
them, it's their country of origin. But they don't have the 
same databases and the same security for passports in a lot of 
the European countries that we do, particularly on the 
fingerprint database. They are not using, excuse me, the 
information that INTERPOL has.
    So are we being proactive in vetting these people before 
they come in, whether they are citizens of another country or 
not?
    Mr. Bersin. Yes, sir. Anyone coming in under the Visa 
Waiver Program would go through the extensive vetting that we 
have talked about.
    Mr. Palmer. Well, apparently, Malik didn't.
    Mr. Bersin. She didn't come in under the Visa Waiver 
Program.
    Mr. Palmer. It was my understanding that you had an 
opportunity to evaluate her. You didn't take advantage of that 
through the social media, and it concerns me that we are not 
doing our due diligence to make sure that we know who is coming 
into the country, and making sure that people who pose a 
potential threat to us are kept out. Would you like to respond?
    Mr. Bersin. That is, without question, the intent, and the 
reason for the vetting, and to the extent that we currently do 
it, sir.
    Ms. Bond. Sir, if I may also add, that is also the purpose 
of the review that is currently underway, to examine what more 
can we do as part of the process. Because the very thorough 
review that was done for that visa applicant did not reveal the 
fact that she was coming into the United States, and either 
then or later, decided to commit murder. So the purpose of the 
review is to look at, is there more that we can do then in 
order to identify this if possible?
    Mr. Palmer. Well, that's our number one obligation to the 
American people. Thank you, Mr. Chairman. I yield.
    Mr. Mica. [Presiding.] Thank you. Ms. Lujan Grisham, you 
are recognized for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. Ms. Bond, you 
actually gave me a great lead-in, because I think that's our 
frustration. And frankly, in the last hearing last week, I was 
so frustrated, I was having trouble--I was having trouble 
making it as fair and--as possible, because when you don't get 
any information from the administration, and when there's this 
continual sense of, we're doing everything, and no matter what 
we do, you will have some gaps. I want specificity. Exactly, 
what are you doing to close those holes, to assure that those 
gaps get narrowed? I don't want to hear we are working 
together.
    And in fact, I think that getting a response during this 
hearing about, we got to really assess the value, certainly, we 
understand that this is all subject to the priorities and 
resources. But beyond that, keeping this country safe, there 
should be no limitation in figuring out what you can do to do 
it all better. And you ought to be proactive about it. It 
shouldn't take one tragedy after another. And quite frankly, 
what I expect is that you come to this committee and say, wow, 
we figured out 12 things we could do better. And now we want 
your assistance--if you need our assistance--to make sure that 
those are fully integrated, or, they're in the hands of the 
central agency that needs those tools and resources the most.
    And given that, I wouldn't hire anyone today in my official 
capacity, or my unofficial capacity, where I don't do a 
Facebook check, or a social media check that doesn't create a 
privacy problem. And we understand that there are those issues. 
But just exactly, what are you doing with great specificity 
that's proactive in nature, that gives us the confidence that 
you evaluate with or without a tragedy, figuring out how you 
can securely, and safely, and effectively, given all of the 
other things that you have got to control, including other 
countries' data points, to do a better job? Give me one that 
you are doing since the last tragedy in San Bernardino?
    Ms. Bond. First of all, let me say that we all agree with 
you 100 percent that there is--there is nothing that is more 
important than getting it right. And there is never a point 
when anybody would say, okay, this is good enough. We have got 
it. We nailed it. We are always looking for ways to improve the 
vetting and to improve the screening, and to identify a trigger 
that indicates we should look more carefully at this case. 
That's--that was what we did not see in this case of Malik, 
that there wasn't anything in that case that was a flag. So one 
of the things that is underway since the tragedy in San 
Bernardino is a careful examination of what else could we look 
at, what could----
    Ms. Lujan Grisham. Could you be specific about that?
    Ms. Bond. All right. For example, and there're lots of, you 
know, there's a review process and people are talking about it. 
But so, for example, would it make sense to interview someone 
after arrival in the United States, after marrying the fiance 
as promised, and they get to the point where they are going to 
change status. Should they be interviewed again at that point? 
Or should we be looking at is there some other database that we 
could be looking at, maybe social media. I don't know. But so 
that's an example of what we are looking at in the review 
process.
    Ms. Lujan Grisham. You go outside your agencies to--and 
tell me how you are using that same evaluation process with all 
of your international partners? Do they get to weigh in? Do we 
take their ideas credibly too? Because again, this is after the 
fact, and one of the--while I don't want to dispute that idea, 
I appreciate the notion that someone is here. Let's continue to 
the degree that we can look at that individual. But what could 
we have done better to maybe not approve that Ms. Malik came to 
the United States in the first place?
    Ms. Bond. All right, well, I think----
    Ms. Lujan Grisham. Because she is not going to be alone. We 
know that other folks are going to try to get here or, frankly, 
are already here. So what are we doing about that?
    Ms. Bond. Well, I will give an answer, and then I think Mr. 
Bersin will probably also want to speak to this.
    Ms. Lujan Grisham. I have 20 seconds, unfortunately.
    Ms. Bond. So absolutely, talking to the government of 
Pakistan about--because she was a citizen of Pakistan to say, 
you know, what more could we do in terms of our collaboration 
to try to share information about people who might be a threat 
to our citizens or to Pakistan's? What information do you have? 
What information do we have? And are we sharing it effectively? 
We are, of course, having that conversation with other 
governments too. What more can we be doing to share 
information?
    Ms. Lujan Grisham. So my time has expired. Mr. Chairman, 
with your indulgence, I would really like, without creating, 
you know, a written record that is problematic for national 
security, of course, but I want specificity. What's transpiring 
after these conversations that would give us, this committee 
and our constituents the sense that we're doing better all of 
the time, and this is a constant process that's meaningful, 
because I'm not there. Thank you, Mr. Chairman.
    Mr. Bersin. Mr. Chairman, may I just add one short----
    Mr. Mica. Very briefly. Go ahead.
    Mr. Bersin. We're the people who actually do the vetting, 
and what you've rightfully said, how do we actually get 
additional information, and I would suggest that the committee 
hasn't. Remember that it's the--with regard to the domestic 
affairs, the Federal Bureau of Investigation has the principal 
counterintelligence and intelligence function, and with regard 
to abroad, it's the national security agencies that do that. 
It's not--I'm not just passing it along. We use that 
information, but I would think a classified hearing in which 
you would understand exactly what the FBI is doing in a 
classified setting, and what the intelligence agents are doing, 
I think would be of great utility in answering your question.
    Mr. Mica. You might want to arrange that. I thank the 
gentlelady.
    Ms. Lujan Grisham. I just want to mention, we have all 
participated in all of those high-level--I want to make sure 
that the viewers recognize that Members of Congress have been 
invited to a series of significant classified briefings. We 
take that very seriously, and we still have questions.
    Mr. Mica. Well, for all of the witnesses and sort of in 
conclusion as we get to the end of the hearing here, we 
basically have lost control of our borders. We have somewhere 
between 11-, and I have heard 15 million people here who are 
illegal entrants. Is that correct? Anyone? Is that the range? 
Yes or no?
    Mr. Bersin. The usual number is 11 million.
    Mr. Mica. I have heard 11 to 15.
    Mr. Rodriguez. Yeah, sir, actually the number that I have 
always heard is 11, and actually declining, sir.
    Mr. Mica. Okay, 11 to 15. Everybody pretty much agrees. So 
we will just take it at 11. And about half of those people here 
overstayed a visa, or a tourist thing, or student, I'm told, 
just round numbers. And the others just came across the border 
illegally in that range. Rodriguez, about that range?
    Mr. Rodriguez. That's consistent with what----
    Mr. Mica. Okay, thank you. The President's executive--I 
mean, we are talking about a visa, controlling our visas and 
the visa waiver control, and we have here about 4- to 6 million 
people, in that range, who have overstayed their visa. The 
biggest Visa Waiver Program in the history of mankind is the 
Obama waiver. He gave executive--an executive order to allow 
those people to stay in spite of their being here illegally, 
isn't that correct?
    Mr. Rodriguez. The President----
    Mr. Mica. Yes, it's correct. The President gave an 
executive order, so----
    Mr. Rodriguez. Well, we are not implementing it because the 
court has stopped us, but we are----
    Mr. Mica. We had to go to court, but he implemented--again, 
we have got--and you have got hundreds or thousands of them 
that are illegal. So it's your job, Mr. Rodriguez, to deport 
some of those people. And I see that numbers of people, the 
removals has actually--where's my figures here? Let's go; 2008, 
244,000 removed; 2013, 133,000; 2014, last year, we are down to 
104,000. Are these figures basically correct?
    Mr. Rodriguez. We--we are--they sound right to me. We are 
exercising our process for----
    Mr. Mica. And it's not a question of resources. We provided 
enough money to deport up to 400,000, which was the request we 
had from you. So ICE is doing less with more resources. In 
fact, criminal alien arrests have declined by 11 percent 
between 2012 and 2013. Are you aware of that, Mr. Rodriguez? Is 
it your job to deport these people?
    Mr. Rodriguez. No, I am not--it is not my job.
    Mr. Mica. You are Homeland Security.
    Mr. Rodriguez. Certainly, the Department of Homeland 
Security, removal, removal of----
    Mr. Mica. So we have got illegals here. Ms. Bond, we 
interviewed that lady, a consular official interviewed the 
female terrorist from San Bernardino how many years ago? A 
couple of years ago?
    Ms. Bond. In 2014.
    Mr. Mica. Last year.
    Ms. Bond. Yes.
    Mr. Mica. Okay, and but she came here and she was fully 
vetted, according to the process that we have now. Is that 
correct?
    Ms. Bond. Yes, it is.
    Mr. Mica. Okay, and she thwarted that process. Is there 
anything you could recommend to us that we could do to stop 
that? And if she thwarted it, and we got hundreds of thousands 
of people who have entered the United States illegally, and 
then we have them coming in, you approving them legally, you 
see why the American people have concerns about what's coming 
next.
    Is there any way, or anything you could recommend that we 
could do to change that situation?
    Ms. Bond. We are conducting a very thorough review.
    Mr. Mica. Of what took place?
    Ms. Bond. Not only of what took place, Congressman, but 
also of what it is that we do.
    Mr. Mica. Yeah, do you tape that interview?
    Ms. Bond. No.
    Mr. Mica. You don't.
    Ms. Bond. No.
    Mr. Mica. I just wondered if it was taped, if we have any 
record. Have any of you known anyone who has joined ISIS of the 
Christian faith? Does anyone know anyone who is involved or--
no, okay. Just thought I would ask that question.
    Well, obviously, we closed the door too late. We also have 
now information that ISIS has obtained Syrian passport 
machines. Does anyone know about that?
    Ms. Bond. Yes, sir.
    Mr. Mica. Have they obtained them? Can you disclose that to 
the committee?
    Ms. Bond. Yeah, I do have some information on that, sir. In 
August 2015, the State Department received a report of 3,800 
stolen Syrian----
    Mr. Mica. No, this is not stolen. There are many stolen. 
There're, we disclosed today, 300,000 lost or misplaced 
American passports. I'm told that ISIS has captured passport 
machines in Syria. Is that correct? Does anyone know? Mr. 
Bersin.
    Mr. Bersin. There have been--I have seen open source 
reports to that effect.
    Mr. Mica. Okay, well, that creates a whole new set of 
problems. And then, you're the refugee screener lady. I was 
told that you get--these Syrian refugees, are first vetted by 
the U.N. Is that correct?
    Ms. Richard. UNHCR takes the initial application.
    Mr. Mica. So we are getting our recommended entrants from 
the U.N.?
    Ms. Richard. Normally. Not 100 percent, but normally that's 
true.
    Mr. Mica. Well, I was told--where's the rest of them?
    Ms. Richard. Sometimes if someone comes to the attention of 
the embassy, they could be put in that process.
    Mr. Mica. But that's a small, small percentage.
    Ms. Richard. That's right. Most come through the U.N. 
refugee agency.
    Mr. Mica. Have you vetted the U.N. process?
    Ms. Richard. Yeah.
    Mr. Mica. They are checking with Syrians to see if they 
have any ISIS connections?
    Ms. Richard. We wouldn't check with the Assad regime on 
whether----
    Mr. Mica. But you are saying the U.N. Somebody--they are 
recommending these people. That's where you are getting them 
from. And they told us, don't worry. The U.N. has approved 
these people, and we are recommending them for entry into the 
United States.
    Ms. Richard. They haven't approved them. They don't get to 
decide whether they come to the United States. They are 
referring the cases to us to match the things we have asked 
them to find.
    Mr. Mica. But again, do you know if the U.N. is vetting 
them with Syrian and Assad officials and checking to see if 
they have ISIS connections?
    Ms. Richard. I hope they don't check with the Assad 
officials because some of these people are fleeing Assad's 
torture chambers.
    Mr. Mica. I recognize Mr. Gosar.
    Mr. Gosar. I thank the gentleman. Now, I would like to get 
some clarification from all of these witnesses on the vetting 
and the investigative process for seeking entry into the U.S. 
by visa or refugee status.
    So my question first, and we will go down the line. Mr. 
Bersin, you will go first, but the same questions for all four 
of you. Is there any specific guidances, doctrines, directives, 
or memorandum, in effect now, either from this or a previous 
administration, that ties the hands of investigators in regards 
to getting the information they need to make informed admission 
decisions for those seeking to enter the U.S.?
    Mr. Bersin. Only to the extent that there were 
constitutional and/or privacy policies that----
    Mr. Gosar. There is no constitutional privacy--
constitutional applications for those seeking asylum that are 
not citizens. Mr. Gowdy went through that before. So, I mean, 
any doctrines--I'm going to say it again, because it's very 
specific. Specific guidances, doctrines, or memorandum in 
effect now that either, from this or previous administrations, 
that ties the hands of investigators in regards to getting the 
information they need to make informed admission decisions for 
those seeking to enter the U.S.?
    Mr. Bersin. I'm not familiar with any, except to the extent 
that there are privacy concerns, Congressman. I--but I'm aware 
of no restrictions of that kind for screening purposes.
    Mr. Gosar. But you earlier made constitutional remarks--but 
constitutional remarks to our Constitution do not apply to 
refugees or those noncitizens?
    Mr. Bersin. No. I didn't hear your asylum or refugees.
    Mr. Gosar. Okay, but your answer is no.
    Mr. Bersin. Yes.
    Mr. Gosar. Mr. Rodriguez?
    Mr. Rodriguez. No.
    Mr. Gosar. Ms. Bond?
    Ms. Bond. No.
    Mr. Gosar. Ms. Richard?
    Ms. Richard. No.
    Mr. Gosar. So under the current policy and procedure, you 
have access to all of the information you need to make an 
accurate security assessment for all visitors. Mr. Bersin.
    Mr. Bersin. We could only strengthen, and I think that's 
what the discussion has been, but yes, we have--we seek to 
strengthen it. We have the authority to do the screening that 
we need to do, yes.
    Mr. Gosar. Okay. Mr. Rodriguez.
    Mr. Rodriguez. As to the refugees that we screen and the 
immigrant visas that we process, yes, we have quite robust 
resources that we bring to bear for all of those programs.
    Mr. Gosar. Ms. Bond.
    Ms. Bond. There are no restrictions on our access to the 
information that we seek, unless we can't get it because it's, 
you know, it's sometimes some other government might have it or 
something. But there is nothing from the part of our government 
that ties our hands in terms of seeking information we need to 
adjudicate a visa.
    Mr. Gosar. Ms. Richard.
    Ms. Richard. I defer to Director Rodriguez's judgment on 
this, but I want to reassure all of you that if you think there 
are sources out there that we are not checking that we should 
be, we're very open to looking at more work on this, but we 
have a very robust refugee vetting system.
    Mr. Gosar. So going back to you, Mr. Bersin, and going back 
down, so there are no firewalls at all between the agencies for 
sharing this pertinent information?
    Mr. Bersin. On screening, that's my understanding, yes, 
sir.
    Mr. Gosar. Mr. Rodriguez.
    Mr. Rodriguez. Also mine, Congressman.
    Mr. Gosar. Ms. Bond.
    Ms. Bond. Yes, the screening of applications goes through 
the entire interagency process.
    Mr. Gosar. Okay, no firewalls?
    Ms. Bond. No.
    Mr. Gosar. Ms. Richard.
    Ms. Richard. No.
    Mr. Gosar. Ms. Richard, earlier in the testimony, you made 
the comment that you are not aware of--I think you didn't even 
say that. There is no relationship to an asylee, political 
asylee for acts of terrorism in this country, true?
    Ms. Richard. No, I didn't address that.
    Mr. Gosar. I think you said that----
    Ms. Richard. I said no refugee that came in through this 
process has carried out a successful terrorist attack against 
Americans in the United States. There have been--there have 
been some troublemakers that have come in through this process.
    Mr. Gosar. I would like to know how many of those 
troublemakers, by the way?
    Ms. Richard. About a dozen.
    Mr. Gosar. About a dozen?
    Ms. Richard. Yeah.
    Mr. Gosar. Any in Arizona?
    Ms. Richard. Well, and then probably, you know, there is 
also an element of people who break the law, too, that is 
probably bigger.
    Mr. Gosar. Oh, okay. And how many----
    Ms. Richard. But I don't know----
    Mr. Gosar. And how many of----
    Ms. Richard. I have to refer you to the FBI on this.
    Mr. Gosar. I would like to get those numbers. And what 
happens when they have a problem?
    Ms. Richard. Well, the FBI has a program to track people 
that they are afraid will be, you know, their 
counterintelligence program to track people. So I have to defer 
to them. But we do have--have heard of, you know, there were--
the famous case was the two Iraqis who were brought to Bowling 
Green, Kentucky, and then it was discovered that they had been 
up to no good in Iraq, and so they were arrested.
    Mr. Gosar. Well, we had a gentleman in Casa Grande Arizona, 
Mr. Aldosary, that tried to blow up the Social Security 
building during my first term. So that was kind of fun. So 
that's why I asked the question. I do have--a little bit of 
indulgence here. There's a reason I asked you a question at the 
very beginning about guidance of specific memos. Are you 
familiar with the ``words matter'' memo, Mr. Bersin?
    Mr. Bersin. Not by that title, no, sir.
    Mr. Gosar. Mr. Rodriguez?
    Mr. Rodriguez. No, sir.
    Mr. Gosar. Ms. Bond?
    Ms. Bond. No.
    Mr. Gosar. Okay, I thank the gentleman. I yield back.
    Chairman Chaffetz. [Presiding.] Thank you. I now recognize 
myself. I have a few wrap-up questions. There may be another 
member or two that come back.
    Ms. Richard, you were quoted in this hearing as saying by 
the way--Mr. Cartwright said, by the way, were the shootings in 
California perpetrated by refugees who were resettled? Your 
answer was no. And then you went on and you said, No refugees 
have carried out terrorist activities in the United States. And 
then Mr. Cartwright repeated that and then you said, that have 
successfully carried out an attack against American citizens in 
the United States.
    Ms. Richard. Correct, correct. So the second is correct.
    Chairman Chaffetz. The second. The first statement by 
itself is not correct.
    Ms. Richard. Well, I think the FBI would--is concerned 
about a small number of refugees that have come in. That was a 
while ago that they came in. Under the current system, we 
haven't had anyone recently in that category.
    Chairman Chaffetz. I would point to--at least, I have got 
about a dozen names here of Senator Sessions, it's up on 
Breitbart. One of the more recent charges here, is August 12, 
2015. I can't pronounce his last name, last name ``Kurbanov, a 
native of Uzbekistan came to the United States as a refugee in 
2009 was found guilty on charges that he conspired and 
attempted to provide material support to a designated foreign 
terrorist organization, and possessed an unregistered 
destructive device. U.S. Assistant Attorney General John Carlin 
stated that he 'conspired to provide material support to the 
Islamic movement of Uzbekistan and procured bomb-making 
materials in the interest of perpetrating a terrorist attack on 
American soil.''' He came to the country as a refugee in 2009.
    Look, most of the refugees that I have interacted with we 
have a good, healthy refugee population in Utah. They are good, 
decent people that come from terrible situations. I don't think 
anybody suggested we don't bring any refugees in. What we have 
asked is for a pause and a time out so that we can make sure 
that the vetting is there in place. And when you have the FBI 
Director saying we can only vet as good as the information is, 
I think it's a little bit of an overstatement to say, Hey, 
refugees are not your problem. Let me go back to the slide I 
brought up at the beginning, and this is of deep concern to me.
    This is--these are the number of people making credible 
fear, and so refugees are imported to the United States of 
America. You have people that are claiming asylum who come 
somehow to the United States of America. You can come here 
legally and lawfully, but you can also sneak into the country, 
as I witnessed down on the Arizona border, where people came 
across the border. They didn't run from border patrol. They 
wanted to get caught and the reason they wanted to get caught 
is, they wanted to go through this process.
    And so Mr. Rodriguez, I want to ask you about this. This is 
a massive rise in the number of people claiming a credible fear 
with asylum. How many asylum officers are there at Homeland 
Security?
    Mr. Rodriguez. The asylum core, give or take, is 
approximately 400 individuals.
    Chairman Chaffetz. So you have 400 individuals, and in 
fiscal year 2014, we had 51,001 people claiming credible fear. 
There has been a lot from this administration about these 
exhaustive interviews. How much time does an officer spend 
interviewing and investigating somebody who claims credible 
fear?
    Mr. Rodriguez. Well, I think in credible fear, I think it, 
obviously, varies on the case. I have observed them. They seem 
to be approximately an hour. I will also say----
    Chairman Chaffetz. Is that on average?
    Mr. Rodriguez. --reviewing them as a former--that is my 
understanding. As a former prosecutor, observing those 
interviews, they appear to me to be robust interviews by very 
well-trained officers.
    Chairman Chaffetz. So you have one officer. I want to make 
sure I get the math right here. You are saying one officer will 
take 1 hour to interview somebody. You have 400 officers, and 
we have over 50,000 people just in 2014 making that claim?
    You were looking at the notes. Go ahead.
    Mr. Rodriguez. I'm sorry. I--in the particular case of 
credible fear, we have actually plussed up in the locations 
where we are screening people for credible fear as a result. 
Those screenings are getting conducted actually quite 
expeditiously.
    Chairman Chaffetz. Well, that's my concern is that they are 
too expeditious. So my question is, how long is the average 
interview, and how many people are doing the interviews?
    Mr. Rodriguez. Again, I will have to get back to you on the 
exact number. I believe----
    Chairman Chaffetz. Yeah, this is a hearing about--this is a 
hearing about vetting.
    Mr. Rodriguez. Right.
    Chairman Chaffetz. So I'm asking a very specific question 
about vetting.
    Mr. Rodriguez. I believe at any given time, there are 
approximately 40 individuals, give or take. We are going to get 
you the exact number, but that's the neighborhood of the 
number, who are in the locations where we are screening 
individuals who have come across the border, and they are 
conducting those credible fear and reasonable fear interviews. 
Again, within the timeframes that the law--that the law and our 
policies require.
    Chairman Chaffetz. Okay, you put a lot of asterisks on 
that.
    Mr. Rodriguez. You also asked me about the direct----
    Chairman Chaffetz. Forty or 400?
    Mr. Rodriguez. Four hundred is the total asylum core. So 
those individuals are doing credible fear and asylum. They are 
doing credible fear and reasonable fear. They are also doing 
the general work of asylum screening----
    Chairman Chaffetz. Okay.
    Mr. Rodriguez. --as well----
    Chairman Chaffetz. Okay. So who are the 40?
    Mr. Rodriguez. The 40 are the ones who are deployed 
specifically to be meeting our goals, to process individuals 
claiming credible fear and reasonable fear at the border.
    Chairman Chaffetz. How long, if you come across, and I'm 
assuming they have come across illegally. There's people that 
come across legally, but there are a lot of them are coming 
across illegally. How long are they detained until they have 
completed that process, on average?
    Mr. Rodriguez. I would--it's roughly--I think our target, 
basically, is 20 days. If they're--in terms of either getting 
them into expedited removal or moving them into some sort of 
proceedings. A lot of those people, obviously, go into----
    Chairman Chaffetz. You said you are going to give me some 
additional information. When will I get that?
    Mr. Rodriguez. We will work to get it to you as soon as 
possible.
    Chairman Chaffetz. No, give me a date. Give me a date. I 
know it's the holiday season, but give me a date.
    Mr. Rodriguez. Given that, let's target the end of the 
first week of January.
    Chairman Chaffetz. The end of the first week of January. I 
think that's reasonable. Because the math doesn't seem to add 
up. Here's the problem. Refugees have the State Department and 
other assets working towards that. I've got huge, huge 
questions. But now, as we look back at asylum, we are saying we 
have got 40 people with 50,000 people coming in the door. Think 
of a football stadium, okay. You have a football stadium full 
of people coming at us each year. You are saying that that 
these people do interviews, background checks, write-ups. They 
are not able to do that 8 hours a day. They have got other 
responsibilities, paperwork they have got to do.
    Here's the problem. Here's what I experienced. When I went 
to Arizona and I saw people come across and they wanted to 
claim credible fear, they would go to a judge and say, an 
administrative judge and say, Your honor, you know, I have got 
credible fear, and they'd read a little statement, and then the 
judge would say, Well, okay, we are going to have to go through 
the adjudication process. And that adjudication process means 
what? What in Arizona is the next time we are going to see 
these people?
    Mr. Rodriguez. Yeah, that's the ordinary asylum process, 
and it is a number of--quite a number of months before they are 
seen.
    Chairman Chaffetz. You mean years?
    Mr. Rodriguez. It can be years, yes.
    Chairman Chaffetz. Okay, so in Arizona when I went there 
last year, I believe it was last year, the dates they were 
giving out, the court date was for 2020. And so what often 
happens is, the people have come here illegally. They claim 
asylum. They say, oh, you might have credible fear. We are 
going to give you a court date, and now the backlog is so big 
that they are not going to get a court date until 2020, and 
then what happens? They do what? They apply for a work permit. 
How many work permits are you handing out each year?
    Mr. Rodriguez. I don't know the exact number. I certainly 
can----
    Chairman Chaffetz. It's a big one. Now they are in the 
United States legally. They can work and they can compete with 
an American taxpayer for jobs and all the other resources. They 
get benefits. They go to our schools. They do a lot of things 
just like an American citizen does. And I got a problem with 
that. I got a problem with that.
    Mr. Bersin, did you want to say something?
    Mr. Bersin. Sir, when the last time we had the surge in the 
summer of 2014, the administration put a bill up and one of the 
key elements of that bill was to build an immigration court 
system that actually would work. Because you put your finger on 
the problem. We have 243 immigration judges, and we need many 
more in order for an immigration process to work and produce 
the result either way, but to produce a result in a timely 
fashion.
    Chairman Chaffetz. And the frustration is, you got to lock 
down that border. And you have got to get rid of the people who 
are here committing crimes, for goodness sake. They are here 
legally committing crimes, and you all release them back out in 
the public. Some 60-plus thousand times you did that. These are 
the criminal element. Don't tell me about the nice, you know, 
lady who is just trying to help her family. These are people 
committing crimes, get caught, they get convicted, they are in 
your hands, and Homeland Security says, no, go back out into 
the community. Right? Am I--did I say anything that's wrong 
there?
    Mr. Rodriguez. Again, to be clear, the removal priorities 
are that if an individual is convicted of a felony they are 
priority one for removal. Returning to our earlier conversation 
that includes rape. That is a priority one priority for 
removal. Just to be clear, and so the public is clear about 
what that is----
    Chairman Chaffetz. So if they commit a rape, and maybe just 
pled down, am I wrong on the number two, they plead down to say 
sexual abuse and exploitation, that's not good enough?
    Mr. Rodriguez. If the person, if their top count of 
conviction is rape, which is a serious felony, then in that 
case, they are----
    Chairman Chaffetz. But sexual abuse is not?
    Mr. Rodriguez. Sexual abuse may not necessarily be rape. So 
in fact, in the criminal law----
    Chairman Chaffetz. But it might, right?
    Mr. Rodriguez. Well, certainly as a prosecutor, I have seen 
people pled down to sexual abuse, if that's the point you are 
trying to make. So let's be clear about that. What sexual abuse 
actually means in the criminal law is not rape.
    Chairman Chaffetz. So based on the Homeland Security 
directive from Secretary Johnson, if you commit and are 
convicted of sexual abuse, or exploitation, that is priority 
two?
    Mr. Rodriguez. Which means that you are still a priority, a 
priority for removal.
    Chairman Chaffetz. You are not the top priority. You're not 
the top priority.
    Mr. Rodriguez. But if you are convicted of rape, the felony 
of rape, you are a top priority for removal. Let's not--let's 
not have people misunderstand that fact. If you are convicted 
of a rape, you are a top priority for removal. Let's not have 
the American people believe anything else.
    Chairman Chaffetz. But let's get the list of the things 
that are number two: Offense of domestic violence, sexual abuse 
or exploitation, burglary, unlawful possession or use of a 
firearm, drug distribution or trafficking, driving under the 
influence; all of which are not the top priority of Homeland 
Security.
    Mr. Bersin. Mr. Chairman, you have heard Secretary Johnson 
say that his top priority is national security and public 
safety. And with all due respect, the priority one goes to 
felonies, the priority two--and sexual abuse can often, short 
of rape, be a felony. If it's a felony, it's priority one. The 
priority two that you're referring to are significant 
misdemeanors. And frankly, as a former prosecutor, I think the 
felony should take precedence. It doesn't mean that we don't 
pay attention.
    Chairman Chaffetz. But why not just get rid of all of them? 
You have got them in your possession.
    Mr. Bersin. Because you know that when you actually 
allocate resources either as a prosecutor or----
    Chairman Chaffetz. Are you saying it's a resource problem? 
Are you saying it's a resource problem?
    Mr. Bersin. No, I'm saying that when you have a choice to 
be made----
    Chairman Chaffetz. Why is--if somebody is convicted for any 
crime, why are they not deported? Immediately? I mean, or serve 
time and then be deported? Why don't they all get deported? Why 
are there exceptions?
    Mr. Bersin. So 90--more than 90 percent of priority one and 
two removals, so I don't think it's fair to suggest that there 
is no attention to priority two. There is. And it----
    Chairman Chaffetz. We obviously have a--we obviously have a 
policy discussion--difference. I don't think I misunderstand. I 
think you understand it as well. My point is, you got people 
convicted. They are here illegally. They are convicted, and you 
let them go. If it's only 90 percent----
    Mr. Bersin. That's a different--that's a different issue 
than the priorities for enforcement. The issue of removal----
    Chairman Chaffetz. Is it true or not true that during 2 
fiscal years, you had 66,000 people in your possession that 
were convicted of crimes that you released into the public. 
True or false?
    Mr. Bersin. What crimes?
    Chairman Chaffetz. Any crime.
    Mr. Bersin. Yes. So, well, you say any traffic violation, a 
misdemeanor. Look, I understand----
    Chairman Chaffetz. Are there people on priority one and 
priority two?
    Mr. Bersin. There are minor--there are minor offenses that 
are misdemeanors that are not top priority.
    Chairman Chaffetz. I just--no, yes or no, 66,000 people 
over two-year fiscal year period, that you had in your 
possession and that you released into the public. You did not 
deport them. Correct?
    Mr. Bersin. Chairman----
    Chairman Chaffetz. True or false?
    Mr. Bersin. It's not just a yes or no, because you know 
there are requirements----
    Chairman Chaffetz. Is it true or false?
    Mr. Bersin. The answer is that there are requirements to 
release people under court decisions that you're aware of.
    Chairman Chaffetz. This is so screwed up about the Obama 
administration. You're here illegally, you commit a crime, you 
deport them. Get rid of them. Serve your time, and get rid of 
them. They are a threat to public safety. They are a threat for 
terrorism. And they should not be released back into the 
public. That's what's so outrageous.
    Let me recognize the gentleman from Florida, Mr. DeSantis 
for 5 minutes.
    Mr. DeSantis. The priorities are related to your failure to 
remove these folks because you say, oh, they are priority two, 
we will still get to them. The fact is, that those 66,000, when 
we got the individual offenses, you did have people convicted 
of homicide that were released. You had people convicted of 
sexual assault, rape, child molestation; really, really 
significant crimes. And to say there are court decisions, 
that's a rationalization for why you released them, but you did 
release them and that's putting the public at risk.
    And so I second the chairman's concern about that. And the 
fact of the matter is, I was a prosecutor, particularly with 
some of the child molestation stuff, you do plead that down, 
some prosecutors do, because you don't want to put the child on 
the stand. And so they end up with offenses that could probably 
be considered priority two. And that's putting the American 
people at risk. But I digress.
    Ms. Richard, you were quoted recently as saying that the 
biggest myth is people coming here could be terrorists in 
relation to the Syrian refugee situation. Why are you so 
dismissive of the possibility that they are going to have 
terrorists in the refugee flow?
    Ms. Richard. I am not dismissive of the idea that terrorist 
organizations----
    Mr. DeSantis. You said it was a myth. Why did you say it 
was a myth then?
    Ms. Richard. I don't remember saying that.
    Mr. DeSantis. You said the biggest myth is that people 
coming could be terrorists, and your point was that they were 
likely to be fleeing terrorists. But the issue is, is that if 
you have 10,000 people, even if 99 percent of them are, you 
know, no threat, 1 percent, that's a significant number of 
people that would be injected into our society. We just saw, 
recently, two refugees linked to the Paris attack were arrested 
in an Austrian refugee camp, and you will acknowledge, will you 
not, that we have had refugees come to this country who have 
been prosecuted for material support to terrorism, correct?
    Ms. Richard. Correct.
    Mr. DeSantis. You will acknowledge that?
    Ms. Richard. Yeah.
    Mr. DeSantis. Because we had a number of them just this 
year, you know, the Eastern District of Virginia, Liban Haji 
Mohamed. You had Abdinassir Mohamud Ibrahim from the Western 
District of Texas. A lot of these people came as refugees. Some 
then ended up getting LPR status, some even citizenship. But 
the fact of the matter is, these are folks who have come 
through the program and have gone to terrorism.
    Let me ask you this: What is your appraisal of how the 
Somali refugee community in Minnesota has worked out for the 
interest of the United States?
    Ms. Richard. What I wanted to say was that most--all bona 
fide refugees are people who are fleeing terrible things, 
including terrorists.
    Mr. DeSantis. That's the point though. I think a lot of us 
are concerned that we can't tell the difference between a bona 
fide refugee, given what the FBI Director has said, and given 
what other very high officials have said. So I take that point. 
But what about the situation with the Somali refugees in 
Minneapolis? There's tens of thousands have settled there over 
the last 20 years. We know that there is very high rates of 
cash assistance, and food assistance paid for by the taxpayer. 
And here's the thing: You have had over 50 people from that 
community go to join ISIS, or al-Shabaab, or other terrorist 
groups in the Middle East. Is that something that's in the 
United States' interest?
    Ms. Richard. No, it's not. The U.S. is closed to al-Shabaab 
and to ISIS and to ISIL.
    Mr. DeSantis. Well, how did that end up happening then?
    Ms. Richard. This, to me, is the key question, why anyone 
would be attracted by ISIL or al-Shabaab. People born in the 
United States, people who are converts to this--these 
followings, people who are refugees who came into the United 
States.
    Mr. DeSantis. So you're not sure why it happens?
    Ms. Richard. I think this is the key question for all of 
us. What is the attraction?
    Mr. DeSantis. But here's why your statement bothered me 
because what I think the Somali experience in Minnesota shows, 
a lot of people who were coming directly, when they were 
adults, were not necessarily involved in terrorism and did not 
pursue terrorism when they got to the United States. But then 
they have the families and you have the second generation. You 
have U.S. citizens. So their choice, they could have grown up 
in Somalia, and they draw the biggest, you know, it's like a 
royal flush to be able to grow up in America, and given all of 
that, how do they thank the United States? They go join the 
jihad.
    Ms. Richard. I agree with you 100 percent.
    Mr. DeSantis. Well, here's the point, though.
    Ms. Richard. This is what keeps me awake at night. Why 
would someone who grows up in the United States be attracted to 
this?
    Mr. DeSantis. But here's the point: The refugee policy that 
we have, even getting beyond the vetting initially, you are 
having to essentially try to figure out what's going to happen 
10, 20 years down the road. And so the folks that we are 
bringing in now, we don't know what the downstream effects of 
that are going to be. So when I see something like what's 
happened in Somalia, it gives me a lot of cause for concern.
    Mr. Rodriguez, let me ask you this: We have got Tashfeen 
Malik's form that she executed when she was applying for her K-
1 visa. She was asked, there's a question on there basically 
saying, ``Are you a terrorist? Check yes or no.''
    Is that really the best that we can do, because I think 
even from her perspective, I don't even think she has to lie 
because she probably doesn't consider herself to be a 
terrorist.
    Mr. Rodriguez. I think you are referring to the consular 
interview. I will talk about what we know and what we think we 
need to do. For example, in the refugee screening process, we 
developed lines of questioning as part of the interview that go 
beyond just what might appear on a mere form, and actually----
    Mr. DeSantis. So you are in the process of developing that?
    Mr. Rodriguez. No. No, that exists. That has existed for 
years. And those are being reinforced.
    Mr. DeSantis. What about her address application? They 
asked that question.
    Mr. Rodriguez. That, the unless there is a--under current 
practice, unless there is a specific trigger, some derogatory 
information that would lead us to probe into those kinds of 
issues, we don't, obviously, that's one of the things we need 
to be thinking about.
    Mr. DeSantis. Well, see, I think, you know, this is 
somebody who obviously we know that there was statements that 
she had been making over the Internet. She is traveling from 
Pakistan and Saudi Arabia, and those are hotbeds of Salafist 
ideology, very, very dicey when you start talking about 
individuals.
    Ms. Bond, is the State Department recommending that 
Congress, do you guys need to us change any laws so that we can 
have a system that would screen out people like Tashfeen Malik?
    Ms. Bond. We do have laws that would screen out the likes 
of Tashfeen Malik.
    Mr. DeSantis. So you don't think there needs to be any 
changes?
    Ms. Bond. If we identify them. And we are looking at----
    Mr. DeSantis. But that's my point. Does Congress need to 
give you authority or change policy in any way so that they are 
identified? Obviously, if they are identified, I hope they 
wouldn't be let in. I mean, that would be to me--but we are not 
identifying everybody now, and the question is, is this just 
kind of bureaucratic mistakes, or do we need to change 
policies? Do you have recommendations for us?
    Ms. Bond. I would--I do not at this moment, but I think, 
based on the review that we are looking at now, it's possible 
that some of the ideas that we generate might require a change 
in the law.
    Mr. DeSantis. Thank you, I yield back.
    Chairman Chaffetz. Thank you, as we conclude, I do have to 
get through a couple more, and then we will be done.
    I really do believe that one of the untold stories, the 
biggest--one of the biggest threats that we have, are those 
that are coming illegally to the United States, and those that 
are coming to the country illegally and claiming asylum because 
they will get papers. They will be working. They don't go 
through a vigorous insightful interview. And I think that is a 
huge, gaping hole that has to be plugged. There's a reason why 
that we have had this huge ascent, this huge growing number.
    I went to the Eloy detention facility in Arizona. There 
were some 150 different countries represented there; a lot of 
people coming that have to be addressed. We still, in this 
country, do not have an entry-exit program. There have been at 
least a half dozen times, where law has been put in place since 
1996. Why do we not have an entry-exit program?
    Mr. Bersin. So, with respect, I have been asked, and I'm 
prepared to answer that, Mr. Chairman, to the best of my 
ability. There was, apparently, an agreement for a hard stop at 
1 o'clock, and I would ask if we can, in due course, bring the 
hearing to a conclusion as staff had negotiated. I happen to 
have a----
    Chairman Chaffetz. I don't--I'm sorry, but I'm just not 
negotiating the end time here. We are going to answer these 
questions. I think it will be a few minutes.
    Mr. Bersin. Okay. So the--starting in 2012, CBP started to 
get the resources to be able to start to develop in earnest, 
the entry-exit system. As I indicated before, Mr. Chairman, the 
way in which our airports, our whole infrastructure was 
constructed, it was not--you were not able to capture 
biometrics on the way out. There was no screening on the way 
out. The focus was screening on the way in.
    So CBP, and I remember this during my tenure there, Mr. 
Chairman, there were three ways you could do it. You could 
actually rebuild the infrastructure, and that was rejected for 
cost reasons. You could actually put CBP----
    Chairman Chaffetz. Who rejected that?
    Mr. Bersin. That was a decision made with--I participated 
and I recommended that, in fact, we not rebuild all of the 
airports and the seaports.
    Chairman Chaffetz. Where is the proposal, and when was it 
rejected?
    Mr. Bersin. I will, if, in fact, it was ever--if it came to 
the Congress, which I don't believe it did, I will--I will 
endeavor to get it by the end of January.
    Chairman Chaffetz. When will I get that?
    Mr. Bersin. The second reason----
    Chairman Chaffetz. Wait, wait, wait. When will I get that 
proposal that was rejected?
    Mr. Bersin. By the end of--consistent with Mr. Rodriguez's 
schedule, by the end of January.
    Chairman Chaffetz. The end of the first week of January, I 
believe is what he said.
    Mr. Bersin. Were you that generous, Mr. Rodriguez?
    Mr. Rodriguez. Well, I think a more modest----
    Chairman Chaffetz. I want you to leave right now as you 
want to go at 1 o'clock, but I'm hopeful that it is to go get 
this report. But----
    Mr. Bersin. The second was----
    Chairman Chaffetz. No, no, no. What's the date? Tell me the 
date.
    Mr. Bersin. January 30.
    Chairman Chaffetz. Okay.
    Mr. Bersin. The second was to put CBP officers, and we 
actually had a pilot where CBP officers would be placed at 
the--would be placed at the ports of entry. And the estimate 
there was that it would--that would take resources away from 
other functions that we did not have in terms of CBP officers.
    Chairman Chaffetz. So you're saying that this is rejected, 
those two instances, because of money?
    Mr. Bersin. Yes, sir.
    Chairman Chaffetz. And yet----
    Mr. Bersin. Well, not only money in the first order 
because, in fact, it would have required a complete 
restructuring of our ports of entry. So it would also interfere 
with commercial activities and other interests we had.
    Chairman Chaffetz. There was a conscious choice not to have 
an exit program. My question here, and again, I'm trying to 
wrap up here, but if it's a resource problem, why did Homeland 
Security come to--and reprogram $113 million from ICE, and give 
it to Secret Service and FEMA?
    Mr. Bersin. I'm not familiar with that decision, Mr. 
Chairman.
    Chairman Chaffetz. Homeland Security recently gave $150 
million to the Mexican Government. It may be worthwhile. But I 
just don't understand, since it's law six times over, why there 
isn't an exit program. I just don't understand that.
    Mr. Bersin. The effort to get an overstay report, which I 
have communicated to the committee, is underway, is part of 
this process that has been initiated to capture all of the 
biographic. We actually do a fair amount. You will see in the 
overstay report, we do a fair amount that actually captures 
biographic; those who come in, and those that go out.
    Chairman Chaffetz. Do most people come in by land, sea, or 
air?
    Mr. Bersin. There are 180 crossings--182 million crossings 
on the land. We have about a million people a day that are 
processed in. And it's--most of the people are coming by air.
    Chairman Chaffetz. You think that most people are coming in 
the air?
    Mr. Bersin. Individual people. So I'm saying of the 182 
million crossings that we have, those are repeated crossings 
going back and forth. Separate individuals, but in terms of 
sheer traffic, it's the land, obviously. But the crossings and 
individual people is actually more coming by air.
    Chairman Chaffetz. With nearly 10 million border crossing 
cards, do you collect biographical, or biometric information on 
those people?
    Mr. Bersin. We do not, no.
    Chairman Chaffetz. Okay, I could go on and on. It is such a 
mess and a disaster. Let me recognize the gentleman from 
Georgia, Mr. Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. I will be very brief. 
Thank you for staying, and I will be respectful of your time. 
And I will try to be as quick as I can.
    Ms. Bond, based on earlier testimony, a K-1 fiance(e) visa 
is classified like a nonimmigrant visa, but the applicant must 
go through the full immigration visa screening process. Is that 
correct?
    Ms. Bond. Yes.
    Mr. Carter. So what kind of screening and tests must a K-1 
applicant pass?
    Ms. Bond. Okay. Because it is treated like an immigrant 
visa, in other words, this is an individual that we expect to 
remain permanently in the United States, and so, they get 
exactly the same security screening as any other traveler to 
the United States. We don't distinguish between immigrant and 
nonimmigrant in terms of the interagency security terrorism 
criminal background, all of that review. However, for example, 
if you are applying for an immigrant visa, you do have to 
undergo a medical exam. And so someone who is getting a 
fiance(e) visa gets that medical exam.
    If you are applying for an immigrant visa, you have to 
present a police certificate from any country where you have 
lived for more than 6 months since you were 16, showing that 
you didn't have a criminal record in that country.
    Mr. Carter. So that's the background check that you do?
    Ms. Bond. That is part of the process for immigrant visas 
that you wouldn't require if someone is coming in a 
nonimmigrant capacity.
    Mr. Carter. Okay. Was Tashfeen Malik, was she subject to 
that process as a K-1 visa applicant?
    Ms. Bond. Yes.
    Mr. Carter. She was? So nonimmigrant visas, such as those 
that under the Visa Waiver Program, are they less stringent 
than a K-1 visa?
    Ms. Bond. If you're applying for a nonimmigrant visa, for 
example, a tourist visa, we do not require you to submit proof 
that you have a clean criminal record in every country where 
you have lived.
    Mr. Carter. So your answer would be yes?
    Ms. Bond. Yes.
    Mr. Carter. So a nonimmigrant visa, such as those under the 
Visa Waiver Program, they are less stringent than a K-1 visa?
    Ms. Bond. Right. We ask the question about whether you have 
any criminal record, but you are not required to prove it.
    Mr. Carter. So we have got 1.6 million overstays in the 
backlog, 400,000 of which are from the Visa Waiver Program, 
which is the less stringent program, correct?
    Ms. Bond. The Visa Waiver Program is not less stringent in 
terms of the security check that is done than the other visa--
--
    Mr. Carter. But the background is?
    Ms. Bond. Well, the interagency name check is the same for 
all of them. But if you're traveling as a nonimmigrant, you are 
normally not required to provide the police certificate, for 
example. You are not required to undergo a health exam that you 
would if you were coming in as an immigrant.
    Mr. Carter. Well, I would say that that's less stringent 
then. Would you not agree?
    Ms. Bond. Yes, I agree that the paperwork that is 
required--for example, also, if you are coming in as an 
immigrant, we have to see a certified copy of your birth 
certificate. If you are coming in as a married couple, we need 
a certified copy, of your marriage certificate. We are not 
asking for that kind of documentation for nonimmigrants. So 
there are a number of documents that have to be in the file if 
you are moving permanently to the United States, which we do 
not require if you are.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Carter. I yield.
    Chairman Chaffetz. You don't have to actually provide a 
marriage certificate prior to coming on a K-1 visa, correct?
    Ms. Bond. No. If you are coming on a K-1 visa, you wouldn't 
have a marriage certificate, but you would have to provide a--
in other words, if you are not married, you don't have to 
provide a marriage certificate. However, you would have to 
provide--suppose you are someone who has been married before, 
we would need a certified copy of the divorce decree, or the 
death certificate.
    Chairman Chaffetz. No, you just suggested, if I heard it 
right, that you had suggested that they had to--anyway, I just 
wanted to clarify because in the case of San Bernardino, that's 
how she got here, was claiming that she would get married, and 
it looks like she did get married based on records that I have 
seen. But I just wanted to clarify that for----
    Ms. Bond. Okay. But what I was saying was, if you were a 
married couple coming into the United States on immigrant 
visas, we would need to see your marriage certificate. I wasn't 
talking about a fiance. Although, again, if she were previously 
married, or if a petitioner was previously married, we have to 
see, or USCIS has to see a certified copy of the death 
certificate or the divorce decree that ended the previous 
marriage.
    Chairman Chaffetz. Yield back.
    Mr. Carter. So we have got almost 400,000 immigrants who 
are under this Visa Waiver Program who are on backlog, as we 
understand it, through a system that you are telling me is 
perhaps less stringent than what we would require of others, 
and I'm just disturbed by that. You can understand where my 
concern is, especially in light of the recent events that we 
have experienced here on our homeland.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank you. I want to thank all of the 
members and our witnesses today, as the clarifier, particularly 
to Mr. Gowdy's comments about the sharing of lists, and there 
were several members, both sides of the aisle, talking about 
sharing as we go through the vetting process. There are people 
that are here illegally. There are people that are here legally 
and have committed crimes. There are people that are here on 
visas. There are people who have overstayed their visas. I 
mean, I could keep going on and on. But they are not eligible 
to purchase a firearm.
    The question is, do you share that information with 
appropriate authorities, and are those lists given to those 
other agencies, particularly ATF, FBI? There's others that I'm 
not thinking about, but there's certainly State needs as well. 
When can you give me that information?
    I mean, we are simply interested in whether or not--it 
should be a fairly easy--there are other agencies, particularly 
the Department of Justice, that are responsible for those, but 
I need to know if you are giving them that?
    Mr. Bersin. We will make inquiry. I know that they have 
access to them, and let me make inquiry by the last week in 
January. I think the question that is being asked in return is 
whether or not people who were on the terrorist screening 
database ought to be included as well. I think that's the 
question.
    Chairman Chaffetz. Correct. That's what I'm saying. There's 
a lot of lists that you all go to great lengths to populate. 
Then the question becomes, do those populated lists get in the 
hands, so if somebody was here at, say, a visa overstay, and 
they go to purchase a firearm, because there are States that 
are handing out driver's licenses. One of my questions that I 
would appreciate, part of that answer is, if you have somebody 
who is here illegally, and they have taken their driver's 
license--and they have got a driver's license, we know and now 
have identified that person, can we, have we shared that 
information? So last week of January, is that fair enough?
    Mr. Bersin. Yes, sir.
    Chairman Chaffetz. All right, thank you. And I would like 
to know on those that are here and refugees, do you track or do 
anything in terms of any of those people, have they committed 
any crimes?
    Ms. Richard. No. Our Bureau does not do that.
    Chairman Chaffetz. Give us one moment. Mr. Palmer has two 
quick questions and we will adjourn.
    Mr. Palmer. Thank you for indulgence, Mr. Chairman. I want 
to go back to the discussion that we had earlier about people 
who were allowed to enter the country, and in the context of 
refugees, do you keep track of people who transition from 
refugee status to immigrant status?
    Mr. Rodriguez. Well, we keep track of them in the sense 
that at the time, presumably, that they apply for adjustment, 
which they are, in fact, required to do. We encounter them 
again; we know that they have applied for adjustment. We know 
the address that they are giving at that time. We run a fresh 
set of checks at that point, so in that respect, we do keep 
track of them.
    Mr. Palmer. Is there a time limit? Is there a length of 
time that they have to be here before they are eligible to 
apply for immigrant status?
    Mr. Rodriguez. They are expected to apply for adjustment 
within a year of----
    Mr. Palmer. Well, all I'm asking is, is that--you have to 
be here a year before you are eligible to apply?
    Mr. Rodriguez. That is the time of your eligibility. That 
is correct.
    Mr. Palmer. So after you have been here 1 year, you can 
apply for your immigrant status?
    Mr. Rodriguez. That's correct.
    Mr. Palmer. If they have been here a year, can they apply 
for citizenship?
    Mr. Rodriguez. They will then need to wait 5 years after 
they have become legal permanent residents before they can 
become citizens.
    Mr. Palmer. So 6 years?
    Mr. Rodriguez. That is correct.
    Mr. Palmer. Okay. And what is the typical wait time for 
them once they have applied for citizenship? Do you have a----
    Mr. Rodriguez. As we speak right now, we are at target on 
processing naturalization applications, which is 5 months.
    Mr. Palmer. Five months.
    Mr. Rodriguez. Yes, sir.
    Mr. Palmer. So you have people who have applied for 
citizenship, you know, who have come here legally and applied 
for citizenship, who literally wait years at an enormous cost, 
but are we giving--are we expediting, giving priority to the 
folks that have come here as refugees, and became, you know, 
applied for immigrant status and applied for citizenship?
    Mr. Rodriguez. Not in any of those processes, no. I mean, 
they are in the queue. Essentially first in, first out.
    Mr. Palmer. Why is it you can then process them faster than 
you do people who have been here for years trying to----
    Mr. Rodriguez. It is just, the point--the law for refugees 
is that they are expected to apply for legal permanent 
residence within a year. At that point their wait time to 
become citizens is another 5 years. That's just the way--that's 
the law. That's not our processing. That's the law.
    Mr. Palmer. But that 5-year wait applies to other 
immigrants as well.
    Mr. Rodriguez. It's anybody who has become a legal 
permanent resident. That is correct, with certain exceptions.
    Mr. Palmer. But my point is that those who have come here 
legally, and Mr. Chairman, I hear report after report, after 
report, of people who have immigrated here legally who have 
applied for citizenship after 5 years that literally have to 
wait years and spend enormous amounts of money relative to 
their--to their net worth, and can't get--and still are on a 
waiting list to become citizens.
    Mr. Rodriguez. Yeah, years.
    Mr. Palmer. And just it troubles me, Mr. Chairman, that it 
appears that not only are we not doing a particularly good job 
of vetting people coming here on visas, we are not adequately 
vetting the refugees before we admit them, particularly from 
countries that might be problematic, that somehow people get 
moved to the head of the line.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Chairman Chaffetz. Thank you. A, I want to thank the 
witnesses here today. B, I want to especially thank the men and 
women who go out and do a very hard job, thankless job, that 
are out there serving their country, and doing so to the very 
best of their ability, sometimes with very limited tools and 
resources. We do this in the spirit of trying to help and to 
fix this in a bipartisan way, and our thanks and gratitude goes 
to them.
    Let me be clear. We do not make deals as to when hearings 
will end. And so for staff to suggest that we agreed 1 
o'clock--I'm sorry, that never came to me. I want to be clear 
for future hearings, that's just not a deal we are going to 
make. Under House Rules, each member is allowed to ask 5 
minutes of questions per witness. So all told, we can have all 
of these members ask four sets of 5-minute questions. Most 
members ask one question, some members didn't show up, and I 
think I asked three questions. So I just want to understand and 
clarify that.
    The other thing is, we weren't planning to have this 
hearing this week because we expected last week's hearing to be 
productive, and it wasn't. I think we made our point on that. 
But please help us and provide us people who come as witnesses 
to this committee, as you would other committees, and make sure 
that they are properly prepared to answer the full array of 
questions. Again, we thank you all for your time.
    We wish you best this holiday season and the committee 
stands adjourned.
    [Whereupon, at 1:35 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
